<html>
<title> - OVERSIGHT OF ICE DETENTION FACILITIES: EXAMINING ICE CONTRACTORS' RESPONSE TO COVID-19</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                OVERSIGHT OF ICE DETENTION FACILITIES: 
            EXAMINING ICE CONTRACTORS' RESPONSE TO COVID-19

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     BORDER SECURITY, FACILITATION,
                             AND OPERATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                             JULY 13, 2020
                               __________

                           Serial No. 116-75
                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
43-192 PDF                WASHINGTON : 2021   



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, AND OPERATIONS

                 Kathleen M. Rice, New York, Chairwoman
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana, Ranking 
J. Luis Correa, California               Member
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Al Green, Texas                      John Joyce, Pennsylvania
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
             Alexandra Carnes, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................    13
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15

                               Witnesses

Mr. Damon T. Hininger, President and CEO, CoreCivic:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. George C. Zoley, Chairman and CEO, The GEO Group:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. Scott Marquardt, President and CEO, Management & Training 
  Corporation (MTC):
  Oral Statement.................................................    37
  Prepared Statement.............................................    39
Mr. Rodney Cooper, Executive Director, LaSalle Corrections:
  Oral Statement.................................................    54
  Prepared Statement.............................................    56

                             For the Record

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Statement of Detention Watch Network...........................    86
  Statement of the National Immigrant Justice Center (NIJC)......    90
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Letter From Government Accountability Project..................     7

                                Appendix

Questions For Damon T. Hininger..................................    95
Question From Honorable Nanette Barragan for George C. Zoley.....   114
Question From Honorable Joe Neguse for George C. Zoley...........   114
Questions From Chairwoman Kathleen M. Rice for George C. Zoley...   115
Questions From Chairman Bennie G. Thompson for George C. Zoley...   119
Questions From Honorable Cedric L. Richmond for George C. Zoley..   121
Questions From Honorable Al Green for George C. Zoley............   123
Questions From Chairwoman Kathleen M. Rice for Scott Marquardt...   123
Questions From Chairman Bennie G. Thompson for Scott Marquardt...   129
Questions From Honorable Cedric L. Richmond for Scott Marquardt..   129
Questions From Chairwoman Kathleen M. Rice for Rodney Cooper.....   130
Questions From Chairman Bennie G. Thompson for Rodney Cooper.....   133
Questions From Honorable Cedric L. Richmond for Rodney Cooper....   136

 
   OVERSIGHT OF ICE DETENTION FACILITIES: EXAMINING ICE CONTRACTORS' 
                          RESPONSE TO COVID-19

                              ----------                              


                         Monday, July 13, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border Security, 
                              Facilitation, and Operations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:03 p.m., via 
Webex, Hon. Kathleen M. Rice [Chairwoman of the subcommittee] 
presiding.
    Present: Representatives Rice, Payne, Correa, Torres Small, 
Green, Clarke, Thompson (ex officio), Jackson Lee, Barragan, 
Richmond, Higgins, Lesko, Joyce, Guest, and Rogers (ex 
officio).
    Also present: Represntative Neguse.
    Miss Rice. The Subcommittee on Border Security, 
Facilitation, and Operations will come to order.
    Today this subcommittee meets to examine the response to 
COVID-19 by 4 of the private contractors responsible for 
managing facilities in the U.S. Immigration and Customs 
Enforcement detention network.
    As coronavirus cases continue to spike Nation-wide, we must 
ensure that the contractors our Government relies on are taking 
every step they can to minimize the spread of COVID-19 among 
workers and detainees.
    For fiscal year 2020, Congress appropriated approximately 
$3.1 billion for more than 45,000 single adults and family ICE 
detention beds and other custody operations. Over 80 percent of 
these beds are operated daily by private contractors, some of 
whom are at this hearing today. That is a large amount of 
taxpayer money, which is funding a historically high number of 
detention beds, and it demands oversight and accountability.
    Detention facilities must be held to a high standard at all 
times, but in this moment it is of vital importance. Yet, over 
the past few months, it is clear that ICE and its contractors 
have not taken this outbreak seriously and have not treated it 
aggressively enough.
    More than 3,000 detainees, 280 contractors, and at least 45 
ICE employees assigned to detention facilities have now tested 
positive for COVID-19. Sadly, we have lost at least 2 
detainees, a potential third today in the State of Florida, and 
5 contractors due to complications from the coronavirus after 
exposure at detention facilities.
    Despite these horrific losses, ICE is continuing normal 
operations and contractors are following in lockstep. ICE 
continues to transfer detainees between facilities and 
contractors continue to accept them.
    Further, there is overwhelming evidence that these 
transfers have likely contributed to multiple COVID-19 
outbreaks inside of ICE detention facilities across the United 
States. We have also read reports and heard from current and 
former employees that guidance issued by the 4 companies 
represented here today suggested rationing personal protective 
equipment.
    While documents provided to the committee show that 
management at a few facilities are attempting to practice 
social distancing, the clearest way to prevent the spread of 
this disease in these facilities is to pursue alternatives to 
detention and release those detainees who pose no threat to 
communities.
    The high risk of exposure to COVID-19 at these facilities 
is further exacerbated by inadequate medical care. Prior to the 
pandemic, health services provided in detention facilities were 
severely lacking and proved to be the source of most complaints 
by detainees.
    So it is no surprise that the current public health crisis 
has only compounded that situation. Some facilities are 
reportedly waiting days or weeks to test individuals, including 
the most vulnerable detainees.
    The bottom line is that much more needs to be done to stop 
the spread of the coronavirus at these facilities. To protect 
the health of both detainees and the American people, guidance 
to facility personnel must be clear and explicit. Transfers 
between facilities must be stopped immediately and adequate 
medical care must be provided.
    COVID-19 does not distinguish between U.S. citizens and 
noncitizens and neither should we in our approach to protect 
against it. I look forward to hearing from our witnesses today 
about what additional steps they will take to address this 
pressing issue going forward.
    [The prepared statement of Chairwoman Rice follows:]
                Statement of Chairwoman Kathleen M. Rice
                             July 13, 2020
    Today, this subcommittee meets to examine the response to COVID-19 
by 4 of the private contractors responsible for managing facilities in 
U.S. Immigration and Customs Enforcement's detention network. As 
coronavirus cases continue to spike Nation-wide, we must ensure that 
the contractors our Government relies on are taking every step they can 
to minimize the spread of COVID-19 among workers and detainees.
    For fiscal year 2020, Congress appropriated approximately $3.1 
billion for more than 45,000 single adult and family ICE detention beds 
and other custody operations. Over 80 percent of these beds are 
operated daily by private contractors, some of who are at this hearing 
today. That is a large amount of taxpayer money, which is funding a 
historically high number of detention beds--and it demands oversight 
and accountability.
    Detention facilities must be held to a high standard at all times, 
but in this moment, it is of vital importance. Yet, over the past few 
months, it is clear that ICE and its contractors have not taken this 
outbreak seriously and have not treated it aggressively enough. More 
than 3,000 detainees, 280 contractors, and at least 45 ICE employees 
assigned to detention facilities have now tested positive for COVID-19. 
Sadly, we have lost at least 2 detainees and 5 contractors due to 
complications from the coronavirus after exposure at detention 
facilities.
    Despite these horrific losses, ICE is continuing normal operations 
and contractors are following in lockstep. ICE continues to transfer 
detainees between facilities and contractors continue to accept them. 
Further, there is overwhelming evidence that these transfers have 
likely contributed to multiple COVID-19 outbreaks inside of ICE 
detention facilities across the United States.
    We've also read reports and heard from current and former employees 
that guidance issued by the 4 companies represented here today 
suggested rationing of personal protective equipment. While documents 
provided to the committee show that management at a few facilities are 
attempting to practice social distancing, the clearest way to prevent 
the spread of this disease in facilities is to pursue alternatives to 
detention and release those detainees who pose no threat to 
communities.
    The high risk of exposure to COVID-19 at these facilities is 
further exacerbated by inadequate medical care. Prior to the pandemic, 
health services provided in detention facilities were severely lacking 
and proved to be the source of most complaints by detainees. So it is 
no surprise that the current public health crisis has only compounded 
that situation. Some facilities are reportedly waiting days or weeks to 
test individuals, including the most vulnerable detainees.
    The bottom line is that much more needs to be done to stop the 
spread of the coronavirus at these facilities. To protect the health of 
both detainees and the American people, guidance to facility personnel 
must be clear and explicit; transfers between facilities must be 
stopped immediately; and adequate medical care must be provided. COVID-
19 does not distinguish between U.S. citizens and non-citizens and 
neither should we in our approach to protect against it.
    I look forward to hearing from our witnesses today about what 
additional steps they will take to address this pressing issue going 
forward.

    Miss Rice. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Louisiana, Mr. Higgins, 
for an opening statement.
    Mr. Higgins. Thank you, Madam Chair. It is wonderful to 
join you in this meeting today on this very important topic, 
and I thank the witnesses for being here today.
    I further sincerely appreciate Chairman Thompson opening 
the hearing room to Members to conduct official business. As 
you know, it is my humble opinion that we should be conducting 
our important oversight and legislative missions here in the 
District of Columbia in person, and I look forward to the 
return of regular order.
    Let me state that I find it disappointing that the Majority 
did not invite ICE to a hearing that focuses on ICE. ICE could 
update us on the preventive measures they have taken to address 
COVID-19, the implementation of CDC and prevention 
recommendations, and further guidance they provided to 
detention facility contractors who will be joining us today.
    Under President Trump's administrative direction, ICE 
activated its pandemic work force protection plan in January of 
this year in response to the COVID-19 outbreak. That plan 
provides an additional layer of safety measures on top of ICE's 
performance-based National detention standards.
    ICE also convened a working group of medical professionals, 
disease control specialists, detention experts, and field 
operators to identify further steps to protect detainees. As a 
result, the populations of ICE dedicated to the detention 
facilities were reduced to 70 percent capacity. The CDC 
recommendation is 75 percent.
    This reduction included the review of nearly 34,000 
detainees in custody Nation-wide to identify those with high 
risk of severe illness potentially due to COVID-19. As a 
result, more than 900 detainees who posed a low risk to public 
safety were released. We can all agree that these are 
unprecedented times, and while I commend ICE for going above 
and beyond CDC guidance there is certainly more that needs to 
be done.
    As of July 7, 3.7 percent of those in ICE custody or 835 
individuals have tested positive for COVID-19. However, today 
in a hearing where we will heavily discuss the agency's 
response to COVID-19 and the threat thereof, ICE was not 
invited to testify.
    ICE should be here to update us on what further measures 
are taken to address COVID-19, what additional improvements 
could be made. ICE should be here to tell us what issues have 
arisen and how they have overcome them or not. ICE should be 
here to answer questions about the new information we received 
from these contractors as a result of the Chairman's very 
professional document production request.
    ICE should be before us today, but they are not here. Quite 
frankly, today's hearing topic is--I respectfully submit is 
outside our committee's jurisdiction, with this witness panel 
making it quite a stretch. Today we have the presidents and 
CEOs from 4 Government contractors who have to respond to 
repeated document production requests and testify before a 
committee with tertiary jurisdiction at best.
    Any legislation related to this topic, immigration 
detention and immigration laws, would not be referred to this 
subcommittee. On its face, it seems the purpose of this hearing 
is perhaps politically driven. Perhaps it is important to get 
the message out. I agree with the substance of what we seek, 
Madam Chair and Mr. Chairman, respectfully. I just--I believe 
ICE should be here to speak for themselves.
    We create an ever-moving goal post for hard-working Federal 
employees and contractors who are simply doing their jobs, 
abiding by the laws as prescribed by Congress. The truth is 
nearly half of those in ICE custody on this day have final 
orders of removal, nearly half. The majority of individuals 
still in custody have either criminal convictions or charges 
pending ranging from aggravated assault to homicide.
    These crimes committed in the United States are not taken 
lightly and they shouldn't be, yet some of my colleagues across 
the aisle seem to prefer that anyone detained by ICE should be 
released no matter what crime that individual has committed or 
how much of a public safety risk they represent.
    It is completely righteous for us to question ICE's 
treatment and response to COVID-19, but let us not go too far. 
I hope we can cut through politics. The Chairwoman and I have 
attempted to do so in the past. We shall continue that endeavor 
today. I look forward to speaking and listening.
    Thank you, Madam Chair. I yield back.
    [The prepared statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
                             July 13, 2020
    Thank you Madam Chair, and thank you to the witnesses for being 
here today.
    I appreciate Chairman Thompson opening the hearing room to Members 
to conduct official committee business. We should be conducting our 
important oversight and legislative missions here in Washington. 
Hopefully we will return to regular order as soon as possible to get to 
work for the American people.
    First let me state, that I find it disappointing that the Majority 
did not invite Immigration and Customs Enforcement (ICE) to update us 
on the preventative measures they've taken to address COVID-19, the 
implementation of Centers for Disease Control and Prevention 
recommendations, and further guidance they've provided to detention 
facility contractors.
    Under the Trump administration's direction, ICE activated its 
pandemic workforce protection plan in January of this year in response 
to the COVID-19 outbreak.
    That plan provides an additional layer of safety measures on top of 
ICE's Performance-Based National Detention Standards.
    ICE also convened a working group of medical professionals, disease 
control specialists, detention experts, and field operators to identify 
further steps to protect detainees.
    As a result, the populations of ICE-dedicated detention facilities 
were reduced to 70 percent capacity. The CDC recommendation is 75 
percent.
    This reduction included the review of nearly 34,000 detainees in 
custody Nation-wide to identify those with a high risk of severe 
illness due to COVID-19.
    As a result, more than 900 detainees who posed a low risk to public 
safety were released.
    We can all agree that these are unprecedented times.
    And while I commend ICE for going above and beyond CDC guidance, 
there is more that needs to be done.
    As of July 7, 3.7 percent of those in ICE custody--or 835 
individuals--have tested positive for COVID-19.
    However, today in a hearing where we will heavily discuss the 
agency's response to COVID-19, ICE was not invited to testify.
    ICE should be here to update us on what further measures they're 
taking to address COVID-19 and what additional improvements can be made 
in the future.
    ICE should be here to tell us what issues have arisen and how 
they've overcome them.
    ICE should be here to answer questions about the new information we 
received from these contractors as a result of the Chairman's document 
production request.
    ICE should be here before us today, but they weren't invited.
    Quite frankly today's hearing topic is outside our committee's 
jurisdiction, with this witness panel making it even more of a stretch.
    Today we have the Presidents and CEOs from 4 Government contractors 
who have to respond to repeated document production requests and 
testify before a committee with tertiary jurisdiction at best.
    Any legislation related to this topic, immigration detention, and 
immigration laws would not be referred to this committee.
    On its face it seems the purpose of this hearing is to further the 
radical leftist narrative on open borders, abolishing ICE, Government 
contractors, and defunding Federal agencies charged with securing the 
homeland as we've heard time and time again from some of my colleagues 
across the aisle.
    It creates ever-moving goal posts for hard-working Federal 
employees and contractors who are simply doing their jobs; abiding by 
the laws prescribed by Congress.
    The truth is, nearly half of those in ICE custody today have final 
orders of removal.
    The majority of individuals still in custody have either criminal 
convictions or charges pending ranging from aggravated assault to 
homicide to rape.
    These crimes committed in the United States are not to be taken 
lightly, yet some of my colleagues across the aisle don't want anyone 
to be detained by ICE no matter what crime that individual has 
committed or how much of a public safety risk they represent.
    I hope we can cut through the politics during our questioning 
today, and I hope next time the Majority actually invites the Federal 
agency they are critiquing so we get all the facts.
    Thank you, Madam Chair. I yield back.

    Miss Rice. I want to thank the Ranking Member and also just 
add that it appears that DHS components are referring to an OMB 
guidance about avoiding remote hearings, which is why I believe 
they would not respond.
    But I would be more than happy to put the question directly 
to them, but that is apparently what we have been informed, 
that they are refusing to participate based on the guidance of 
OMB in any remote hearings. But I thank you for raising that 
issue, Mr. Ranking Member.
    Members are reminded that the subcommittee will operate 
according to the guidelines laid out by the Chairman and 
Ranking Member in their July 8 colloquy.
    With that, I ask unanimous consent to waive committee rule 
8(a)2 for the subcommittee during remote proceedings under the 
covered period designated by the Speaker under House resolution 
965.
    Without objection, so ordered.
    Without objection, Members not sitting on the subcommittee 
will be permitted to participate in today's hearing.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much, Madam Chair.
    Good afternoon to all the Members present. I am glad to 
have this opportunity to speak with our witnesses about this 
important topic, immigration detention contractors' response to 
COVID-19.
    The COVID-19 pandemic has brought illness and death to 
communities across our country, with more than 135,000 
Americans losing their lives to coronavirus. My home State is 
not exempt. Over 1,200 of my fellow Mississippians have 
tragically succumbed to the pandemic, and cases continue to 
increase.
    This suffering has fallen disproportionately on minority 
communities, who often lack access to adequate health care. 
Those who reside in congregate settings, including detention 
facilities, are also particularly vulnerable.
    Even before the pandemic, many ICE detention facilities had 
a troubled record, with numerous complaints lodged about health 
and safety issues, poor living conditions, and inadequate 
inspections. These issues, combined with the risk of infection 
in any crowded space, can lead to outbreaks inside detention 
facilities.
    By the most recent reporting, thousands of ICE detainees 
across more than 70 detention facilities have tested positive 
for COVID-19. This unfortunately includes 35 detainees at the 
Karnes Family Residential Center in Karnes City, Texas, which 
is operated by the GEO Group. This situation cannot continue. 
ICE and its contractors must do their part to slow the spread 
of COVID-19 in the interest of saving lives and protecting our 
country.
    I thank the witnesses for their replies to my April 29 
letter requesting information on how they are mitigating the 
spread of COVID-19 in their facilities. However, I would note 
the productions have only been partially responsive.
    I hope today to get a clear commitment from each company to 
be more transparent about their practices and what they are 
seeing in their facilities during this public health crisis.
    ICE has been publicly reporting on the numbers of affected 
detainees and Federal employees, but a major gap in this 
reporting remains the number of contract personnel who have 
tested positive for COVID-19. The public deserves to know this 
information.
    The DHS inspector general also recently issued an initial 
report informed by surveys distributed to facilities across 
ICE's detention network. Those surveys allowed facilities to 
self-assess their preparedness and response to the pandemic, 
but there appeared to be a disconnect between issued guidance 
and implementation of that guidance.
    Similarly, my staff found serious implementation gaps when 
reviewing the documents each of your companies provided in 
response to my request. We have seen public reporting and heard 
from whistleblowers concerned with how ICE private contractors 
are managing this situation.
    I ask for unanimous consent to enter into the record a 
letter from the Government Accountability Project, which 
represents multiple whistleblowers who are alarmed by the 
LaSalle Corrections operations at the Richwood Correctional 
Center in Louisiana.
    [The information follows:]
             Letter From Government Accountability Project
                                     July 10, 2020.
Honorable Bennie Thompson,
Chair, House Committee on Homeland Security, Washington, DC, 20515.
Honorable Kathleen Rice,
Chair, House Homeland Security Subcommittee on Border Security, 
        Facilitation & Operations, Washington, DC, 20515.
Honorable Mike Rogers,
Ranking Member, House Committee on Homeland Security, Washington, DC, 
        20515.
Honorable Clay Higgins,
Ranking Member, House Homeland Security Subcommittee on Border 
        Security, Facilitation & Operations, Washington, DC, 20515.

Re: Whistleblower Disclosures on COVID-19--Private Contractors 
Mismanaging ICE Detention Facilities Are Endangering Public Health and 
Safety.

    Dear Committee and Subcommittee Chairpersons and Ranking Members: 
Government Accountability Project submits this letter for the record to 
summarize information from whistleblowers concerning mismanagement of 
COVID-19 issues by LaSalle Corrections (LaSalle), a private company 
contracted by U.S. Department of Homeland Security (DHS) Immigrations 
and Customs Enforcement (ICE) to operate immigration detention 
facilities.
    Government Accountability Project is a global leader in 
whistleblower advocacy and protection. Our lawyers have represented 
whistleblower employees for over four decades, employees who, among 
other things, have exposed government and corporate illegality, waste, 
fraud, abuse, and serious dangers to public health and safety.
    We currently represent multiple whistleblowers who have raised the 
alarm about health threats posed to workers, immigrants, and the public 
by the spread of COVID-19 in ICE detention. This letter summarizes 
evidence provided by our clients detailing ongoing gross mismanagement, 
dangerous practices, and compliance failures that has exacerbated, and 
continues to exacerbate, the spread of COVID-19, posing imminent 
dangers to the health and safety of staff, detainees, their families 
and friends and the public.
    Specifically, problems identified by whistleblowers at Richwood 
Correctional Center (Richwood) in Louisiana, operated by LaSalle, 
illustrates how mismanagement at detention centers accelerate the 
current public health crises. To date, whistleblowers report that at 
least 15 officers and 72 detainees have been infected with COVID-19, 
two officers have died and at least four hospitalized detainees have 
been placed on ventilators. These deaths and illnesses were likely 
caused by LaSalle mismanagement.
    The information here was provided to us by two groups of 
whistleblower clients: (i) DHS's own medical subject-matter experts in 
detention health who have continued to warn DHS and Congress about ICE 
detention facilities being ``tinder boxes'' for the spread of COVID-19; 
and (ii) staff who are either are or were employed at Richwood from the 
onset of the pandemic through today.
 a. whistleblowers: dhs's subject-matter medical experts on detention 
                                 health
    Government Accountability Project represents Drs. Scott Allen and 
Josiah ``Jody'' Rich, Nationally-recognized experts in detention 
health. They are physicians and subject-matter experts employed by the 
Office of Civil Rights and Civil Liberties (CRCL) within DHS. Dr. Allen 
has inspected multiple immigration detention facilities across the 
country over the past 6 years. He also serves as the court-appointed 
monitor overseeing medical care for jails in Riverside County, 
California. Dr. Rich specializes in infectious disease and public 
health. He has provided care at the Rhode Island Department of 
Corrections for decades and is currently caring for hospitalized 
coronavirus-infected patients.
    Drs. Allen and Rich began raising alarms about COVID-19 to CRCL in 
late February 2020 and again in mid-March. They alerted DHS leadership 
and others to the imminent risk to the health and safety of ICE 
detainees, staff, and the public caused by detaining people in 
congregate settings like ICE and other DHS detention facilities. They 
wrote to Congress on March 19, 2020,\1\ and Dr. Allen testified before 
the Senate Judiciary Committee on June 2, 2020.\2\
---------------------------------------------------------------------------
    \1\ Scott A. Allen, MD, FACP and Josiah Rich, MD, MPH, Letter to 
Congress (March 19, 2020), available at https://whistleblower.org/wp-
content/uploads/2020/03/Drs.-Allen-and-Rich-3.20.2020-Letter-to-
Congress.pdf.
    \2\ Written statement of Dr. Scott A. Allen, MD, ``Examining Best 
Practices for Incarceration and Detention During COVID-19,'' Senate 
Judiciary Committee (June 2, 2020), available at https://
www.judiciary.senate.gov/imo/media/doc/Scott%20Allen%20Testimony.pdf.
---------------------------------------------------------------------------
    In their disclosures they reported:
  <bullet> Infectious diseases, like COVID-19, spread rapidly in 
        congregate settings.
  <bullet> Transport of detainees typically occurs in congregate 
        settings.\3\ As Dr. Allen told the Senate last month, ``Jails, 
        prisons, and detention facilities are not islands--in fact, 
        they are more like bus terminals with people coming and going. 
        New arrestees and detainees arrive every day, in fits and 
        spurts, sometimes arriving in large groups. Immigrants are 
        transferred regularly throughout the detention system, with 
        staff accompanying them as escorts. They are released without 
        warning at court and immigrants are dropped at bus stations and 
        airports. Officers and staff come and go, 3 shifts a day. And 
        the virus can easily move back and forth by means of the 
        asymptomatic ``silent spreaders'' who carry the virus but do 
        not have symptoms.''\4\
---------------------------------------------------------------------------
    \3\ Lisa Riordan Seville and Hannah Rappleye, ``ICE keeps 
transferring detainees around the country, leading to COVID-19 
outbreaks,'' NBC News (May 31, 2020), available at https://
www.nbcnews.com/politics/immigration/ice-keeps-transferring-detainees-
around-country-leading-covid-19-outbreaks-n1212856; Monique Maden, 
``Coronavirus cases skyrocket at ICE detention center in Broward after 
transfer from Miami,'' Miami Herald (May 19, 2020), available at 
https://www.miamiherald.com/news/local/immigration/
article242844451.html; Hamed Ale- aziz, ``A Local Sheriff Said No To 
More Immigrant Detainees Because of Coronavirus Fears. So ICE 
Transferred Them All To New Facilities,'' BuzzFeed News, March 18, 2020 
(ICE recently transferred 170 immigrant detainees from Wisconsin to 
facilities in Texas and Illinois. `` `In order to accommodate various 
operational demands, ICE routinely transfers detainees within its 
detention network based on available resources and the needs of the 
agency . . . ' an ICE official said in a statement.''), available at 
https://www.buzzfeednews.com/article/hamedaleaziz/wisconsin-sheriff-
ice-detainees-coronavirus.
    \4\ U.S. Senate Judiciary Committee, ``Examining Best Practices for 
Incarceration and Detention During COVID-19'' (June 2, 2020), available 
at https://www.judiciary.senate.gov/download/scott-allen-testimony.
---------------------------------------------------------------------------
  <bullet> Asymptomatic spreaders, including children, pose risks as 
        carriers of infection, which can then spread the virus to older 
        family members or those in other high-risk categories who may 
        be a higher risk of serious illness.
  <bullet> Social distancing, which is essential to slow the spread of 
        the coronavirus to minimize the risk of infection and to try to 
        reduce the number of those needing medical treatment from 
        overwhelmed local health care providers and facilities, is an 
        oxymoron in congregate settings. Because of the concentration 
        of people in a close area with limited options for creating 
        distance between detainees, workers and immigrants are at very 
        high risk for an outbreak of infectious disease. This then 
        creates an enormous public health risk, not only because 
        disease can spread so quickly, but because those who contract 
        COVID-19 with symptoms that require medical intervention will 
        need to be treated at local hospitals, thus increasing the risk 
        of infection to the public at large and overwhelming treatment 
        facilities.
  <bullet> Dozens of immigration detention centers are in remote areas 
        with limited access to health care facilities. Many facilities, 
        because of the rural locations, have only 1 on-site medical 
        provider. If that provider gets sick and requires being 
        quarantined for at least 14 days, the entire facility could be 
        without any medical providers at all during a foreseeable 
        outbreak of a rapidly infectious disease.\5\
---------------------------------------------------------------------------
    \5\ Data from the COVID Prison Project shows that prison 
populations test substantially higher than the general population in 
many States. See Erin McCauley, ``COVID-19 Case Watch May 27, 2020,'' 
COVID Prison Project Blog (May 30, 2020), available at https://
covidprisonproject.com/blog. Similarly, a new study in the Journal of 
Urban Health shows that optimistically, 72 percent of individuals in 
ICE detention are expected to be infected by day 90, with nearly 100 
percent infected under more pessimistic conditions; the study further 
shows that COVID-19 outbreaks among a minimum of 58 ICE facilities (52 
percent) would overwhelm ICU beds within a 10-mile radius. ``Modeling 
COVID-19 and Its Impacts on U.S. Immigration and Customs Enforcement 
(ICE) Detention Facilities, 2020,'' J. Urban Health (2020), available 
at https://doi.org/10.1007/s11524-020-00441-x.
---------------------------------------------------------------------------
  <bullet> Even in the best circumstances, the provision of medical 
        care in correctional and detention facilities is inconsistent 
        and inadequate. While some do a very good job in providing 
        care, others perform poorly.\6\
---------------------------------------------------------------------------
    \6\ See, e.g., Department of Homeland Security Office of Inspector 
General (DHS OIG), ``Concerns about ICE Detainee Treatment and Care at 
Four Detention Facilities'' (June 3, 2019), available at https://
www.oig.dhs.gov/sites/default/files/assets/2019-06/OIG-19-47-Jun19.pdf; 
DHS OIG, ``Concerns about ICE Detainee Treatment and Care at Detention 
Facilities'' (December 11, 2017), available at https://www.oig.dhs.gov/
sites/default/files/assets/2017-12/OIG-18-32-Dec17.pdf; Department of 
Justice Office of the Inspector General (DOJ OIG), ``Review of the 
Federal Bureau of Prisons' Medical Staffing Challenges'' (March 2016), 
available at https://oig.justice.gov/reports/2016/e1602.pdf.
---------------------------------------------------------------------------
    Drs. Allen and Rich made a number of recommendations to Congress:
  <bullet> Robust Testing is Essential.--For every one detainee 
        identified and isolated using symptom-based screening, several 
        more pass in, and eventually out of, the facility without 
        symptoms.\7\ Testing must be done aggressively to isolate 
        infected individuals, monitor them and break the chain of 
        transmission as early as possible.\8\
---------------------------------------------------------------------------
    \7\ Lisa Riordan Seville and Hannah Rappleye, ``ICE keeps 
transferring detainees around the country, leading to COVID-19 
outbreaks,'' NBC News (May 31, 2020), available at https://
www.nbcnews.com/politics/immigration/ice-keeps-transferring-detainees-
around-country-leading-covid-19-outbreaks-n1212856; Gandhi M, Yokoe D, 
Havlir D., ``Asymptomatic transmission, the Achille's heel of current 
strategies to control COVID-19,'' New England Journal of Medicine 
(April 24, 2020), available at https://www.nejm.org/doi/full/10.1056/
NEJMe2009758.
    \8\ Donald Kerwin, ``Immigrant Detention and COVID-19: How the U.S. 
Detention System Became a Vector for the Spread of the Pandemic,'' 
Center for Migration Studies of New York (June 16, 2020), available at 
https://cmsny.org/publications/immigrant-detention-covid/ (``Overall, a 
very low percentage of those in ICE's custody during the pandemic have 
been tested. A very high percentage of those tested--51 percent by May 
27 and 28 percent by June 12--had tested positive . . . If ICE tested 
earlier and more extensively, it would have ``confirmed'' and faced 
additional pressure to respond to the many more infected persons in its 
custody.'')
---------------------------------------------------------------------------
  <bullet> Significant Reduction of Populations in Detention is Both 
        Possible and Necessary to Protect the Public Health.--
        Populations must drop to create space for distancing and 
        separation. Because all those in immigration detention are 
        civil, not criminal, detainees,\9\ and because ICE has complete 
        discretion to control the size of that population,\10\ where 
        detention is associated with greater risk of harm due to 
        outbreak and spread of the virus within the facility and to the 
        community, the detention of civil detainees who represent low-
        to-no risk of criminality simply cannot be justified.\11\ This 
        is particularly true of continuing to hold children in 
        immigration detention, a practice which already carries high 
        risk of serious harm to their long-term physical and mental 
        health,\12\ risks which are only heightened by COVID-19.
---------------------------------------------------------------------------
    \9\ ICE, ``Immigration Enforcement, Detention Management, 
Overview'' (last visited July 9, 2020), available at https://
www.ice.gov/detention-management.
    \10\ Release of immigrants from detention to control the 
coronavirus outbreak has been recommended by John Sandweg, former 
acting head of ICE during the Obama administration, who further noted, 
``The overwhelming majority of people in ICE detention don't pose a 
threat to public safety and are not an unmanageable flight risk . . . 
Unlike the Federal Bureau of Prisons, ICE has complete control over the 
release of individuals. ICE is not carrying out the sentence imposed by 
a Federal judge . . . It has 100 percent discretion.'' Camilo Montoya-
Galvez, `` `Powder kegs': Calls grow for ICE to release immigrants to 
avoid coronavirus outbreak,'' CBS News (March 19, 2020), available at 
https://www.cbsnews.com/news/coronavirus-ice-release-immigrants-
detention-outbreak.
    \11\ Keller A, Wagner B. ``COVID-19 and immigration detention in 
the USA: Time to Act,'' The Lancet Public Health (March 31, 2020). 
Available at https://www.thelancet.com/journals/lanpub/article/
PIIS2468-2667(20)30081-5/fulltext.
    \12\ Letter to Senators Grassley and Wyden from Drs. Allen and 
McPherson (July 17, 2018), available at https://www.wyden.senate.gov/
imo/media/doc/Doctors%20congressional%20Dis- closure%20SWC.pdf); Miriam 
Jordan, ``Whistle-blowers Say Detaining Migrant Families `Poses High 
Risk of Harm' '' New York Times (July 18, 2018), available at https://
www.nytimes.com/2018/07/18/us/migrant-children-family-detention-
doctors.html; Letter from Fourteen Medical Professional Associations to 
House Judiciary Committee, House Energy and Commerce Committee, House 
Homeland Security Committee, and House Appropriations Committee (July 
24, 2018), available at https://www.acponline.org/acp_policy/letters/
letter_house_over- sight_request_on_child_detention_centers_2018.pdf.
---------------------------------------------------------------------------
  <bullet> Data Collection and Data Sharing is Critical, and Currently 
        Inadequate.--To date, correctional and detention facilities 
        have largely been omitted from National, State, and local COVID 
        response plans, with no correctional health experts appointed 
        to the White House Coronavirus Task Force,\13\ and different 
        States issuing reopening guidelines that fail to account for 
        often dramatically disproportionate infection rates in prisons 
        and detention facilities.\14\ Further, data collection and 
        sharing is inconsistent and frequently nontransparent, making 
        assessments of the spread of COVID-19 difficult and likely 
        underestimated.\15\ Data should be freely shared back and forth 
        between facilities and public health authorities in real time 
        to best support effective containment efforts. Because 
        infection can spread both ways--from facility to community and 
        from community to facility--both intake screening, release 
        planning, and release execution needs to accommodate COVID-19 
        containment strategies developed through collaboration between 
        ICE, correctional and detention facilities, public health 
        authorities, correctional health professionals, and post-
        release service providers.
---------------------------------------------------------------------------
    \13\ Abby Goodnough, ``Who's on the U.S. Coronavirus Task Force,'' 
New York Times (Feb. 29, 2020), available at https://www.nytimes.com/
2020/02/29/health/Trump-coronavirus-taskforce.html; The White House, 
``New Members of the White House Coronavirus Task Force Announced,'' 
White House Statements and Releases (May 15, 2020), available at 
https://www.whitehouse.gov/briefings-statements/new-members-white-
house-coronavirus-task-force-announced/.
    \14\ See, e.g., Abbie Vansickle, ``How To Hide a COVID-19 Hotspot? 
Pretend Prisoners Don't Exist,'' The Marshall Project (May 27, 2020), 
available at https://www.themarshallproject.org/2020/05/27/how-to-hide-
a-covid-19-hotspot-pretend-prisoners-don-t-exist.
    \15\ Eunice Cho, ``ICE's Lack of Transparency About COVID-19 in 
Detention Will Cost Lives,'' ACLU News & Commentary (last visited May 
31, 2020), available at https://www.aclu.org/news/immigrants-rights/
ices-lack-of-transparency-about-covid-19-in-detention-will-cost-lives/.
---------------------------------------------------------------------------
    Drs. Allen's and Rich's warnings to Congress on March 19, 2020 and 
Dr. Allen's more recent written testimony to the Senate Judiciary 
Committee on June 2, 2020 highlight several important points:
    (1) DHS had knowledge from its own medical experts in detention 
        health since at least late February 2020, and more widely since 
        March 20, 2020,\16\ that immigration detention facilities posed 
        a uniquely high risk of spread of COVID-19 to workers, 
        immigrants, and the public;
---------------------------------------------------------------------------
    \16\ Catherine Shoichet, ``Doctors warn of `tinderbox scenario' if 
coronavirus spreads in ICE detention,'' CNN (March 20, 2020), available 
at https://www.cnn.com/2020/03/20/health/doctors-ice-detention-
coronavirus/index.html.
---------------------------------------------------------------------------
    (2) The congregate nature of immigrant detention makes compliance 
        with detention standards related to medical care and CDC 
        guidelines both critical and difficult.--Social distancing, 
        adequate Personal Protective Equipment (PPE), frequent 
        handwashing, and sanitizing the frequently-shared surfaces of 
        dorms, door handles, and other common areas are uniquely 
        challenging in detention settings, which is why other settings, 
        like schools and nursing homes, have focused on closures and/or 
        population reduction;
    (3) The steady rotation of ICE and contractor staff for work 
        shifts, and frequent transfers of immigrant detainees between 
        facilities and for deportation through airports, dramatically 
        exacerbates the spread of COVID-19;
    (4) Failures to adequately test and report infections of both 
        detainees and all ICE and ICE-contractor staff puts worker, 
        detainee, and the public's health at greater risk.
                   b. whistleblowers: richwood staff
    Reports from whistleblowers we represent, who are current or former 
detention officers at Richwood, further corroborate the concerns voiced 
by Drs. Allen and Rich.
    The Federal whistleblower laws, specifically 41 U.S.C.  4712, 
protect employees of Federal contractors, like LaSalle, who make 
protected disclosures of misconduct, gross mismanagement, abuses of 
authority, and specific dangers to public health and safety. Our 
clients, who wish to remain anonymous, have already made, or expect to 
make such disclosures to DHS OIG. They have also reported their 
concerns to LaSalle management.
    The disclosures include:
Lasalle Has Concealed the Nature and Extent of COVID-19
    Whistleblowers currently believe at least 15 officers and 72 
detainees are or have been sick with COVID-19. Two officers died in 
April. Detainees are or have been on ventilators. LaSalle management 
has not disclosed or acknowledged the deaths. As a result, morale has 
and is suffering, and staff fear they are at risk of contracting COVID-
19.
LaSalle Is Not Following COVID-19 Guidance
    ICE has issued guidance for its operations on COVID-19.\17\ CDC has 
done the same, specifically focused on detention and correctional 
facilities.\18\ They call for the use of personal protective equipment 
(PPE), including face masks, by staff.
---------------------------------------------------------------------------
    \17\ ``ICE Guidance on COVID-19,'' available at https://
www.ice.gov/coronavirus. In addition, ICE detention facilities are 
bound to follow the Performance-Based National Detention Standards 
(PBNDS), which state that ``Centers for Disease Control and Prevention 
(CDC) guidelines for the prevention and control of infectious and 
communicable diseases shall be followed.'' Immigration and Customs 
Enforcement, PBNDS 2011, Medical Care, Section 4.3, available at 
https://www.ice.gov/doclib/detention-standards/2011/4-3.pdf.
    \18\ CDC, ``Interim Guidance on Management of Coronavirus Disease 
2019 (COVID-19) in Correctional and Detention Facilities'' (March 23, 
2020), available at https://www.cdc.gov/coronavirus/2019-ncov/
downloads/guidance-correctional-detention.pdf.
---------------------------------------------------------------------------
    Our clients report that the guidance has not been followed. For 
example, on March 11, 2020, the Governor of Louisiana declared a public 
health emergency due to COVID-19.\19\ However, Richwood management 
prohibited staff from wearing face masks until the week of April 8, 
2020. By that time, several detainees and staff were infected with 
COVID-19.
---------------------------------------------------------------------------
    \19\ Available at https://gov.louisiana.gov/assets/ExecutiveOrders/
25-JBE-2020-COVID-19.pdf.
---------------------------------------------------------------------------
    Similarly, 2 days after the Governor's declaration, Richwood's 
health service administrator held a staff meeting, where he said COVID-
19 was not a big deal, erroneously it was no worse than the flu. 
Moreover, he said that that employees who had not bothered to get flu 
shots now had no right to complain about the need for extra COVID-19 
precautions.
    The CDC guidelines also state that staff should be able to stay 
home if they are sick and where possible they should be allowed to work 
from home. The guidelines provide that staff who are at higher risk of 
contracting COVID-19 be should have their duties revised to reduce that 
risk.
    But LaSalle has in place at Richwood policies and procedures which 
effectively contravene CDC guidance. For instance, sick and at-risk 
staff were not allowed to use their personal leave in order stay away 
from the facility for their own protection. Staff suspected of 
suffering from COVID-19 who had been tested were required to report for 
work until such time as they tested positive tests, notwithstanding the 
known high unreliability of the tests. Staff who did not show up for 
work because of fear of COVID-19 infection were not paid.
Mismanagement Has Produced an Unsafe Work Environment
    Our clients report inadequate sanitation supplies and PPE at 
Richwood, which they believe has caused staff to get sick. They feel 
unsafe at work.
    The situation is as bad if not worse for detainees. Our clients 
report that mask use was not being required around COVID-positive 
detainees. The situation led to detainees threatening a hunger strike 
because the officers were not wearing masks.
Staff Shortages and Retaliation
    COVID-19 illnesses have caused an on-going staff shortage that 
requires staff to work 12 hours per day, 7 days per week, with no time 
off. Such an exhausting schedule necessarily increases the risk of 
accidents and other serious incidents putting staff, detainees, and the 
public at further risk.
    Our clients have also reported they suffered retaliation after 
raising health and safety concerns with Richwood management. They have 
been fired or have been forced to quit. At least 10 staff were fired 
under the guise of not passing a new background check.
Improper Mixing of Sick and Healthy Detainees
    Our clients report that sick and healthy detainees have been held 
together in a variety of communal settings, including during frequent 
transport. Practices and procedures have made the situation worse. For 
instance, Richwood drivers were reprimanded for wearing PPE and 
cleaning their vehicles. Whistleblowers also reported that COVID-19-
positive and symptomatic detainees are transported with asymptomatic 
staff and detainees, and that small vehicles rather than larger buses 
are often used to transport detainees.
Deporting Infected Detainees
    According to one whistleblower, detainees who tested positive for 
COVID-19 were deported by plane and LaSalle transported them to the 
Alexandria Staging Facility (ASF) in the same vehicle as healthy 
detainees. A whistleblower said that when the airline complained, 
Warden DeBellevue justified the risk by alleging that the infected 
patient's test results were a ``false positive.'' ICE reported on their 
website that ICE Air brought U.S. citizens and residents back to the 
United States during the outbreak on the same aircraft used to deport 
immigrants.\20\
---------------------------------------------------------------------------
    \20\ As of April 10, 2020, ICE Air flew over 1,000 U.S. citizens 
home amid the pandemic on the return leg of removal flights. https://
www.ice.gov/news/releases/ice-air-has-flown-over-1000-us-citizens-home-
amid-covid-19-pandemic.
---------------------------------------------------------------------------
    Although ICE has a policy to screen deportees for temperature 
checks, a whistleblower reports that the temperature gauges used were 
inaccurate and that LaSalle staff were ordered to turn on the air 
conditioning to maximum to ``freeze them out'' so the detainees will 
not be refused for deportations. LaSalle and Richwood medical ordered a 
whistleblower to write down a made-up temperature on the medical 
transfer summary. A whistleblower reports that some deportees had a 
temperature of 102 degrees Fahrenheit and the demand to manipulate the 
temperature reading by ``freezing them out'' lowered it to 98.6 degrees 
so they could travel (internal temperatures were not taken; 
temperatures were taken from the foreheads of the deportees).
    Finally, COVID-19 detainees have also been improperly housed in the 
same building assigned to detainees suffering from tuberculosis. We 
have been informed that while COVID-19 detainees were quarantined in a 
separate building in Richwood, detainees with tuberculosis were placed 
in the same setting (some had been misdiagnosed as COVID-19), creating 
a potential disease bomb where detainees could potentially contract 2 
extremely dangerous diseases. CDC Guidelines are clear: COVID-19 cases 
should be placed isolated in a separate environment from other 
individuals and cohorting, and should only be practiced if there are no 
other available options. Applicable detention standards further specify 
that detainees with tuberculosis are also to be kept in isolation. We 
have been informed LaSalle had other available options.
Detainees Were Not Adequately Tested
    According to CDC guidelines, after being infected with COVID-19, 
individuals should test negative in 2 consecutive respiratory specimens 
collected at least 24 hours apart, of if they are not tested, they must 
be free from fever for 72 hours without fever-reducing medication and 
have improved symptoms before they can return from medical isolation.
    According to our clients, nurses said the detainees were never 
retested before they were returned back to the dorms after testing 
positive. They were simply sent back to the dorms after 14 days and 
never retested. At least three detainees tested negative, returned to 
Richwood no longer in isolation, and then returned to the hospital 
because they still had COVID and they ended up in the intensive care 
unit at the hospital.
Sanitary Guidelines Not Followed
    CDC Guidelines for detention facilities require surfaces to be 
disinfected--especially in common areas--several times each day.\21\ We 
have been informed that this practice is not being followed.
---------------------------------------------------------------------------
    \21\ CDC, ``Interim Guidance on Management of Coronavirus Disease 
2019 (COVID-19) in Correctional and Detention Facilities'' (March 23, 
2020), available at https://www.cdc.gov/coronavirus/2019-ncov/
downloads/guidance-correctional-detention.pdf.
---------------------------------------------------------------------------
    According to a whistleblower, the dorms were only sanitized once a 
day ``if they had time,'' though dorms were required to be cleaned 
every 3 hours or 4 times per shift. Concerns were raised to Warden 
DeBellevue about the lack of cleaning of the common areas; there was no 
response from the Warden. A week later the safety officer issued a 
cleaning schedule, but reported to one of the whistleblowers that he 
couldn't get the officers or the trustees to clean after implementing 
the schedule.\22\
---------------------------------------------------------------------------
    \22\ Trustees are prisoners with a criminal record who, on good 
behavior, are allowed to work. They were responsible for cleaning the 
facilities and for serving food to the detainees. It's worth noting 
that approximately 3 trustees who were serving food to immigrant 
detainees tested positive for COVID-19 and then were removed from the 
food service duties and then quarantined. LaSalle officers were asked 
to serve food to detainees after that.
---------------------------------------------------------------------------
    We appreciate the oversight the House Committee on Homeland 
Security's Subcommittee on Border Security, Facilitation & Operations 
is conducting on this issue at its upcoming July 13, 2020 hearing, 
Oversight of ICE Detention Facilities: Examining ICE Contractors' 
Response to COVID-19, and hope that our clients' whistleblower 
disclosures support urgent efforts needed to address the on-going and 
imminent dangers to worker, immigrant, and public safety posed by the 
spread of the coronavirus in ICE detention.
    For more information contact Samantha Feinstein at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7c4d6dad6d9c3dfd6d1f7c0dfdec4c3dbd2d5dbd8c0d2c599d8c5d0">[email&#160;protected]</a>, John Whitty at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="38525750564f784f50514b4c545d5a54574f5d4a16574a5f">[email&#160;protected]</a>, or 
Dana Gold at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e480858a8583a4938c8d9790888186888b938196ca8b9683">[email&#160;protected]</a>, or by phone [].
    Thank you.
            Very truly yours,
                                        Samantha Feinstein,
                                                    Staff Attorney,
                                              Dana L. Gold,
                                                    Senior Counsel,
                                               John Whitty,
                 Staff Attorney, GOVERNMENT ACCOUNTABILITY PROJECT.

    Mr. Thompson. The Government Accountability Project also 
represents subject-matter experts who are employed by DHS to 
advise on detention health issues but whose input seems to have 
been ignored. The letter describes extremely concerning 
mismanagement that no doubt has made the crisis unfolding in 
ICE detention facilities that much worse.
    This is not the end of this committee's oversight of 
conditions at ICE detention facilities during COVID-19. Even 
before the pandemic, the committee was actively examining 
persistent problems at those facilities. That work will 
continue. Today I urge each one of ICE's detention contractors 
to be more aggressive in their response to COVID-19.
    I also hope that as the tragic public health crisis 
continues that ICE will use its discretion and maximize the use 
of alternatives to detention program, which the GEO Group has 
managed for years, to limit the spread of COVID-19 in 
detention.
    I urge our witnesses to re-examine how they have approached 
the problem of COVID-19 within their facilities and to continue 
their engagement with us to improve these conditions.
    Thank you, Madam Chairwoman. I yield back.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             July 13, 2020
    The COVID-19 pandemic has brought illness and death to communities 
across our country, with more than 135,000 Americans losing their lives 
to the coronavirus. My home State is not exempt. Over 1,200 of my 
fellow Mississippians have tragically succumbed to the pandemic, and 
cases continue to increase.
    This suffering has fallen disproportionately on minority 
communities, who often lack access to adequate health care. Those who 
reside in congregate settings, including detention facilities, are also 
particularly vulnerable. Even before the pandemic, many ICE detention 
facilities had a troubled record, with numerous complaints lodged about 
health and safety issues, poor living conditions, and inadequate 
inspections.
    These issues, combined with the risk of infection in any crowded 
spaces, can lead to outbreaks inside detention facilities. By the most 
recent reporting, thousands of ICE detainees across more than 70 
detention facilities have tested positive for COVID-19. This 
unfortunately includes 35 detainees at the Karnes Family Residential 
Center in Karnes City, Texas, which is operated by the GEO Group. This 
situation cannot continue.
    ICE and its contractors must do their part to slow the spread of 
COVID-19 in the interest of saving lives and protecting our country. I 
thank the witnesses for their replies to my April 29 letters requesting 
information on how they are mitigating the spread of COVID-19 in their 
facilities. However, I would note the productions have only been 
partially responsive.
    I hope today to get a clear commitment from each company to be more 
transparent about their practices and what they are seeing in their 
facilities during this public health crisis. ICE has been publicly 
reporting on the numbers of affected detainees and Federal employees, 
but a major gap in this reporting remains the number of contract 
personnel who have tested positive for COVID-19. The public deserves to 
know this information.
    The DHS inspector general also recently issued an initial report 
informed by surveys distributed to facilities across ICE's detention 
network. Those surveys allowed facilities to self-assess their 
preparedness and response to the pandemic, but there appeared to be a 
disconnect between issued guidance and implementation of that guidance.
    Similarly, my staff found serious implementation gaps when 
reviewing the documents each of your companies provided in response to 
my request. We have seen public reporting and heard from whistleblowers 
concerned about how ICE private contractors are managing this 
situation.
    I ask for unanimous consent to enter into the record a letter from 
the Government Accountability Project, which represents multiple 
whistleblowers who are alarmed by LaSalle Corrections' operations at 
the Richwood Correctional Center in Louisiana. The Government 
Accountability Project also represents subject-matter experts who were 
employed by DHS to advise on detention health issues but whose input 
seems to have been ignored. The letter describes extremely concerning 
mismanagement that no doubt has made the crisis unfolding in ICE 
detention facilities that much worse. This is not the end of this 
committee's oversight of conditions at ICE detention facilities during 
COVID-19.
    Even before the pandemic, the committee was actively examining 
persistent problems at these facilities. That work will continue. Today 
I urge each one of ICE's detention contractors to be more aggressive in 
their response to COVID-19.
    I also hope that as the tragic public health crisis continues that 
ICE will use its discretion and maximize the use of the Alternatives to 
Detention Program, which the GEO Group has managed for years, to limit 
the spread of COVID-19 in detention. I urge our witnesses to re-examine 
how they have approached the problem of COVID-19 within their 
facilities and to continue their engagement with us to improve these 
conditions.

    Miss Rice. Thank you, Mr. Chairman.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Ranking Member, you need to unmute.
    Mr. Rogers. How is that?
    Thank you, Madam Chairman. I want to thank Chairman 
Thompson again for the use of the committee room.
    During this Congress the Majority has made it a habit of 
declining to invite or refusing to accommodate critical 
Government fact witnesses. Today is no different. We reached 
out to DHS to find out why they weren't here, and they said 
they didn't know about the hearing until we called them last 
week.
    Now, the Majority failed to invite ICE to answer questions 
about its detention policies. I am increasingly concerned that 
this is a concerted tactic to avoid having experienced senior 
officials from DHS at our hearings to counteract increasingly 
left-wing narratives.
    On the subject of today's hearing, I remind the Majority 
that just last year they called the migrant surge at the border 
a fake emergency, even as the crisis reached its peak. On the 
subject House Democrats waited more than a year-and-a-half to 
vote on a much-needed emergency funding for the border crisis, 
and what they did send came up short. Not one single dollar for 
Immigration and Customs Enforcement detention capacity was 
included.
    ICE requested over $300 million to modernize and improve 
its detention and capacity to meet the spike in demand, and the 
Majority didn't send a dime. Meanwhile, Customs and Border 
Protection was forced to release migrants straight into border 
communities. Is it the goal of the Majority? I don't know.
    It is becoming increasingly clear that calls for open 
borders are seeping into the mainstream Democratic Party 
platform. Contractors, like the ones before us today, have 
helped meet the Government's detention needs. They are often 
derided for simply partnering with the Federal Government to 
carry out the laws of this land. These contracts have existed 
under both Democrat and Republican administrations.
    During the COVID-19 crisis, ICE and its detention partners 
have worked together to reduce the number of individuals in 
custody. They have taken measures that go beyond CDC guidance 
to adapt to the new safety protocols and cleaning procedures. 
They have also provided safe accommodations for those with 
final removal orders or criminal convictions whose release 
would endanger our communities.
    The border crisis and COVID-19 crisis are two sides of the 
same coin. I question how the Majority can continue to neglect 
its duty to fund ICE last year and again this year. The border 
crisis and its lack of funding foreshadows the COVID-19 health 
crisis. Willfully underfunding ICE to make a political point to 
the base of the Democrat Party will have profound impacts on 
migrants drawn here by our broken immigration systems.
    Failing to invest in agencies that enforce our immigration 
laws has broad consequences. I hope the Majority will 
ultimately realize their continued efforts to defund ICE have 
lasting consequences before we have a repeat of this hearing 
again next year.
    Thank you. With that, Madam Chairman, I yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                             July 13, 2020
    Thank you, Madam Chair.
    I want to thank Chairman Thompson for the use of the committee 
room.
    We wish all Members were here with us today.
    This Congress, the Majority has made a habit of declining to invite 
or refusing to accommodate critical Government fact witnesses.
    Today is no different.
    The Majority failed to invite ICE to answer questions about its 
detention policies.
    I'm increasingly concerned that this is a concerted tactic to avoid 
having experienced senior officials from DHS at our hearings to 
counteract increasingly left-wing narratives.
    On the subject of today's hearing, I remind the Majority that just 
last year they called the migrant surge at the border a ``Fake 
Emergency'' even as the crisis reached its peak.
    House Democrats waited more than half a year to vote on much-needed 
emergency funding for the border crisis.
    What they did send came up short: Not one, single dollar for 
Immigration and Customs Enforcement detention capacity.
    ICE requested over $300 million to modernize and improve its 
detention capacity to meet the spike in demand, and the Majority didn't 
send a dime.
    Meanwhile Customs and Border Protection was forced to release 
migrants straight into border communities.
    Maybe that was the goal of this Majority.
    It's becoming increasingly clear that the calls for open borders 
are seeping into the mainstream Democrat Party platform.
    Contractors like the ones before us today have helped meet the 
Government's detention needs.
    They are often derided for simply partnering with the Federal 
Government to carry out the laws of the land.
    These contracts have existed under both Democrat and Republican 
administrations.
    During the current COVID-19 crisis, ICE and its detention partners 
have worked together to reduce the number of individuals in custody.
    They have taken measures that go beyond CDC guidance to adapt to 
new safety protocols and cleaning procedures.
    They've also provided safe accommodations for those with final 
removal orders or criminal convictions whose release would endanger our 
communities.
    The border crisis and the COVID-19 crisis are two sides of the same 
coin.
    I question how the Majority can neglect its duty to fund ICE last 
year and again this year.
    The border crisis and its lack of funding foreshadows the COVID-19 
health crisis.
    Willfully underfunding ICE to make a political point to the base of 
the Democratic party will have profound impacts on migrants drawn here 
by our broken immigration system.
    Failing to invest in agencies that enforce our immigration laws has 
broad consequences.
    I hope the Majority finally realizes their continued efforts to 
defund ICE have lasting consequences before we have to repeat this 
hearing again during the next crisis.
    Thank you, I yield back.

    Miss Rice. Thank you, Mr. Rogers.
    I will now welcome our panel of witnesses.
    Our first witness is Mr. Damon Hininger, the president and 
chief executive officer of CoreCivic. Mr. Hininger joined the 
company in 1992 as a correctional officer based in Kansas and 
served in a number of roles until he was named CEO in 2009.
    Our second witness is Mr. George Zoley, the chairman of the 
board, CEO, and founder of the GEO Group. Mr. Zoley founded the 
company in 1984 and has served as CEO since it went public in 
1994. He also serves as a director of the GEO Group's various 
subsidiaries.
    Our third witness is Mr. Scott Marquardt, who is the 
president and CEO of the Management and Training Corporation, 
or MTC. He has been at MTC for 37 years.
    Our final witness is Mr. Rodney Cooper, the executive 
director for LaSalle Corrections. Mr. Cooper retired from a 30-
year-long career at the Texas Department of Criminal Justice 
before joining LaSalle in 2009. He has also been a member of 
the American Corrections Association.
    Without objection, the witnesses' opening statements will 
be inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Hininger.

  STATEMENT OF DAMON T. HININGER, PRESIDENT AND CEO, CORECIVIC

    Mr. Hininger. Thank you and good afternoon. Chairwoman 
Rice, Ranking Member Higgins, and Members of the subcommittee, 
my name is Damon Hininger, and I am the president and CEO of 
CoreCivic.
    For over 35 years, CoreCivic has worked with our Federal 
and State partners to provide safe, respectful, and humane 
environments for those individuals housed at our facilities. I 
have been with the company for more than 28 years. I began my 
career as a correctional officer with the company in 
Leavenworth, Kansas, where I was born and raised.
    After starting as a correctional officer, I have worked in 
nearly all areas of corrections. My experience in our 
facilities informs my actions every day. At CoreCivic we take 
seriously our responsibility to ensure that people entrusted to 
our care are safe and treated in a humane manner.
    The COVID-19 global pandemic is an unprecedented situation 
that has presented challenges to every corrections system in 
America, public or private, just as it has for other 
organizations such as hospitals and nursing homes where 
individuals are housed together or share common accommodations.
    During this time, our No. 1 priority is the health and 
safety of those entrusted to our care, our employees, and our 
communities. Throughout the company's history, we have 
implemented industry best practices to handle the potential 
spread of infectious diseases.
    Since the pandemic began, we have worked quickly to execute 
the guidance of the CDC and our partners. I believe these 
practices and the measures CoreCivic has implemented in our 
facilities have prevented further transmission of COVID-19.
    Beginning in February, we started monitoring the 
development of COVID-19 nationally and in our facilities. In 
March, we activated our emergency operations center, or EOC, 
which functions 24 hours a days, 7 days a week.
    The EOC serves as a central point to help coordinate our 
response and support our facilities. Coordination and 
communication across the company has been critical, and the 
guidance from the CDC and our partners has evolved over time as 
we have learned more about COVID-19.
    We also formed a COVID-19 task force comprised of senior 
operations and medical leaders to monitor the pandemic and 
develop facilities-specific response and medical action plans. 
We quickly pushed out guidance on good hygiene practices. At 
our facilities our staff works constantly to educate those in 
our care about how to combat the spread of COVID-19.
    Consistent with the CDC's recommendations, our staff are 
required to wear masks, and we provide masks to both our staff 
and detainees in our ICE facilities. These masks are replaced 
as necessary, and we have an adequate supply of masks stocked 
at our facilities.
    CoreCivic also screens all individuals and employees before 
entry to our facilities. These screenings include temperature 
and COVID-19 symptom checks.
    The realities of the pandemic have required us to make 
certain operational changes at our facilities. For example, 
working closely with our Government partners, we suspended in-
person visitation in March. Following the guidance of the CDC 
and ICE, CoreCivic separately houses from the general 
population any detainee who tests positive for COVID-19 or who 
is exposed to a positive case.
    We have also adjusted how we serve meals and provide other 
services to promote social distancing and reduce the risk of 
transmission. Our staff understands that while these steps are 
necessary to stop the spread of the virus, these changes can be 
stressful to the detainees and their families.
    To address this, we have provided additional virtual 
communication through phones and other means, including adding 
additional free call minutes. Where it is safe to do so, we 
have preserved detainee activities. We hold town hall meetings 
to share information with detainees, answer their questions, 
and listen to their concerns. CoreCivic's website has a 
dedicated section for families with information about CDC 
guidance and visitation.
    The health and well-being of our nearly 14,000 CoreCivic 
employees is a top priority. We recognize that reporting to 
work during a global pandemic can be stressful for our 
employees. We expanded paid leave to those who have to miss 
work for COVID-19-related reasons.
    We offer accommodations to employees who may face an 
elevated risk of complications from COVID-19 and wish to take 
extended leave.
    To recognize CoreCivic employees' service during the 
pandemic, each facility employee, including part-time 
employees, received a $500 hero bonus and additional time off.
    COVID-19 continues to threaten our Nation and affect 
Americans in every region and working in every industry. We 
continue to work every day to reduce the risk of transmission, 
care for those who live and work in our facilities, and make 
every effort to improve our practices and procedures.
    I thank you for the opportunity to testify today and look 
forward to your questions.
    [The prepared statement of Mr. Hininger follows:]
                Prepared Statement of Damon T. Hininger
                             July 13, 2020
    Chairwoman Rice, Ranking Member Higgins, and Members of the 
subcommittee, my name is Damon Hininger, and I am the president and 
chief executive officer of CoreCivic, Inc. For over 35 years, CoreCivic 
has worked with our Federal and State partners to provide safe, 
respectful, and humane environments for those individuals housed at our 
facilities. I have been with the company for more than 27 years; I 
began my career as a correctional officer with the company in 
Leavenworth, Kansas, which is where I was born and raised. I have 
worked in nearly all areas of corrections, including in the commissary, 
the laundry room, compliance, transportation services, and as a 
training manager.
    My experience in our facilities informs my actions every day. At 
CoreCivic, we all take seriously our responsibility to ensure the 
people entrusted to our care are safe and treated in a humane manner.
    I appreciate the opportunity to discuss the work CoreCivic performs 
in partnership with its Federal, State, and local partners and how our 
company has responded to the COVID-19 global pandemic. The COVID-19 
global pandemic is an unprecedented situation that has presented 
challenges to our company just as it has for other organizations, such 
as hospitals and nursing homes, where individuals are housed together 
or share accommodations. Despite these challenges, I believe the 
measures CoreCivic has implemented in our facilities have prevented 
further transmission of COVID-19.
                            about corecivic
    CoreCivic was established in 1983 to help address critical problems 
in United States correctional institutions. Since its founding, the 
company has provided correction and detention management services to 
local, State, and Federal facilities, including the Federal Bureau of 
Prisons (``BOP''), the United States Marshals Service (``USMS''), and 
United States Immigration and Customs Enforcement (``ICE'') (and its 
predecessor agencies). In addition to providing fundamental residential 
services, CoreCivic's correctional, detention, and reentry facilities 
offer a variety of rehabilitation and educational programs, including 
basic education, faith-based services, life skills and employment 
training, and substance abuse treatment. We currently operate 50 
correctional and detention facilities, 43 of which we own and manage 
and 7 of which we manage but are owned by our Government partners. With 
respect to ICE, we currently operate 16 detention centers.
    I am proud of the hard work of our nearly 14,000 employees across 
23 States to ensure proper, respectful treatment for the people 
entrusted to our care. Their job is difficult and challenging. Often, 
individuals placed in our care have just completed an arduous, 
emotional, and physically draining journey. They arrive with little--
and frequently without any records or documented medical history. In 
response, our staff works tirelessly to provide them with safe 
quarters, medical assistance, appropriate food, and overall support. 
After accepting these individuals into our care, our staff provides a 
number of services and programing opportunities. Each year, individuals 
at CoreCivic facilities across the country earn High School Equivalency 
Certificates, achieve trade certifications for professions, engage in 
religious services, obtain pro bono legal representation, receive 
medical care, and undergo addiction treatment and mental health 
counseling.
    Each CoreCivic facility adheres to a detailed set of Government-
mandated standards and CoreCivic has a strong compliance history and 
commitment to transparency. We invest a substantial amount each year in 
perfecting our compliance and quality assurance efforts, including our 
pre-employment training and routine, annual training for our nearly 
14,000 employees. CoreCivic is subject to inspections and oversight 
from a number of parties, as required by our contracts. All audits, 
whether they be by Federal agencies, local government departments, or 
third-party accreditors, add a unique level of scrutiny and complexity. 
At ICE facilities, for example, our employees are in frequent contact 
with ICE personnel. ICE has unimpeded access to review and monitor our 
compliance and has personnel on-site in our facilities.
    On top of these efforts, we operate our own Quality Assurance 
program where we audit and assess our performance and compliance with 
our contracts. Each facility has at least 1 full-time Quality Assurance 
Manager whose job it is to assess compliance with the contracts and 
accreditation standards. The inspection team for CoreCivic not only 
evaluates for compliance with ICE detention standards but also 
CoreCivic's own policies and procedures. We have a long history of 
unannounced Quality Assurance visits to our facilities, and we have 
continuously worked to enhance and improve our internal inspections 
program. We are not perfect every day, but we make every effort to 
correct any problems. I take very seriously my responsibility to make 
sure that our facilities are safe, compliant, and frequently monitored.
                response to the covid-19 global pandemic
    COVID-19 has created extraordinary challenges for every corrections 
and detention system in America, public and private. CoreCivic has 
worked closely with its Government partners, the Centers for Disease 
Control and Prevention (``CDC''), and State health officials to respond 
to this unprecedented situation appropriately and thoroughly for our 
staff, the well-being of those entrusted to our care, and our 
communities.
    Preventing and addressing infectious diseases to protect the health 
and safety of those who reside and work at CoreCivic facilities has 
long been a part of correctional facility operations. At ICE facilities 
in particular, CoreCivic staff has experience managing and treating 
communicable diseases, as the populations in these facilities typically 
have not received the kind of medical care and vaccinations that we 
have in the United States, and are therefore at greater risk of 
carrying certain infectious diseases. CoreCivic is required to adhere 
to applicable standards established by ICE and other CoreCivic partners 
to respond to the threat of infectious disease at CoreCivic facilities. 
These standards, which CoreCivic implements and is audited against by 
its Government partners, have formed the basis for CoreCivic's 
preparation and management of the COVID-19 global pandemic. For 
example, the Performance-Based National Detention Standards 2011 
(Revised December 2016) (``PBNDS'') Part 4.3(II)(10) mandates that CDC 
guidelines be followed to prevent and control the spread of infectious 
and communicable diseases. Part 4.3(V)(C) requires that facilities have 
infection control plans that address the management of infectious and 
communicable diseases, including procedures for ``screening, 
prevention, education, identification, monitoring and surveillance, 
immunization (when applicable), treatment, follow-up, [and] isolation 
(when indicated) . . . .'' When necessary, these plans provide for 
reporting to the appropriate Government agencies.
    In addition to following these and other standards, CoreCivic has 
taken numerous company-wide steps in response to the COVID-19 pandemic. 
In February, CoreCivic began monitoring the development of COVID-19, 
both Nationally and throughout its facilities. On March 18, we 
activated our Emergency Operation Center (``EOC''), functioning 24 
hours a day, 7 days a week, from our Facility Support Center (corporate 
headquarters), to assist our facility leadership team in managing 
COVID-19. Our EOC, which uses software employed by the Federal 
Emergency Management Agency for emergency response, serves as a central 
point to identify and direct resources needed, such as Personal 
Protective Equipment (``PPE''), tracks and analyzes cases, holds 
regular conference calls with our facilities, and collects and shares 
data to assist in making informed decisions. The role of the EOC in 
coordinating the response to the pandemic by our facilities has been 
particularly important as the CDC guidance and recommendations, as well 
as the recommendations of our partners, have evolved over time and as 
we have learned more about COVID-19.
    Consistent with the recommendations of the CDC and following the 
guidance of our Government partners, including the ICE COVID-19 
Pandemic Response Requirements, CoreCivic also has implemented measures 
to combat the spread of COVID-19 in our facilities. We have distributed 
signage, posters, and educational packets to facility staff to inform 
them and the detainees about the symptoms of the disease and promote 
enhanced hygiene practices to prevent its transmission. Our staff 
actively encourages these best practices, including social distancing 
when possible, regular handwashing, respiratory etiquette (coughing or 
sneezing into a sleeve or tissue), and avoiding touching one's face. 
The company also provides masks to detainees in our ICE facilities and 
includes instruction on how to wear them properly in order to reduce 
the chance of transmission. Masks are replaced as necessary. CoreCivic 
regularly provides soap to detainees free of charge, and replenishes 
soap as needed and upon request. In the event of any positive cases, 
CoreCivic separates detainees who test positive for COVID-19 from the 
general population. Detainees who test positive are isolated or housed 
with other detainees who have tested positive. Detainees exposed to a 
positive case are quarantined with other detainees who have also been 
exposed and are monitored for any symptoms. CoreCivic also adjusts meal 
schedules and services to promote social distancing and, if necessary, 
delivers meals to detainees to reduce contacts that may lead to COVID-
19 transmission.
    In addition to educating staff and those in our care about hygiene 
practices, CoreCivic screens all employees before entry to prevent the 
spread of COVID-19. These screenings include temperature checks and 
questions designed to identify possible COVID-19 symptoms or potential 
exposure. If a staff member exhibits symptoms of, or indicates exposure 
to, COVID-19 during the screening, a human resources (``HR'') 
representative is notified, and the staff member is designated for a 
necessary leave of absence. In addition to these screenings, if an 
employee calls out sick with COVID-19-like symptoms, H.R. managers will 
contact the employee telephonically to discuss the employee's symptoms 
to determine whether the employee should refrain from returning to work 
until he or she has recovered or is determined not to have contracted 
COVID-19. By taking these precautions with staff before they enter the 
facilities, and sending home those with symptoms of or likely exposure 
to COVID-19, CoreCivic aims to prevent situations where staff who are 
symptomatic, or believe they have been exposed to COVID-19, enter its 
facilities and risk infecting other employees or detainees. The company 
requests that employees who test positive for COVID-19 or who 
experience COVID-19 symptoms inform their supervisors and H.R. managers 
and refrain from returning to work until the appropriate time following 
the guidance of a health care professional.
    With respect to medical care, the ICE Health Service Corps is 
responsible for providing at 6 of CoreCivic's ICE facilities;\1\ at the 
remainder, CoreCivic is responsible for providing medical care. 
CoreCivic has drafted and implemented a Coronavirus Plan for each 
facility, procured COVID-19 test kits, and strengthened the medical 
intake process to identify those at high risk of contracting COVID-19. 
As recommended by the CDC, CoreCivic provides medical staff who are 
treating patients infected with COVID-19 with PPE, including N95 
respirators, face shields, gloves, and gowns. Within the facilities we 
operate on behalf of ICE, CoreCivic or ICE Health Service Corps staff 
are responsible for caring for detainees diagnosed with COVID-19; in 
the event that hospital care is indicated, CoreCivic arranges transport 
for those detainees to a medical facility for further treatment or 
calls an ambulance.
---------------------------------------------------------------------------
    \1\ The ICE Health Service Corps provides medical care at the 
Elizabeth Detention Center, Eloy Detention Center, Houston Processing 
Center, T. Don Hutto Residential Center, Otay Mesa Detention Center, 
and South Texas Family Residential Center.
---------------------------------------------------------------------------
    The health and well-being of the nearly 14,000 CoreCivic employees 
is a top priority. We recognize that reporting to work during the 
global pandemic can be stressful for our employees and we have taken a 
number of steps to protect their health and support them during this 
uncertain time. Early in our response, CoreCivic suspended all non-
essential business travel, shared guidance with employees regarding 
COVID-19, and distributed information to the families of our employees. 
To accommodate employees during this time, CoreCivic expanded its paid 
leave policies to employees who have to miss work for COVID-19-related 
reasons. CoreCivic also makes accommodations for employees who may face 
an elevated risk of complications from COVID-19 and employees who wish 
to take extended leave for COVID-19-related reasons. To recognize 
CoreCivic employees' service and dedication during this unprecedented 
time, CoreCivic has provided every CoreCivic facility employee, 
including part-time employees, with a $500 ``Hero Bonus'' and 
additional time off in recognition of their efforts to respond to 
COVID-19. In addition, CoreCivic distributes masks to employees and 
mandates their use when inside a facility to protect themselves and the 
health and safety of those entrusted to our care.
    In addition to our efforts to promote the well-being of our 
employees, we understand that the individuals placed in our care and 
their families are concerned about the spread of COVID-19. The pandemic 
has presented detainees and their families, like much of the world, 
with unprecedented circumstances. Detainee health and safety is our top 
priority, and CoreCivic suspended visitation in order to reduce the 
risk that COVID-19 may enter CoreCivic facilities. While we recognize 
this deprives detainees of crucial social and familial interaction, we 
have aimed to facilitate additional virtual communication through 
phones and other means. In addition, CoreCivic has worked with our 
partners to provide additional free call minutes, and has scheduled 
video sessions for detainees and their counsel in many facilities. 
CoreCivic facilities have also taken steps on a facility-by-facility 
basis to preserve activities for detainees in a safe manner. We have 
also held numerous town halls to convey information to detainees and 
listen to their concerns. CoreCivic's website has a dedicated section 
for the families of those in our care to visit to, among other things, 
provide resources, answer frequently asked questions, convey CDC 
guidance, and deliver updates on visitation changes.
    Throughout this time, CoreCivic has continued to prioritize 
compliance and monitor its facilities. While the company is not able to 
conduct on-site inspections of all its facilities as it did before the 
pandemic, we believe that continued internal audits and inspections are 
critical to our ability to maintain compliance and meet our partners' 
requirements. We have continued to provide technical assistance to our 
facilities and adjusted our Quality Assurance practices to carry out 
certain monitoring and auditing functions remotely. Our senior 
operations managers and executive team have continued to visit our 
facilities during the pandemic to ensure compliance with COVID-related 
guidance.
                               conclusion
    COVID-19 continues to threaten our Nation and affect more and more 
Americans in every region and working in every industry. The inherent 
nature of our work means thousands of CoreCivic employees are on those 
front lines every day. I am immensely proud of our CoreCivic staff who 
work daily to protect and care for those in our facilities. The 
challenges we have faced have been unprecedented and our company has 
worked continuously to respond to the requirements of our partners and 
adjust our operations as we learn more information about the virus. I 
believe CoreCivic's efforts and the steps we have implemented have 
helped to reduce the transmission of COVID-19, and we will continue to 
do all we can to protect our staff and those entrusted to our care.

    Miss Rice. Thank you. Thank you for your testimony.
    I now recognize Mr. Zoley to summarize his statement for 5 
minutes.

 STATEMENT OF GEORGE C. ZOLEY, CHAIRMAN AND CEO, THE GEO GROUP

    Mr. Zoley. Chairman Thompson, Chairwoman Rice, Ranking 
Member Rogers, Ranking Member Higgins, and distinguished 
Members of the subcommittee, thank you for the opportunity to 
testify.
    I was born in 1950 in Florina, Greece, located on the 
northwestern border of the country in a house with no plumbing 
or electricity. Also in the house where I was born were Greek 
soldiers who were spending the night resting from fighting 
communist partisans from Yugoslavia and Albania.
    Fortunately, in 1953 my family received approval to 
immigrate to the United States where we traveled by ship 
landing in New York City and where we were processed through 
Ellis Island. We settled in Akron, Ohio, where I learned to 
speak English and began my education that eventually took me to 
Kent State University in 1968 and 1969.
    My own immigrant story has shaped the core values that have 
guided my entire life and career, which include the principle 
of never placing profit above the value of people.
    I am chairman and CEO and founder of the GEO Group which I 
established 1984. Four of our 9 board of directors are either 
female or members of a minority group. We have 23,000 employees 
in locations in the United States, United Kingdom, Australia, 
and South Africa.
    Sixty percent of our employees are members of a minority 
groups reflecting our company's diversity. Ninety-three percent 
of our employees who work in our secure services division earn 
$15 an hour or more.
    Now I would like to address some things that our company 
does not do. We don't manage any shelters or facilities for 
unaccompanied minors. We don't manage any facilities with chain 
link fencing in housing areas. We don't play a role in who is 
assigned to a facility under our management. We don't lobby for 
stricter criminal justice or immigration laws.
    In my written submission, I have chronicled the numerous 
company steps taken to fight COVID-19 virus, but here I will 
only summarize our response. We believe we have acted quickly 
and effectively to protect the health of those in our care and 
our employees.
    I am pleased to report that there have been zero COVID-19 
deaths in GEO-managed facilities for ICE. Further, there is 
only 1 detainee and 1 employee who are presently hospitalized.
    In early February, we began posting information throughout 
our facilities on the importance of social distancing, proper 
hand washing, and sanitation practices. COVID-19-specific 
cleaning supplies and hygiene products have been continuously 
available at all housing units. All detainees and employees are 
supplied with masks.
    High-risk residents are identified and placed in separate 
housing units with specialized health care protocols. Improved 
social distancing has been made possible to our ICE facilities 
operating at less than 50 percent occupancy.
    We have an on-going COVID-19 testing program for residents 
and employees which will expand in September when we expect to 
receive 45 Abbott COVID-19 test machines. We will continue to 
apply best practices to improve our effectiveness in fighting 
this virus.
    This concludes my opening remarks. I appreciate the 
opportunity.
    [The prepared statement of Mr. Zoley follows:]
                 Prepared Statement of George C. Zoley
                             July 13, 2020
                            i. introduction
    Chairman Thompson, Chairwoman Rice, Ranking Member Rogers, Ranking 
Member Higgins, and distinguished Members of the subcommittee, thank 
you for the opportunity to testify.
    My name is George Zoley and I am the founder, chairman, and chief 
executive officer of The GEO Group (or GEO), established in 1984.
    It is an honor to appear before you today to tell you about the 
heroic efforts of our front-line employees who have courageously fought 
the coronavirus (COVID-19) head-on to ensure those entrusted to our 
care are safe, protected, and provided access to medical care to 
minimize the spread of this virus and improve the prospects of 
recovery.
    I want to thank those employees and their families for all they do 
day-in and day-out in support of our client's mission, their community, 
and our country.
    This statement addresses 5 main topics:
    First, I provide information about the history of our company and 
address our values, accountability, varied work, and successful 
initiatives.
    Second, I describe how GEO's health care services are structured 
and managed. This strong foundation has enabled the company to respond 
quickly to the significant challenges posed by COVID-19.
    Third, I outline the exhaustive steps that we have been taking 
since January 2020 to fight COVID-19. This work includes developing 
plans, policies, and guidance in accordance with the guidelines of the 
Centers for Disease Control and Prevention (CDC), the U.S. Immigration 
and Customs Enforcement (ICE), and other relevant authorities; 
educating and raising awareness among detainees and staff about the 
spread and prevention of COVID-19; providing personal protective 
equipment (PPE) to staff and detainees, along with training about PPE 
use; implementing separation protocols, initiating screening for COVID-
19 symptoms; and managing COVID-19 testing.
    Fourth, in accordance with our commitment to transparency, I 
provide select COVID-19 statistics for our ICE facilities.
    Finally, I highlight the strong diversity of our company.
                            ii. geo history
    For more than 30 years, The GEO Group has been a trusted service 
provider to Federal, State, and local government agencies in the United 
States. We deliver quality management and care for secure institutions, 
ICE processing centers, and community reentry facilities. We also 
create and provide technology that supports alternatives to detention.
    Over the years, our company has evolved to become a leading 
provider of offender rehabilitation, post-release services, and 
community-based programs. Our 3-decade long journey has been driven by 
a daily pursuit of operational excellence across all our service lines.
    We recognize that pursuing excellence requires frequent 
introspection and a commitment to taking steps to improve upon what we 
do every day. This commitment led us to invest in a regional operating 
structure approximately 2 decades ago, bringing the daily oversight of 
our facilities closer to our clients, and ensuring that we are able to 
respond as quickly as possible to any challenges that may arise in the 
delivery of our services. Today, our 3 regional offices are comprised 
of numerous subject-matter experts who provide direct oversight for our 
secure facilities across the United States.
    Our commitment to continuous improvement and accountability also 
led us to pursue third-party accreditation for all our U.S. secure 
facilities, and in many instances above and beyond our contractual 
requirements, as well as, all applicable non-secure community reentry 
facilities. This independent accreditation is based on standards set by 
leading organizations such as the American Correctional Association, 
the National Commission on Correctional Health Care, and The Joint 
Commission, among other entities. Today, all, but our 6 newest, U.S. 
secure facilities are accredited by the American Correctional 
Association, with an average accreditation score of 99.6 percent.
    We are particularly proud of our commitment to improve the lives of 
those entrusted to our care in State correctional facilities by 
providing rehabilitation and reentry programs that can reduce 
recidivism, prepare individuals to contribute to our Nation's 
workforce, and help them reintegrate into society. Our GEO Continuum of 
Care (CoC) integrates enhanced offender rehabilitation, including 
cognitive behavioral treatment, with post-release support services to 
address basic community needs, including housing, transportation, food, 
clothing, and job placement assistance. This innovative program began 
as a pilot at one GEO facility in 2015 and received the ``Innovation in 
Corrections'' award from the American Correctional Association just 3 
years later in 2018.
    GEO's 2020 annual funding commitment in support of the CoC program 
at 19 facilities, is approximately $13.5 million, representing 
approximately 10 percent of GEO's net income. The implementation of our 
GEO Continuum of Care has led to an increase in the number of GED/High 
School Equivalency degrees, vocational training certifications, and 
substance abuse treatment completions awarded annually throughout our 
facilities. These efforts reflect our company's aspiration to 
continually improve our services.
    Contrary to what has been reported by the media, individuals, and 
groups who oppose the private sector's role in providing services to 
ICE, we have never managed any shelters or facilities housing 
unaccompanied minors. We do not manage any Border Patrol holding 
facilities along the U.S. Southwest Border. We do not manage any 
facilities with tent structures or chain-link fencing in housing areas, 
and we do not play a role in advocating for, or against, criminal 
justice or immigration laws. As a company, we will never take part in 
any of these activities.
                   iii. geo services provided to ice
    We respect the right of all persons to have a safe and humane 
living environment, and our commitment to this right is unwavering. 
This commitment calls for us to follow many sets of client standards 
that define and proscribe the daily operation of our facilities and 
programs. We think it is important to point out the difference in 
staffing for immigration detention at GEO's ICE processing centers, 
versus that of GEO's State correctional facilities that we operate on 
behalf of criminal justice agencies. The additional staffing at GEO's 
ICE processing centers is necessary to comply with the immigration 
detention standards that were heavily revised under President Obama's 
administration and that remain in effect.
    Overall facility staffing at GEO's ICE processing centers is 
approximately 30 percent more than that of GEO's State correctional 
facilities. This difference is the result of the numerous requirements 
from ICE, versus the requirements from our State partners. ICE requires 
the additional staffing to provide more services and transportation 
support for ICE detainees. Health care staffing at GEO's ICE processing 
centers is approximately 117 percent more than that of GEO's State 
correctional facilities. The additional health care staffing is 
required by ICE to provide a high-level of treatment for detainees who 
have numerous health and mental health needs due to arriving from 
countries with limited health care services. GEO is also implementing 
electronic health records and virtual visits, with medical and mental 
health providers, to further improve its health care services to ICE.
    The health care needs of the individuals in our care are often 
significant. Those needs can include acute or chronic health care 
conditions and mental health issues. However, according to statistics 
from the U.S. Department of Justice, the mortality rate in State 
correctional facilities averages 256 per 100,000 inmates. In the 
Federal prison system, the average mortality rate is 225 per 100,000 
inmates. By comparison, the mortality rate at ICE processing centers is 
significantly lower at less than 3 per 100,000 detainees.
    Under the programmatic supervision of ICE's Immigration Health 
Services Corps (IHSC), GEO staff are often responsible for the health 
care at our facilities. In other locations, we subcontract with a 
health care company to provide medical care to ICE detainees.
    GEO health care services are under the oversight of the GEO Health 
Care Division located in our corporate headquarters in Boca Raton, 
Florida. The division is led by a chief medical officer with 4 decades 
of experience in clinical medicine. He is supported by 12 subject-
matter experts in correctional health care, dental services, mental 
health services, quality control, administration, and off-site health 
care claims management, as well as clinical care support.
    Our Healthcare Division monitors staff vacancies, clinical 
outcomes, special incidents, clinical encounters, outside patient care, 
medication management, and updates to clinical guidelines. For all 
facilities at which GEO itself provides health care services, local 
oversight and support is provided through one of GEO's 3 regional 
offices, located in Charlotte, North Carolina; San Antonio, Texas; and 
Los Angeles, California.
    Each regional office has a regional director of correctional health 
services, and each regional director is supported by up to 3 regional 
managers of correctional health services. GEO strives to ensure that 
health care staff, including medical, nursing, dental, and mental 
health professionals, are available to every individual in our care.
    The facility health care staff fulfill their clinical and 
administrative responsibilities by working with our security staff, to 
address any health situation that may arise. Our security staff are 
also trained to manage an urgent/emergent health situation when health 
care staff may not be immediately available, in accordance with GEO's 
policies and well-defined procedures. Initial screening for medical, 
mental health, and dental care is to be completed as soon as possible 
after intake, and generally within 12 hours of reception at our 
facilities. Those who are identified as most seriously ill are 
prioritized for immediate clinical evaluation.
    As required by ICE's detention standards, we provide full health 
care exams to be conducted by a qualified physician, nurse 
practitioner, physician assistant, or registered nurse within 14-
calendar days following admission. Based on the results of the full 
medical examination, diagnostic and therapeutic plans for any 
identified conditions are developed.
    All individuals in our care have coordinated 24/7 access to health 
care services. They are given the opportunity to submit oral or written 
health care requests at any time. These requests are then picked up 
each day by health care staff and are reviewed and prioritized by 
qualified health care professionals.
    All individuals in our care have the right to refuse or question 
the health care they are receiving through an established grievance 
process. This process is an important component of our Quality 
Improvement program. Once a grievance has been submitted and reviewed, 
the issues raised are evaluated and immediate corrective action is 
taken if warranted. Face-to-face interviews are often recommended, so 
problems can be resolved effectively and promptly. The grievance 
process is carefully explained to all individuals in our care.
    Suicide risk assessment and prevention is an important objective of 
ICE's detention standards. Accordingly, our suicide prevention program 
is clearly defined in policies and procedures, and serves to minimize 
the occurrence of a suicide by reducing risk and self-destructive 
individual behaviors. We take our responsibility to provide prompt and 
comprehensive health and mental health care to everyone in our care 
seriously, as evidenced by the policies, practices, and professional 
guidelines we follow in our facilities. Professional guidelines include 
those established by the American Correctional Association, the 
National Commission on Correctional Health Care, and the Joint 
Commission.
                     iv. geo's response to covid-19
    Based upon existing infectious and communicable disease protocols, 
in mid-January 2020 the GEO Group (GEO) began its expansive planning 
processes to ensure we were taking a proactive approach to properly 
prepare for the potential spread of Coronavirus Disease 2019 (COVID-19) 
in our facilities. The GEO Group initiated a multidisciplinary Incident 
Command-type posture from our Corporate Headquarters to promote and 
sustain awareness and readiness to fight the COVID-19 Virus. The 
following bullets highlight our actions:
  <bullet> In February GEO focused heavily on an ``Awareness & 
        Educational'' campaign, providing ever-changing updates from 
        the Centers for Disease Control and Prevention (CDC) to all 
        facilities which highlighted the importance of social 
        distancing, proper handwashing, and sanitation practices. This 
        information was posted throughout our facilities to include 
        staff work areas and detainee living areas.
  <bullet> GEO continuously played educational videos on big screen TVs 
        in detainee living areas at all GEO facilities. Additionally, 
        leadership staff conducted frequent educational town hall 
        meetings with all detainees using translation services and 
        provided continued staff education daily at shift briefings as 
        well as all meetings with staff.
  <bullet> Even before CDC guidance was issued, GEO took significant 
        steps to prevent the spread of the virus.
  <bullet> In February, GEO's chief medical officer provided 
        comprehensive technical guidance in a policy titled Coronavirus 
        (COVID-19) Management that outlined the treatment and 
        containment approach for COVID-19 based on the latest 
        information provided by the CDC.
  <bullet> GEO's corporate operations and medical staff developed the 
        framework for a Unified Pandemic Plan specific to COVID-19 to 
        promote consistency in our responses company-wide.
  <bullet> On February 26, 2020, GEO's chief medical officer issued a 
        Memorandum advising field staff of forthcoming COVID-19 
        Guidance and Emergency Plans to be utilized for the screening 
        and prevention of COVID-19. The Memorandum also included 
        informational materials from the Center of Disease Control 
        (CDC) to be posted throughout the facilities.
  <bullet> On February 27, 2020, updated health care policies were 
        shared with all GEO facility health service administrators.
  <bullet> On February 28, 2020, the COVID-19 Emergency Response Plan 
        was disseminated to all facility administrators who implemented 
        it by March 6 and immediately began ``table-top'' emergency 
        preparedness exercises, even before there was a pandemic 
        declaration.
  <bullet> GEO began temperature screening of all new arrivals in the 
        sally ports before they entered the facility. If an 
        individual's temperature exceeded 100 degrees, he or she was 
        placed in medical isolation and referred for additional medical 
        attention.
  <bullet> In early March 2020, GEO's chief medical officer opened up a 
        robust dialog with the leadership of ICE's Immigration Health 
        Services Corps (IHSC) on how to best respond to COVID-19.
  <bullet> To promote containment, in early March, GEO began 
        encouraging our clients to suspend social visiting to mitigate 
        outside exposure to the individuals entrusted in our care. As 
        of March 13, 2020, all clients had suspended social visiting.
  <bullet> In March 2020, all staff and visitors entering facilities 
        were required to complete a COVID-19 screening questionnaire 
        and submit to a forehead temperature check prior to being 
        admitted into a facility.
  <bullet> In March 2020, GEO implemented modified detainee movement in 
        all facilities to assist in isolating and containing any 
        potential exposure.
  <bullet> On March 13, 2020, a COVID-19 monitoring process was 
        implemented to track critical data points.
  <bullet> On March 20, 2020, daily command center COVID-19 meetings 
        were initiated from our corporate office with GEO's 3 regional 
        offices.
  <bullet> On March 23, 2020, the CDC issued initial interim guidance 
        specific to Corrections and Detention entitled ``Interim 
        Guidance on Management of Coronavirus Disease 2019 (COVID-
        19)''.
  <bullet> In March 2020, GEO issued guidance directing staff with a 
        high risk of exposure to an infected or likely infected 
        detainee to wear the following PPE:
    <bullet> Nitrile disposable gloves
    <bullet> N95 disposable filtration respirator
    <bullet> Disposable gown
    <bullet> Eye protection/face shield.
  <bullet> In March 2020, COVID-19 information was posted in vital 
        areas of our facilities, such as the front entrance, visiting 
        areas, restrooms, health services unit, housing units, 
        Restrictive Housing Unit, and staff break rooms. Facilities 
        ensured that detainees remained informed via town hall meetings 
        and staff were informed by using the following venues to 
        emphasize the important role of prevention: Shift briefings, 
        meetings with staff and department heads.
  <bullet> In March 2020, the chief medical officer and executive VP, 
        human resources, promulgated guidance regarding how employees 
        should return to work and the approval procedures required for 
        employees who had previously tested positive for COVID-19.
  <bullet> In March 2020, we increased our supply of food at each 
        facility to an 8-week supply. We also created an option to 
        extend that supply to add an additional 3 months.
  <bullet> In March 2020, the Occupational Safety and Health 
        Administration suspended, temporarily the requirement for 
        annual N95 respirator fit testing due to the global shortage of 
        N95 respirators.
  <bullet> In March, Corporate Health Services began publishing a 
        periodic STOP COVID-19 newsletter to facilities administrators, 
        health services administrators, and GEO's leadership to provide 
        educational information and to enhance communication efforts 
        for the safety and well-being of the facility staff and 
        population.
  <bullet> As a company, we ensured staff received proper training on 
        the use of PPE and in early April, consistent the CDC's updated 
        guidance, GEO provided surgical masks to all staff, who were 
        strongly encouraged to use them.
  <bullet> On April 6, 2020, Chief United States District Judge Ricardo 
        S. Martinez stated in a court ruling that ``there is 
        substantial evidence before the court of robust measures at the 
        Northwest [ICE] Detention Center to prevent an outbreak of 
        COVID-19, to contain one should it occur, and generally to 
        provide for the safety of the detainees housed there during the 
        pandemic.'' Judge Martinez noted that ``the measures 
        implemented by the NWDC generally track the recommendation of 
        the DHS's medical subject-matter experts.''
  <bullet> On April 10, 2020, GEO complied with the ICE/ERO Directive 
        regarding COVID-19 Pandemic Response Requirements, which 
        included reducing populations to approximately 75 percent to 
        promote better social distancing.
  <bullet> In April 2020, PPE (face masks, eye protection, and gloves) 
        were issued to all staff. In addition, all detainees were 
        issued face masks in enough quantities to replace used masks 3 
        times per week. To ensure proper care and usage of PPE, 
        training was provided to all staff and detainees.
  <bullet> Also in April, we began identifying high-risk detainees, 
        placing them in separate housing groups, and establishing 
        additional protocols for temperature testing and more frequent 
        access to the health care unit.
  <bullet> On May 4, 2020, intake testing was initiated at the 
        Alexandria Transfer Center in Louisiana for those identified 
        countries requiring the testing for COVID-19.
  <bullet> On May 5, 2020, at ICE's request, the Joe Corley and Karnes 
        Family Residential facilities started to use an Abbott COVID 
        testing device on detainee/residents who ICE was planning to 
        remove.
  <bullet> On May 21, 2020, a representative from the Florida 
        Department of Health visited the Broward ICE facility due to 
        the ``spike'' of positive COVID-19 cases as reported in the 
        local media. She expressed how impressed she was with the 
        obvious efforts staff had made to address the COVID-19 crisis 
        and preventive measures to prevent its spread inside the 
        institution.
  <bullet> Since May 27, 2020, all new persons arriving at the Adelanto 
        ICE Processing Center are administered a COVID-19 test upon 
        arrival and housed separately from general population detainees 
        until cleared by medical staff.
  <bullet> On June 2, 2020, the Aurora ICE Processing Center initiated 
        saturation COVID-19 testing of all detainees. The testing was 
        completed on June 16, 2020. The testing was conducted in 
        coordination with the Denver metropolitan area's Tri-County 
        Health Department.
  <bullet> June 2, 2020, the Northwest ICE Processing Center initiated 
        saturation COVID-19 testing of all detainees. The testing was 
        performed by the ICE Health Services Corps (IHSC) and was 
        completed in 1 day.
  <bullet> June 3, 2020, the Aurora ICE Processing Center commenced 
        voluntary COVID-19 testing of all staff. The testing was also 
        conducted in coordination with the Tri-County Health Department 
        and was completed on June 24, 2020.
  <bullet> June 4, 2020, all new commitments to the Northwest ICE 
        Processing Center are administered a COVID-19 test upon arrival 
        and were housed separately from general population detainees 
        until cleared by ICE's IHSC.
  <bullet> On June 4, 2020, intake testing was initiated at the 
        LaSalle, Louisiana ICE Processing Center, as well as, the 
        Montgomery Processing Center.
  <bullet> On June 10, 2020, the South Texas ICE Processing Center 
        initiated intake testing.
  <bullet> On June 17, 2020, the Northwest ICE Processing Center 
        commenced voluntary COVID-19 testing of all staff. The testing 
        was conducted by the Washington State Department of Health and 
        was completed on June 18, 2020.
  <bullet> On June 22, 2020, the Karnes Family Residential facility 
        started saturation testing of residents and staff. Testing of 
        residents was completed on June 22, 2020. Staff testing was 
        completed on June 29, 2020.
  <bullet> We have conducted this significant work pursuant to our 
        client's requirements, applicable health care guidelines, and 
        through the engagement of our stakeholders. For example, on 
        June 22, 2020, the South Texas ICE Processing Center conducted 
        a tour for the Congressional Hispanic Caucus. In attendance 
        were:
    <bullet> Rep. Joaquin Castro (D-TX 20th District)
    <bullet> Rep. Henry Cuellar (D-TX 28th District)
    <bullet> Rep. Sylvia Garcia (D-TX 29th District).
  <bullet> On June 23, 2020, intake testing was initiated at the 
        Broward, Florida; Folkston, Georgia; Pine Prairie, Louisiana; 
        and South Louisiana ICE Processing Centers. Also, South 
        Louisiana initiated mass testing.
  <bullet> On June 25, 2020, the Montgomery Processing Center started 
        detainee mass testing and completed it on June 29, 2020.
  <bullet> On June 25, 2020, the Karnes Family Residential Center 
        started testing upon arrival.
  <bullet> On June 26, 2020, the Louisiana Department of Health, 
        partnering with the Louisiana National Guard, began offering 
        COVID testing for the Alexandria and LaSalle facility staff. 
        The Broward and South Louisiana facilities initiated mass staff 
        testing.
  <bullet> Beginning on June 26, 2020, all new commitments to the 
        Aurora ICE Processing Center are administered a COVID-19 test 
        upon arrival and are housed separately from general population 
        detainees until cleared by medical staff.
  <bullet> Beginning June 29, 2020, all new commitments to the Mesa 
        Verde ICE Processing Center are administered a COVID-19 test 
        upon arrival and are housed separately from general population 
        detainees until cleared by medical staff.
              v. covid-19 statistics (geo ice facilities)
  <bullet> As of July 7, 2020, we have conducted 4,629 tests with the 
        following results: 4,018 negative results, 611 positive results 
        and 208 refusals, out of approximately 35,000 detainees who 
        either entered or departed from one of our facilities in the 
        last 4 months.
  <bullet> As of this writing, there are no ICE detainees that are 
        hospitalized.
  <bullet> As of this writing, there have been no ICE detainee deaths 
        from COVID-19.
  <bullet> As of July 7, 2020, there have been 130 confirmed COVID-19 
        cases among GEO's staff who work at ICE facilities. This 
        represents 3 percent of the GEO ICE staff, who total 3,735 
        employees.
  <bullet> There is only 1 GEO staff member from an ICE facility in the 
        hospital at this time.
  <bullet> No GEO employees who work at an ICE facility have died from 
        COVID-19.
                      vi. geo's diverse workforce
    In all areas of our business, GEO has strived to achieve wider 
racial, ethnic, age, and gender diversity. Across our organization, 
under-represented minorities--which include African Americans, Hispanic 
and Latino, Asian, Pacific Islander, Native Hawaiian and Native 
American/Alaskan--currently account for 60 percent of our total U.S. 
employee workforce. Women make up over half our workforce in the United 
States. Minorities comprise 38 percent of GEO's corporate workforce in 
the United States, 68 percent of our U.S. security staff, and 28 
percent of those serving in management positions as directors or above. 
GEO Group's employee population is also diverse in age. Of new hires in 
2018, 37 percent were under age 30, 49 percent were between ages 30 and 
50, and 27 percent were age 50 and older.
    Additionally, we exceed all requirements in support of small, 
disadvantaged, or minority-owned businesses in the local communities we 
serve. Over 23 percent of our company's Federal subcontracting dollars 
have been to these types of businesses. In 2019, GEO spent close to $79 
million on supplies and services provided by small disadvantaged 
businesses and women-owned businesses, an increase of approximately 12 
percent from 2018.
    GEO is also dedicated to employing Veterans, who comprise 11 
percent of our current U.S. workforce, as well as supporting Veteran-
owned businesses for which we spent approximately $13 million on 
supplies and services in 2019.
    We are particularly proud that, during these difficult and 
challenging times, we have maintained full employment for all of our 
employees and helped support the communities in which they live and 
work.
                              vii. summary
    COVID-19 has created and continues to create an unprecedented 
challenge for every citizen of our great country and we mourn for those 
we have lost to the pandemic.
    The GEO Group has worked very aggressively with our clients, 
various health authorities and the local community to curb the spread 
of the coronavirus. We continue to adapt and remain vigilant as we 
learn more about this contagion. We stand steadfast and take very 
seriously our responsibility to care for every person who has been 
entrusted to us.
    I thank you for the opportunity to appear before you today and look 
forward to answering any questions you may have.
                              ATTACHMENTS

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Miss Rice. Thank you, Mr. Zoley. Thank you for your 
testimony.
    I now recognize Mr. Marquardt to summarize his statement 
for 5 minutes.

 STATEMENT OF SCOTT MARQUARDT, PRESIDENT AND CEO, MANAGEMENT & 
                   TRAINING CORPORATION (MTC)

    Mr. Marquardt. Thank you for the opportunity to appear in 
today's hearing. My name is Scott Marquardt, and I am the CEO 
of Management and Training Corporation. I would like to share 
my company's experiences responding to COVID-19 in the 5 
detention facilities we operate in California, New Mexico, and 
Texas.
    Since the start of this pandemic, our top priority has been 
to take actions that protect the detainees and our staff from 
this virus. MTC began in 1981 as an operator of residential job 
corps centers. We provide low-income youth with academic 
instruction and technical training as well as wraparound 
services, including food, shelter, medical care, mentorship, 
and job placement.
    We have made a positive difference in the lives of hundreds 
of thousands of vulnerable youth. In 1987, MTC took our job 
corps knowledge and experience and began operating correctional 
facilities with the goal of helping incarcerated individuals 
change their lives and reducing recidivism.
    In 2006, MTC began providing services to another vulnerable 
population, the men and women detained pending immigration 
proceedings. MTC again adopted the job corps model of support, 
service, training, and respect.
    MTC-operated detention facilities provide access to health 
care, legal, programming, and faith-based services in safe, 
clean, and secure facilities.
    As of today, there are a total of 6 active COVID cases at 
our facilities. COVID-19 has proven to be highly contagious, 
and medical guidance has been fluid since the start of this 
pandemic. We have acted with urgency to implement the guidance 
from ICE, the Centers for Disease Control and Prevention, and 
State and local health departments.
    We have a deep concern for the people at our facilities, 
and our highest priority is the safety of our staff and 
detainees. We are responsive to evolving Federal, State, and 
local guidelines. We currently screen all new entrants to our 
facilities by placing them in a 2-week quarantine. We test 
individuals who are symptomatic or have had contact with 
someone with COVID-19. Individuals who test positive are placed 
in medical isolation and provided with care.
    Employees and those entering the facility are screened 
prior to entry. Staff and detainees receive training to 
identify symptoms and to help them understand prevention 
behaviors like hand hygiene, cough etiquette, social 
distancing, and mandatory mask-wearing procedures. Cleaning and 
sanitation is enhanced, and social distancing practices are in 
place.
    We have learned a lot about containing the spread of COVID-
19 the past few months. While there still is a lot that we and 
the entire medical community don't know, there are some things 
that guide us.
    First, testing is a good management tool that gives us 
important information to act on. It is not a panacea. Changing 
behavior is the difference maker.
    Frequently educating detainees and staff on prevention 
behaviors is essential. Limiting movement of detainees into 
facilities and having space to isolate, cohort, and quarantine 
help significantly. Stopping in-person visits except for legal 
visits and screening those entering the facility make a 
difference.
    Finally, cleanliness and good sanitation and insistence on 
social distancing, mask wearing, and hand washing is critical. 
We will continue to evaluate and apply lessons learned in 
managing COVID-19 at our facilities.
    I would like to close by thanking the people who work day 
in and day out on the front lines of this pandemic, risking 
their own lives to keep the men and women in our care safe and 
healthy. It is the officers, doctors, nurses, counselors, 
chaplains, food service workers, facility administrators, they 
are heroes and we couldn't have managed this unprecedented 
pandemic without them.
    Thank you for allowing me to speak about our shared 
interests in successful outcomes for the people in our 
detention facilities.
    [The prepared statement of Mr. Marquardt follows:]
                 Prepared Statement of Scott Marquardt
                             July 13, 2020
    Chairwoman Rice, Ranking Member Higgins, and Members of the 
committee, thank you for the opportunity to appear before you and 
participate in today's hearing. My name is Scott Marquardt, and I am 
the president and CEO of Management & Training Corporation (MTC).
    COVID-19 has been an aggressive and unprecedented pandemic that has 
impacted all of our lives. I would like to share my company's 
experiences responding to COVID-19 in the detention facilities we 
operate. We have taken extensive efforts to protect the detainees in 
our care, the staff who serve them, and the communities in which we 
operate.
         mtc was founded to help vulnerable populations succeed
    I would like to start by sharing with you who MTC is and the values 
we espouse. MTC began in 1981 as an operator of residential Job Corps 
centers. We provide low-income youth an academic education and 
technical training that leads to career that can sustain families and 
improve future employment opportunities. Our success is enhanced by a 
holistic approach that includes providing food, shelter, medical care, 
recreation, mentorship, and job placement assistance. Ultimately, our 
goal is to change the trajectory of disconnected youth, helping them 
gain the education and skills needed for career and personal success. 
MTC continues to operate Job Corps centers across the country. MTC has 
made a positive difference in the lives of hundreds of thousands of 
vulnerable youth.
    In 1987, using the expertise we developed in operating residential 
Job Corps centers, MTC began providing services to another vulnerable 
population: The men and women in correctional facilities. Our focus was 
and continues to be rehabilitation through programs designed to meet 
the criminogenic needs of those whom we serve. In each of the 
facilities we operate, we have adopted our Job Corps model, providing 
extensive support, training, and rehabilitative programming. The key to 
our success is building a culture based on respect and humane 
treatment. All of our correctional institutions are held to the highest 
standards in providing clean and well-maintained facilities, quality 
and timely health care, and programs that are effective in preparing 
people for reentry.
    In 2006, MTC began providing services to yet another vulnerable 
population--the men and women detained pending immigration proceedings. 
MTC again adopted the Job Corps model of support, service, training, 
and respect. Our facilities prioritize providing access to legal, 
health, and faith-based services, providing programming, and ensuring 
detainees have a safe, clean, and secure environment. We build a staff 
culture that promotes respect and empathy.
    MTC currently operates 5 U.S. Immigration and Customs Enforcement 
(ICE) detention facilities in California, New Mexico, and Texas:
  <bullet> Imperial Regional Detention Facility, located in Calexico, 
        California, has capacity for 782 detainees. Currently, 276 are 
        detained in that facility. (35.3 percent)
  <bullet> The Bluebonnet Detention Center in Anson, Texas, has 
        capacity for 1,000 detainees. Currently, 337 are housed at this 
        facility. (33.7 percent)
  <bullet> Otero County Processing Center, located in Chaparral, New 
        Mexico, has capacity for up to 1,089 detainees. Currently, 415 
        are housed in this center. (38.1 percent)
  <bullet> El Valle Detention Facility, located in Raymondville, Texas, 
        has capacity for 1,000 detainees. Currently, 333 are housed in 
        this center. (33.3 percent)
  <bullet> IAH/Polk Detention Center, located in Livingston, Texas, has 
        capacity for up to 1,052 detainees. Currently, 162 are house in 
        this center. (15.4 percent)
    Individuals at these MTC-operated facilities are there for short 
periods of time while they await immigration hearings or deportation. 
During their brief stay, MTC provides access to medical care, legal 
services, programming, and recreation. At each of these 5 facilities, 
individuals live in open-bay housing units with dorms that can 
accommodate up to 100 individuals, depending on the unit. As of July 9, 
2020, there are 3 active COVID-19 cases among the 5 detention 
facilities. Two of these cases are located within the Otero County 
Processing Center, and one is located at the El Valle Detention 
Facility.
    At all of the facilities and campuses where we operate and provide 
services, MTC staff are trained on our company philosophy, which is 
BIONIC ``Believe It Or Not, I Care.'' It is an operational philosophy 
that encourages staff to respect and show genuine care for each other 
and particularly for the individuals that they serve.
      preserving lives is mtc's first priority during the pandemic
    At MTC, our primary mission is to positively impact individuals, 
their families, and the community. Since the start of this pandemic, 
our top priority has been to take actions that protect the detainees, 
guests, and our staff from this virus.
    MTC has worked closely with ICE and State and local health 
departments to respond to COVID-19. As the CDC and medical community's 
understanding of this novel coronavirus has evolved, ICE Health Service 
Corps (IHSC) and the local Enforcement and Removal Operations (ERO) 
field offices have provided on-going guidance to our facilities. MTC 
has implemented all guidance at each of our facilities along with the 
oversight and direction of our corporate medical director.
    MTC has also worked tirelessly to adhere to the guidance provided 
by the CDC for ``correctional and detention facilities''. We have taken 
action to prepare each facility for COVID-19, prevent the spread of the 
virus, and manage any cases of the virus as directed by ICE and 
recommended by the CDC.\1\
---------------------------------------------------------------------------
    \1\ CDC. (2020, May 7). Interim Guidance on Management of 
Coronavirus Disease 2019 (COVID-19) in Correctional and Detention 
Facilities. Retrieved from https://www.cdc.gov/coronavirus/2019-ncov/
community/correction-detention/guidance-correctional-detention.html.
---------------------------------------------------------------------------
   mtc has established and maintained communication with key agencies
    It has been vital for us to communicate regularly with ICE, the 
State and local health departments, and local and State elected 
officials. We have provided proactive updates to local and State 
elected officials about the impact of COVID-19 at our ICE facilities, 
and we have shared daily updates with ICE.
    To work effectively with ICE, each MTC detention facility has 
completed a Detention Oversight Unit (DOU) COVID-19 ``Facility 
Checklist'' and has provided that checklist to ICE as required. This 
checklist allowed facilities to provide ICE documented responses to key 
questions surrounding the facility's preparation and preventative 
approach to the spread of COVID-19. MTC-operated immigration detention 
centers also provide ICE a daily COVID Tracking Report. This inclusive 
report includes information regarding cases among detainees and staff.
    Each MTC facility also coordinates testing with the State and local 
health department and works closely with those departments to track and 
monitor any positive cases of COVID-19.
 february 2020: mtc took early steps to prepare for threats from covid-
                                   19
    As the COVID-19 virus gained attention, MTC followed early IHSC 
``interim reference sheet'' dated January 31, 2020, and received 
February 3, 2020, that also referenced the CDC guidelines to prepare 
for this pandemic at all MTC-operated facilities. In February, IHSC 
continued to send facilities materials and we implemented an intake 
screening process for new entrants who had traveled to Mainland 
China.\2\ Operators were initially instructed to screen detainees 
entering facilities to determine if those individuals had traveled to 
mainland China or had close contact with an infected individual within 
the previous 14 days. Symptomatic individuals were given a mask and 
placed in medical isolation. Those with potential exposure were to be 
placed in quarantine for 14 days in order to watch for known COVID-19 
symptoms.
---------------------------------------------------------------------------
    \2\ IHSC. (2020, February 10). Interim Reference Sheet on 2019--
Novel Coronavirus (2019-nCoV) Version 2.1.
---------------------------------------------------------------------------
    This initial screening protocol was implemented at the MTC-operated 
facilities. By the end of February, the intake screening process 
expanded to identify individuals who had traveled through any 
geographic area experiencing wide-spread community transmission.\3\
---------------------------------------------------------------------------
    \3\ IHSC. (2020, February 25). Interim Reference Sheet on 2019--
Novel Coronavirus (2019-nCoV) Version 4.0.
---------------------------------------------------------------------------
    At this time, medical experts were not in agreement whether the 
general population should wear masks. On February 29, 2020, as an 
example of the confusion, the U.S. Surgeon General recommended that 
citizens should not be concerned with wearing masks.\4\
---------------------------------------------------------------------------
    \4\ U.S. Surgeon General. (2020, February 29). Seriously people--
STOP BUYING MASKS! Twitter. Retrieved from https://twitter.com/
surgeon_general/status/1233725785283932160?lang=- en.
---------------------------------------------------------------------------
  march 2020: mtc implemented comprehensive changes based on initial 
                       understanding of covid-19
    By March, facilities were already screening for COVID-19 during 
each intake process and monitoring the on-going updates regarding the 
symptoms and epidemiology of COVID-19. Throughout March, ICE provided 
extensive, frequent communication to facility administrators with 
detailed directions for preventing COVID-19 from spreading at 
facilities and to manage any cases or potential cases. In March, the 
CDC also published guidelines specifically targeting correctional and 
detention facilities.
    This guidance did not include a requirement for cloth masks for all 
staff and detainees. In March, and even into April, medical experts 
still debated the value of face masks. The World Health Organization 
(WHO), posted mask guidelines, on April 6, 2020, indicating that 
``there is currently no evidence that wearing a mask (whether medical 
or other types) by healthy persons in the wider community setting, 
including universal community masking, can prevent them from infection 
with respiratory viruses, including COVID-19.'' The WHO also indicated 
that it did not support the ``wide use of masks by healthy people in 
the community setting'' and that ``medical masks should be reserved for 
healthcare workers.''\5\
---------------------------------------------------------------------------
    \5\ World Health Organization. (2020, April 6). Advice on the use 
of masks in the context of COVID-19. Retrieved from https://
apps.who.int/iris/bitstream/handle/10665/331693/WHO-2019-nCov-
IPC_Masks-2020.3-eng.pdf?sequence=1&isAllowed=y.
---------------------------------------------------------------------------
MTC Provided Staff and Detainee Education
    On March 5, 2020, IHSC distributed information regarding the 
importance of hand hygiene and cough etiquette.\6\ Our administrators 
used this information to train staff. Staff reviewed the symptoms of 
COVID-19 and methods for preventing its spread. Similar trainings 
occurred for detainees during town halls. During these meetings, 
administrators and medical personnel impressed upon individuals 
important and relevant topics such as the contagious nature of the 
virus, review of the symptoms, and good hand hygiene, appropriate cough 
etiquette, methods for social distancing, and ways to request medical 
support.
---------------------------------------------------------------------------
    \6\ IHSC. (2020, March 5). ICE Health Service Corps Interim 
Recommendations for Screening and Early Management for 2019 Novel 
Coronavirus (COVID-19).
---------------------------------------------------------------------------
    IHSC also directed operators to provide COVID-19 education during 
the intake process for new detainees.\7\ During the intake process, our 
medical teams trained new arrivals on COVID-19 and educated them on 
preventative behaviors, such as hand hygiene, cough etiquette, and 
social distancing.
---------------------------------------------------------------------------
    \7\ IHSC (2020, March 5). ICE Health Service Corps Interim 
Recommendations for Screening and Early Management for 2019 Novel 
Coronavirus (COVID-19).
---------------------------------------------------------------------------
    Facilities posted both English and Spanish CDC flyers and posters 
containing educational information regarding hygiene, coughing 
etiquette, and how COVID-19 is spread (see ``Attachment A: Every MTC-
Operated Detention Facility Has Posted Signage in Multiple Locations to 
Educate Detainees on Preventing the Spread of COVID-19'').
Medical Personnel Determined If Testing for COVID-19 Was Necessary
    In a March 6, 2020 update, ICE indicated that when symptoms were 
present in an intake interview, medical providers were instructed to 
determine if testing was necessary and were ``strongly encouraged to 
test for other causes of respiratory illness, including infections such 
as influenza.''\8\
---------------------------------------------------------------------------
    \8\ IHSC. (2020, March 6). ``Interim Reference Sheet on 2019-Novel 
Coronavirus (COVID-19) from ICE Health Service Corps (IHSC). Version 
6.0''.
---------------------------------------------------------------------------
MTC Implemented an Incident Command System
    On March 11, 2020, each MTC-operated detention center activated an 
Incident Command System (ICS). Each ICS aligned with guidelines 
provided by Federal Emergency Management Agency.\9\
---------------------------------------------------------------------------
    \9\ FEMA provides ICS information and resources at https://
training.fema.gov/emiweb/is/icsresource/.
---------------------------------------------------------------------------
    Facilities used the ICS to identify and organize resources, 
establish clear lines of communication, manage the response to this 
emergency, and provide transparent communication with community 
officials. Within each facility's ICS, the first tactical priority was 
establishing and preserving a safe environment for staff and detainees.
    Each facility's ICS included action plan objectives that addressed 
potential issues with staffing and prepared necessary operational 
logistics, such as ensuring we had adequate food, medicines, cleaning 
supplies, and sanitation supplies. In developing the ICS, each facility 
identified medical isolation and quarantine spaces. Each facility's ICS 
also established a command team at the facility, which tracked and 
monitored any incidents.
    As part of this initial preparation process, MTC facilities ordered 
additional hand sanitizer, thermometers, soap, cleaning supplies, and 
personal protective equipment. Facilities also planned to work with 
State and local health departments for any testing needs although 
testing availability was limited throughout March 2020 (see 
``Attachment B: MTC Facilities Provide Hand Sanitizer to Staff and 
Detainees'').\10\
---------------------------------------------------------------------------
    \10\ Kaplan, S. & Thomas, K. (2020, April 6). Despite promises, 
testing delays leave Americans ``flying blind,'' The New York Times. 
Retrieved from https://www.nytimes.com/2020/04/06/health/coronavirus-
testing-us.html; Durr, S. (2020, March 27). City data: Survey of 213 
mayors reveals extend of shortage of COVID-19 emergency equipment. The 
United States Conference of Mayors. Retrieved from https://
www.usmayors.org/2020/03/27/city-data-survey-of-213-mayors-reveals-
extent-of-shortage-of-covid-19-emergency-equipment/.
---------------------------------------------------------------------------
MTC Implemented Staff Screening
    In conjunction with each facility's ICS, administrators began 
screening staff for COVID-19 when they arrived at work each day. This 
started as a verbal screening that looked for: (1) COVID-19 symptoms or 
(2) contact with someone with a laboratory-confirmed case of COVID-19. 
Each facility added a temperature check, monitoring staff for fevers of 
100.4 degrees or above. Those with COVID-19 symptoms or potential 
contact with COVID-19 were sent home, and directed to contact their 
primary care physician. If a staff member developed symptoms while at 
work, he or she was also sent home. Upon notification that a staff 
member was positive for COVID-19, the individual's work space, as well 
as common areas, were sanitized. The facilities also conducted a 
contact investigation, and any staff identified as having close contact 
with the infected individual was sent home from work. This daily 
screening process for all employees has continued throughout the course 
of the pandemic (see ``Attachment C: Staff Undergo a Daily COVID-19 
Screening Prior to Entering A Facility'').
MTC Enhanced Cleaning and Sanitation Practices
    On March 12, 2020, IHSC listed actions that facilities should take 
to reduce the risk of COVID-19 transmission. These actions included 
cleaning equipment, disinfecting items which were frequently touched by 
multiple people, increasing the cleaning of common areas, disinfecting 
exam rooms between each patient, and ensuring adequate EPA-approved 
disinfectants were available.\11\
---------------------------------------------------------------------------
    \11\ IHSC. (2020, March 12). Reducing the Risk of COVID-19 
Transmission.
---------------------------------------------------------------------------
ICE Suspended Social Visitations
    On March 13, 2020, 2 days after MTC activated each facility's ICS, 
ICE suspended all social visitations to facilities.\12\ The ERO field 
offices also distributed flyers that each facility posted at its main 
gate or lobby. These posters listed COVID-19 symptoms and informed 
visitors that anyone with these symptoms would not be allowed in the 
facility. MTC facilities started encouraging non-contact visits, 
providing increased phone and video conferencing opportunities to 
detainees. We met with detainees in town hall settings and communicated 
this new requirement which impacted visitation.
---------------------------------------------------------------------------
    \12\ ICE (2020, March 13). Email from field office ``Temporarily 
suspension of social visitation at all its detention facilities due to 
COVID-19''.
---------------------------------------------------------------------------
ICE and the CDC Provided Additional Guidance on Best Practices for 
        Cleaning Facilities
    On March 21, 2020, ICE provided best practices for responding to 
COVID-19 to each facility administrator. These best practices 
identified EPA-approved cleaning products and additional guidelines for 
cleaning the facilities.\13\ Consistent cleaning guidelines were also 
provided by the CDC on March 23, 2020.\14\ These guidelines included:
---------------------------------------------------------------------------
    \13\ ICE. (2020, March 21). COVID-19 Best Practices for Detention 
Facilities.
    \14\ CDC. (2020, March 23). Interim Guidance on Management of 
Coronavirus Disease 2019 (COVID-19) in Correctional and Detention 
Facilities.
---------------------------------------------------------------------------
  <bullet> Cleaning and disinfecting frequently-touched surfaces and 
        objects, particularly in common areas, several times a day.
  <bullet> Cleaning shared equipment, such as phones, keyboards, 
        radios, service weapons, keys, and handcuffs several times per 
        day.
  <bullet> Using household cleaners and EPA-registered disinfectants.
    Our facilities immediately worked to align cleaning practices with 
the CDC and ICE guidelines. MTC placed hand sanitizer in common areas. 
Individuals were provided access to hygiene items such as soap and 
paper towels. Cleaning crews, staff, or detainees, used Environmental 
Protection Agency-registered, hospital-grade disinfectants to 
frequently clean high-touch surfaces and any shared equipment. These 
crews or any other individuals increased the cleaning of housing units, 
classrooms, recreation areas, kitchen, cafeteria, and other areas where 
individuals gather. On a daily basis, MTC provides cleaning supplies 
for detainees to clean their personal living spaces (see ``Attachment 
D: MTC Provides Cleaning Supplies to Detainees'').
MTC Implements ICE Guidance on Removing Someone from Medical Isolation
    On March 21, 2020, ICE shared COVID-19 best practices, which 
included criteria which should be met prior to an individual leaving 
isolation.\15\ MTC implemented into practice this guidance:
---------------------------------------------------------------------------
    \15\ ICE. (2020, March 21). COVID-19 Best Practices for Detention 
Facilities.
---------------------------------------------------------------------------
  <bullet> The individual needed to be free from fever for 72 hours 
        without the use of fever-reducing medications.
  <bullet> The individual's symptoms have improved or cleared.
  <bullet> The individual has tested negative in at least 2 consecutive 
        respiratory specimens collected at least 24 hours apart.
  <bullet> At least 7 days have passed since the date of the 
        individual's first positive COVID-19 test and has had no 
        subsequent illness.
MTC Implemented Social Distancing Guidelines Provided by the CDC and 
        ICE
    March 23, 2020, the CDC provided guidance to detention and 
correctional facilities regarding social distancing in these 
settings.\16\ Practicing social distancing can be challenging in 
congregate settings, such as the open bay dorms in the detention 
facilities. However, MTC implemented social distancing measures in 
accordance with the ICE and CDC guidelines. Guidelines included 
enforcing increased space between individuals in common areas, choosing 
recreation spaces where individuals can spread out and stagger 
schedules in those spaces, staggering meals times or providing meals 
inside housing units or cells, limiting group activities to small 
groups with space, reassigning bunks for greater distance, and 
evaluating medical support to reduce potential contact with others. We 
quickly implemented these guidelines.
---------------------------------------------------------------------------
    \16\ CDC. (2020, March 23). Interim Guidance on Management of 
Coronavirus Disease 2019 (COVID-19) in Correctional and Detention 
Facilities.
---------------------------------------------------------------------------
    We reassigned bunks to provide more space between individuals and 
arranged bunks so individuals sleep head to foot to increase the 
distance between them. We also reviewed and modified scheduled 
movements to minimize the mixing of individuals from different housing 
areas (see ``Attachment E: MTC Facilities Use Social Distancing to 
Limit the Spread of COVID-19'').
CDC Provided Guidelines on COVID-19 Screening, Testing, and Medical 
        Isolation
    The CDC guidance provided to detention and correction facilities on 
March 23, 2020, included directions on screening, testing, and 
isolating individuals to prevent the spread of COVID-19. These 
directions aligned with previous guidance from ICE. The CDC directed 
medical staff to ``evaluate symptomatic individuals to determine 
whether COVID-19 testing is indicated.''\17\ The CDC also directed 
facilities to work with the State, local, or Tribal health departments 
to access testing supplies and services.
---------------------------------------------------------------------------
    \17\ CDC. (2020, March 23). Interim Guidance on Management of 
Coronavirus Disease 2019 (COVID-19) in Correctional and Detention 
Facilities.
---------------------------------------------------------------------------
    MTC facilities have adhered to these guidelines. Our medical staff 
screen and care for all those with signs of infection, and we 
quarantine those with possible exposure to the virus. Individuals are 
quarantined in individual rooms where possible. When the need for 
quarantine exceeds the availability of our individual rooms, we 
designate a housing unit and cohort those in quarantine in a separate 
unit.
    When an individual does test positive for COVID-19, the individual 
remains isolated under medical care. This medical isolation also uses 
designated medical isolation rooms. If necessary, we can use a 
cohorting approach and designate a housing unit to medically isolate 
positive cases.
    Upon identifying that an individual has COVID-19, staff sanitize 
all living and common areas the individual had contact with. We also 
conduct contact tracing to identify those who have been in contact with 
the infected individual. Finally, those in the individual's previous 
housing unit are isolated from other populations.
Mitigating Spread of COVID-19 During Transport
    MTC recognizes the risk of spreading disease when transferring 
detainees and has established procedures to mitigate that risk at our 
detention centers. All transfers are screened for COVID-19 symptoms 
immediately upon arrival. Symptomatic individuals are promptly isolated 
under medical care. Non-symptomatic individuals are placed in 
quarantine, so they can be monitored for 14 days before placement in 
the general population.
MTC Followed CDC Guidance on PPE
    The CDC's guidance on March 23, 2020, also included recommended PPE 
for infection control.\18\ MTC provided medical personnel with face 
masks, N95 respirators, eye protection, disposable medical gloves, 
disposable gowns, and face shields. On March 31, 2020, ICE sent 
additional guidance for the use of personal protective equipment (PPE) 
by medical personnel. Non-medical providers were encouraged to use 
other barriers to cover the mouth and nose, preserving PPE for medical 
staff.\19\ We are closely monitoring PPE inventories at the facility 
level and overall at the corporate office to ensure adequate supplies 
are on hand for staff and detainees.
---------------------------------------------------------------------------
    \18\ CDC (2020, March 23). ``Interim Guidance on Management of 
Coronavirus Disease 2019 (COVID-19) in Correctional and Detention 
Facilities''.
    \19\ ICE (2020, March 31). Reducing the Risk of COVID-19 
Transmission (ICE).
---------------------------------------------------------------------------
    MTC has adhered to CDC guidelines to determine the distribution of 
PPE and hygiene supplies. In any circumstances when ICE guidelines are 
more stringent, MTC adopts the more stringent guidelines in an attempt 
to increase the protection for staff and detainees. MTC does not 
require, nor have we ever required, any forms prior to the distribution 
of these supplies. Instead, we have provided PPE and other supplies 
whenever they are needed to mitigate the spread of COVID-19.
Screening Processes for COVID-19 Among Detainees, Staff, and Visitors 
        Continued to Change
    On March 31, 2020, IHSC provided revised screening guidelines, 
which eliminated travel-based screening and instead screened new 
arrivals based only on symptoms and on contact with any individuals 
known to have a laboratory-confirmed case of COVID-19.\20\ Each 
facility revised its screening instrument in alignment with the 
guidance provided by IHSC.
---------------------------------------------------------------------------
    \20\ March 23, 2020, IHSC, ``ICE Health Services Corps Interim 
Recommendations For 2019 Novel Coronavirus (COVID-19) Risk Assessment 
and Early Management''.
---------------------------------------------------------------------------
 april 2020: mtc adapted practices based on the latest guidelines for 
                    preventing and managing covid-19
    Throughout April, ICE continued updating and clarifying practices 
around medical isolation, PPE, social distancing, education, and masks. 
ICE also focused on identifying populations that were particularly 
vulnerable to COVID-19. Communication between ERO field offices and 
administrators occurred multiple times per week. ICE also requested 
that each facility complete a DOU checklist detailing current COVID-19 
preparation levels, preventative practices, and case management steps. 
Facilities reported daily on any cases and provided comprehensive 
reporting on checklists bi-weekly.
MTC Implements ICE Guidance to Determine When Someone Could Leave 
        Medical Isolation
    On April 1, 2020, IHSC described 2 methods for determining when 
facilities could discontinue precautions for an individual: Test-based 
or non-test-based strategies. The test-based strategy included the 
resolution of fever without medications, improvement in respiratory 
symptoms, and negative results of 2 consecutive nasopharyngeal swab 
specimens collected at least 24 hours apart. The non-test-based 
strategy included 3 days without a fever (without the use of 
medications), improvement in respiratory symptoms, and 7 days since the 
symptoms first appeared.\21\
---------------------------------------------------------------------------
    \21\ IHSC. (2020, April 1). Interim Reference Sheet on 2019-Novel 
Coronavirus (COVID-19): Detainee Care Version 9.0.
---------------------------------------------------------------------------
ICE Partnered with Contractors to Identify Populations with Greater 
        Vulnerability to COVID-19
    On April 4, 2020, ICE field offices reached out to the 
administrators at each of our facilities requesting a list of 
individuals who were at higher-risk for serious illness from COVID-
19.\22\ Using the categories identified by the CDC, our medical team 
identified those who were pregnant or those who had delivered in the 
last 2 weeks, individuals over 60 years old, and individuals of any age 
having chronic illnesses which would make them immuno-compromised, 
including but not limited to blood disorders, chronic kidney disease, 
compromised immune system, endocrine disorders, metabolic disorders, 
heart disease, lung disease, neurological and neurologic and 
neurodevelopment conditions. ICE used this information to make 
determinations about the potential release of those who were at higher 
risk from COVID-19.
---------------------------------------------------------------------------
    \22\ ICE. (2020, April 4). Email from Peter B. Berg, Assistant 
Director, Field Operations.
---------------------------------------------------------------------------
ICE Reduced the Population in Facilities to Allow for Greater Social 
        Distancing
    On April 10, 2020, ICE reiterated the CDC's early guidance on 
social distancing. ICE further indicated that efforts would be made to 
reduce the population to at least 70 percent capacity to provide 
greater social distancing capabilities.\23\ Currently, the MTC-operated 
detention facilities run under capacity, which allows for greater 
social distancing measures. Currently none of our facilities has a 
capacity over 38.1 percent.
---------------------------------------------------------------------------
    \23\ ERO. (2020, April 10). ``COVID-19 Pandemic Response 
Requirements'' Version 1.0.
---------------------------------------------------------------------------
MTC Posted Educational Materials Throughout Facilities
    On April 16, 2020, ICE provided flyers and posters containing 
educational information about COVID-19 for facilities to post in common 
areas. Posters were available in multiple languages, and all MTC 
facilities displayed the provided educational materials.
Staff and Detainees Received Cloth Face Masks
    Early in April, ICE Enforcement and Removal Operations (ERO) shared 
mandatory requirements for all facilities to adopt. The requirements 
instructed facilities to gather PPE for medical personnel and acquire 
cloth face masks for staff and detainees. These cloth masks were to be 
worn by symptomatic individuals, as well as by any detainees with 
confirmed or suspected cases of COVID-19 outside of an individual's 
medically isolated space.\24\ ICE expanded these guidelines on April 
20, 2020, determining that all detainees should wear face 
coverings.\25\
---------------------------------------------------------------------------
    \24\ ERO. (2020, April 10). ``U.S. ICE Enforcement and Removal 
Operations (ERO): COVID-19 Pandemic Response Requirements''.
    \25\ ICE (2020, April 20). Email from William Fuller ``Face 
Coverings for ICE Detainees at MTC Facilities''.
---------------------------------------------------------------------------
    Following this guidance, MTC provided face masks for all detainees 
and staff. Staff are expected to wear masks while on shift. Detainees 
are also expected to wear masks when outside of their personal living 
spaces (see ``Attachment F: All Detainees Have Received Face Masks'').
ICE Provided Revised Guidance to Determine When Someone Could Leave 
        Medical Isolation
    On April 24, 2020, IHSC updated the criteria for determining if 
someone previously diagnosed with COVID-19 could leave medical 
isolation and return to the general population. These revised criteria 
specified that all individuals should be isolated for a minimum of 14 
days after the first positive COVID-19 test. It also provided more 
information on non-test-based strategies, differentiating between non-
test-based strategies for febrile and/or symptomatic patients and for 
non-febrile and asymptomatic patients. When a patient met criteria for 
one of these scenarios, IHSC indicated he/she could be returned to 
general housing.\26\ As testing processes have evolved, MTC has 
implemented the updated guidelines. MTC facilities are adhering to all 
recommended testing approaches.
---------------------------------------------------------------------------
    \26\ IHSC. (2020, April 24). Interim Reference Sheet on 2019-Novel 
Coronavirus (COVID-19): Detainee Care Version 10.0.
---------------------------------------------------------------------------
 may 2020: mtc continued to adapt practices to ensure quality support 
                  for all staff and facility residents
    As cases became more wide-spread throughout the United States, MTC 
took additional precautions to protect individuals residing in the 
facilities we operate.
MTC Added Additional Disinfectant Measures at Otero and Bluebonnet
    At 2 facilities where we encountered several COVID-19-positive 
cases, MTC has taken additional cleaning and sanitation precautions 
that were not required by ICE or the CDC. In the Otero County 
Processing Center for example, an officer is assigned to walk the 
facility with a backpack sprayer with germicidal cleanser, spraying 
down frequently touched areas. The Otero County Processing Center and 
the Bluebonnet Detention Center both acquired 2 ultra-low-volume 
foggers that could spray disinfectant to cover 99 percent of surface 
areas. These facilities use the foggers to prevent spread of COVID-19. 
We only use EPA-approved chemicals that have been tested to be safe for 
human exposure. Out of an abundance of caution, we ensure no detainees 
are present during the disinfecting process (See ``Attachment G: 
Facilities Have Implemented Increased Sanitation and Cleaning 
Practices'').
MTC Implemented Increased Testing Practices at Otero and Bluebonnet
    In Bluebonnet Detention Center and Otero County Processing Center 
where we had the most positive cases, MTC has implemented more 
aggressive testing practices. At the Otero County Processing Center, we 
have administered multiple rounds of extensive testing for the 467 
individuals in the facility, administering 794 tests. At the Bluebonnet 
Detention Center, we have also testing extensively, administering 383 
tests.
MTC Tracks and Monitors Cases Closely
    MTC continues to monitor all cases at each facility, working 
closely with ICE and the State and local health departments. As of July 
9, 2020, Imperial Regional Detention Facility and IAH Detention Center 
have no active cases of COVID-19, with a combined total of 20 recovered 
cases. At the Bluebonnet Detention Center, we currently have zero 
active cases, and 290 recovered cases. At the El Valle Detention 
Facility, we have 1 active COVID-19 case with 1 recovered case. At 
Otero County Processing Center, there are 2 active cases, and 153 
recovered cases.
    In the Otero County Processing Center and Bluebonnet Detention 
Center, the majority of the active cases have been asymptomatic 
carriers. MTC was able to identify the asymptomatic cases by 
implementing comprehensive testing measures in conjunction with the 
State and local health departments. To date, none of the COVID-19 cases 
at these 5 facilities have resulted in death.
    We also monitor COVID-19's impact on our staff. As of July 9, 2020, 
Imperial Regional Detention Facility staff have 4 active cases, while 
10 staff have recovered. El Valle Detention Center staff have 11 active 
cases, with 1 staff member recovered. IAH Detention Center has 3 active 
cases among staff with 3 recovered. At Otero County Processing Center, 
we have 6 active staff cases and 8 recovered. At the Bluebonnet 
Detention Center, we currently have 8 active staff cases, and 11 
recovered cases.
 june 2020 to present: mtc continues to follow guidance to protect the 
              health of detainees, staff, and communities
    MTC continued to follow all Federal, State, and local health 
guidelines. On July 1, 2020, we began implementing the ICE COVID-19 
Pandemic Response Requirements (PRR) Version 2.0 which sets forth 
expectations and assists ICE detention facility operators to sustain 
detention operations while mitigating risk to the safety and well-being 
of detainees, staff, contractors, visitors, and stakeholders due to 
COVID-19.\27\ The ERO PRR builds upon previously-issued guidance and 
sets forth specific mandatory requirements to be adopted by all 
detention facilities, as well as recommended best practices, to ensure 
that detainees are appropriately housed and that available mitigation 
measures are implemented during this unprecedented public health 
crisis. The ERO PRR has been developed in consultation with the CDC and 
is a dynamic document that will be updated as additional/revised 
information and best practices become available.
---------------------------------------------------------------------------
    \27\ ERO. (2020, June, 22). ``COVID-19 Pandemic Response 
Requirements'' Version 2.0.
---------------------------------------------------------------------------
                               conclusion
    COVID-19 has proven to be a highly contagious disease, and medical 
understanding of this disease continues to evolve. MTC has taken 
direction from multiple agencies as we have faced this challenging 
situation, such as ICE, CDC, State and local health departments, and 
WHO. ICE has adapted its guidelines throughout the course of the 
pandemic and communicated changes to contractors (see ``Attachment H: 
MTC COVID-19 Response Timeline Summary''). At the facilities MTC 
operates, we have focused on preserving lives in the following ways:
  <bullet> MTC has adhered to CDC and ICE and State and local health 
        department guidance and has immediately implemented any changes 
        to testing, screening, and sanitation processes and protocols.
  <bullet> As a company, we acted quickly to implement preventative 
        measures in each of the facilities we operate.
  <bullet> We provided staff and detainees with education on COVID-19 
        and behaviors that could limit its spread.
  <bullet> We enhanced our cleaning and sanitation practices which were 
        already at exceptional levels.
  <bullet> We distributed personal protective equipment and cloth face 
        masks at each facility.
  <bullet> We implemented social distancing practices.
  <bullet> We screened for COVID-19 and used observation, isolation, 
        and quarantine to separate those with active and potential 
        cases from the general population.
  <bullet> We screened detainees when they were transferred to MTC 
        facilities and before they were transferred away from MTC 
        facilities.
  <bullet> We implemented daily staff verbal screenings and temperature 
        checks.
  <bullet> Our facility administrators have provided community, State, 
        and Federal leaders regular updates, and we have acted with a 
        high level of transparency.
    MTC will continue to evolve its approach to managing this disease 
as more information becomes available. We remain dedicated to 
protecting those who reside and work in our facilities.
    I would like to close by thanking the often overlooked heroes who 
work day in and day out on the front lines of this COVID-19 pandemic, 
risking their own lives to keep the men and women in our care safe and 
healthy. It's the officers, doctors, nurses, counselors, chaplains, and 
food service workers. They are heroes, and we could not have managed 
this unprecedented pandemic without them.
Attachment A.--Every MTC-Operated Detention Facility Has Posted Signage 
in Multiple Locations to Educate Detainees on Preventing the Spread of 
                                COVID-19
    Facilities have educated detainees about COVID-19 and preventative 
behaviors through intake conversations, town halls, and signs. Signs 
are posted in multiple languages throughout each facility (see Figure 1 
and Figure 2).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Attachment B.--MTC Facilities Provide Hand Sanitizer to Staff and 
                               Detainees
    Each facility has placed hand sanitizer in common areas (see Figure 
3 and Figure 4) to ensure visitors, staff, and detainees can access it. 
All individuals in each facility have been provided with access to 
hygiene items.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Attachment C.--Staff Undergo a Daily COVID-19 Screening Prior to 
                          Entering A Facility
    To protect the staff and the detainees, all staff and visitors to 
the facility must be screened anytime they enter the facility (see 
Figure 5). This screening includes a temperature check, which monitors 
for temperatures of 100.4 degrees or higher (see Figure 6). Staff are 
expected to wear masks during this process and throughout their shifts.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Attachment D.--MTC Provides Cleaning Supplies to Detainees
    At MTC-operated facilities, individuals are provided cleaning 
cloths and cleaning solution to ensure they can keep their personal 
living spaces sanitized (see Figure 7).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Attachment E.--MTC Facilities Use Social Distancing to Limit the Spread 
                              of COVID-19
    Each facility has implemented multiple layers of social distancing. 
This included actions such as staggering access to shared spaces, 
limiting group activities to small groups, reassigning bunks for 
greater distance, evaluating medical support to reduce potential 
contact with others. Within the facility, MTC also marked spaces to 
ensure social distancing in group settings (see Figure 8).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Attachment F.--All Detainees Have Received Face Masks
    Each facility has provided both detainees and staff with face masks 
that they are required to wear (see Figure 9).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Attachment G.--Facilities Have Implemented Increased Sanitation and 
                           Cleaning Practices
    MTC has taken additional sanitation precautions. This includes 
using an ultra-low-volume fogger that can spray disinfectant to cover 
99 percent of surface areas (see Figure 10 and Figure 11). MTC uses 
only EPA-approved chemicals that have been tested to be safe for human 
exposure. We also ensure no detainees are present during the 
disinfectant process.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Attachment H.--MTC COVID-19 Response Time Line Summary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Miss Rice. Thank you for your testimony, Mr. Marquardt.
    I now recognize Mr. Cooper to summarize his statement in 5 
minutes.

   STATEMENT OF RODNEY COOPER, EXECUTIVE DIRECTOR, LA SALLE 
                          CORRECTIONS

    Mr. Cooper. Thank you. Chairman Thompson, Ranking Member 
Rogers, and Members of the committee, thank you for the 
opportunity to testify regarding our COVID-19 response.
    It is a privilege to appear before you today and discuss 
the tremendous efforts our company is taking to mitigate 
impacts of this unprecedented pandemic.
    LaSalle Corrections is an established developer and 
operator of correctional centers throughout the United States. 
LaSalle Corrections has been providing corrections industry 
solutions to law enforcement agencies, Federal agencies, and 
government municipalities for decades.
    Our range of facility solutions include design, 
construction, and operations management, along with inmate and 
detainee services that cover security, education, 
rehabilitation, immigration, and health care.
    As a full-service corrections and immigration detention 
management provider, LaSalle Corrections specializes in the 
management of prisons, jails, and detention facilities, as well 
as inmate and detainee transportation services.
    Since the onset of reports of COVID-19, LaSalle Corrections 
has been tracking the outbreak, regularly updating infection 
prevention and control protocols, and issuing guidance. We 
implemented our pandemic contingency plan in response to COVID-
19 that includes screening, testing, appropriate treatment, 
prevention, education, and infection control measures.
    After thorough review and consultation of existing plans, 
we formulated revisions to our strategic plans to include a 
COVID-19 response plan. Our company's strategic planning 
ensures for continuity of operations and a sustainable health 
care delivery system.
    All emergency services and advanced medical care is 
included in our pandemic planning. Also, comprehensive 
protocols are in place for the protection of staff and 
detainees, including the appropriate use of PPE, in accordance 
with CDC guidance.
    As you are aware, correctional and detention facilities can 
include custody, housing, education, recreation, health care, 
food service, and workplace components in a single physical 
setting. The integration of these components presents unique 
challenges for control of COVID-19 transmission among 
incarcerated persons, staff, and visitors.
    However, our company's consistent preparation, prevention, 
and management measures have served as a foundation to reduce 
the risk of transmission and severity of illness from COVID-19. 
To date, no one in our care and custody has succumbed to COVID-
19.
    Our employees have access to the most current CDC and DHS 
guidance and full support and assistance in this rapidly-
changing environment. General guidance for each facility on 
COVID-19 in correctional and detention settings include: 
Operational and communications preparations for COVID-19; 
enhanced cleaning, disinfecting, and hygiene practices; social 
distancing strategies; how to limit transmission from visitors; 
infection control, including recommended PPE and potential 
alternatives during PPE shortages; verbal screening and 
temperature check protocols for incoming individuals, staff, 
and visitors; medical isolation of confirmed and suspected 
cases and quarantine of contacts, including considerations for 
cohorting when individual spaces are limited; health care 
evaluation for suspected cases, including testing for COVID-19; 
clinical care for confirmed and suspected cases; considerations 
for persons at higher risk of severe disease from COVID-19.
    We are working closely with the Center for Disease Control, 
the Department of Homeland Security, and other Federal, State, 
and local agencies to facilitate and refine our pandemic 
planning.
    LaSalle Corrections reviews CDC guidance routinely and 
continues to update protocols to remain consistent with CDC 
guidance. We will continue to incorporate CDC's COVID-19 
guidance, coupled with the rapidly-changing adaptations of 
State and local health departments.
    Also, LaSalle Corrections continues our focus on 
operational and communications planning, reinforcing hygiene 
practices, intensifying cleaning and disinfecting of 
facilities, and monitoring for potential cases. Facilities will 
continue increased social distancing, having staggered meals, 
meal locations, and rec times in order to limit large 
gatherings.
    The responsibility to protect those in our custody is 
paramount, and LaSalle Corrections is firmly committed to the 
health and welfare of our detained population. LaSalle 
Corrections will remain diligent in operating our facilities at 
the highest level, providing safe, secure, and humane 
surroundings for our staff, those in our custody and the 
communities in which we operate.
    The skills, talents, and dedication of our work force form 
the foundation of our success in responding to this 
unprecedented pandemic, and I assure you our team will continue 
to work very hard every day to ensure facilities are operating 
under the safest and most practical conditions to reduce the 
risk of exposure and prevent further spreading of COVID-19.
    Thank you again for the opportunity to appear before you 
today and for your support. I remain committed to working with 
Congress and my colleagues to ensure for the continued welfare 
and safety of our detained population.
    [The prepared statement of Mr. Cooper follows:]
                  Prepared Statement of Rodney Cooper
                             July 13, 2020
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, thank you for the opportunity to testify regarding our 
COVID-19 response.
    It is a privilege to appear before you today and discuss the 
tremendous efforts our company is taking to mitigate impacts of this 
unprecedented pandemic.
                                overview
    LaSalle Corrections is an established developer and operator of 
correctional centers throughout the United States. LaSalle Corrections 
has been providing corrections industry solutions to law enforcement 
agencies, Federal agencies, and Government municipalities for decades. 
Our range of facility solutions include design, construction, and 
operations management, along with inmate and detainee services that 
cover security, education, rehabilitation, immigration, and health 
care. As a full-service corrections and immigration detention 
management provider, LaSalle Corrections specializes in the management 
of prisons, jails, and detention facilities, as well as inmate and 
detainee transportation services.
                           pandemic response
    Since the onset of reports of Coronavirus Disease 2019 (COVID-19), 
LaSalle Corrections has been tracking the outbreak, regularly updating 
infection prevention and control protocols, and issuing guidance. 
LaSalle Corrections implemented our Pandemic contingency plan in 
response to COVID-19, that includes screening, testing, appropriate 
treatment, prevention, education, and infection control measures. After 
thorough review and consultation of existing plans, we formulated 
revisions to our strategic plans to include a COVID-19 pandemic 
response plan. Our company's strategic planning ensures for continuity 
of operations and a sustainable health care delivery system within 
facility settings. All emergency services and advanced medical care is 
included in our pandemic planning. Also, comprehensive protocols are in 
place for the protection of staff and detainees, including the 
appropriate use of personal protective equipment (PPE), in accordance 
with Centers for Disease Control (CDC) guidance.
    As you are aware, correctional and detention facilities can include 
custody, housing, education, recreation, health care, food service, and 
workplace components in a single physical setting. The integration of 
these components presents unique challenges for control of COVID-19 
transmission among incarcerated/detained persons, staff, and visitors. 
However, our company's consistent preparation, prevention and 
management measures have served as a foundation to reduce the risk of 
transmission and severity of illness from COVID-19. To date no ICE 
detainee in our care has succumbed to COVID-19.
    LaSalle Corrections employees have access to the most current CDC 
and DHS guidance and full support and assistance in this rapidly-
changing environment. General guidance for each facility on COVID-19 in 
correctional and detention settings include:
  <bullet> Operational and communications preparations for COVID-19
  <bullet> Enhanced cleaning/disinfecting and hygiene practices
  <bullet> Social distancing strategies to increase space between 
        individuals in the facility
  <bullet> How to limit transmission from visitors
  <bullet> Infection control, including recommended personal protective 
        equipment (PPE) and potential alternatives during PPE shortages
  <bullet> Verbal screening and temperature check protocols for 
        incoming incarcerated/detained individuals, staff, and visitors
  <bullet> Medical isolation of confirmed and suspected cases and 
        quarantine of contacts, including considerations for cohorting 
        when individual spaces are limited
  <bullet> Health care evaluation for suspected cases, including 
        testing for COVID-19
  <bullet> Clinical care for confirmed and suspected cases
  <bullet> Considerations for persons at higher risk of severe disease 
        from COVID-19.
    LaSalle Corrections is working closely with the Centers for Disease 
Control (CDC), Department of Homeland Security (DHS) and other Federal, 
State, and local agencies to facilitate and refine our pandemic 
planning and response in confronting COVID-19. LaSalle Corrections 
reviews CDC guidance routinely and continues to update protocols to 
remain consistent with CDC guidance. LaSalle Corrections will continue 
to incorporate CDC's COVID-19 guidance, which is built upon the 
established infectious disease monitoring and management protocols, 
coupled with the rapidly-changing adaptations of State and local health 
departments.
    Also, LaSalle Corrections continues our focus on operational and 
communications planning, reinforcing hygiene practices, intensifying 
cleaning and disinfection of facilities, and monitoring for potential 
cases. Facilities will continue increased social distancing through 
physical separation, having staggered meals, meal locations, and 
recreation times in order to limit large gatherings.
                               conclusion
    The responsibility to protect those in our custody is paramount and 
LaSalle Corrections is firmly committed to the health and welfare of 
our detained population. LaSalle Corrections will remain diligent in 
operating our facilities at the highest level, providing safe, secure, 
and humane surroundings for our staff, those in our custody and the 
communities in which we operate. The skills, talents, and dedication of 
our workforce form the foundation of our success in responding to this 
unprecedented pandemic and I assure you our team will continue to work 
hard every day to ensure facilities are operating under the safest and 
most practical conditions to reduce the risk of exposure and prevent 
further spreading of COVID-19.
    Thank you again for the opportunity to appear before you today and 
for your support. I remain committed to working with Congress and my 
colleagues to ensure for the continued welfare and safety of our 
detained population.

    Miss Rice. Thank you, Mr. Cooper.
    I thank all the witnesses for their testimony.
    I will remind the subcommittee that we will each have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    Mr. Hininger, first to you, at the Eloy Detention Center in 
Arizona, which your company operates, at least 250 detainees 
have now tested positive for coronavirus among an average 
population of about 1,100 people. That is nearly 5 percent of 
the detainees at the facility.
    There are also reports indicating that employees have been 
pressured to keep working after showing signs of the 
coronavirus and that staff are not told when other workers or 
detainees have tested positive for the virus.
    Will you commit to launching an investigation into these 
reports of potential negligence at the Eloy facility?
    Mr. Hininger. Thank you for your question.
    So let me just first say that, you know, since the 
beginning we have been working closely with ICE, our partner in 
this case, and also CDC receiving their guidance on exactly how 
we should adjust and calibrate our operations appropriately 
within our ICE facilities. That has informed our operational 
kind of plan and process during that period of time.
    As it relates to Eloy out in Arizona, we have had 
individuals test positive that you just noted, both staff and 
detainees. The numbers I think you have indicated probably are 
kind-of year-to-date or during a period of time we have had the 
pandemic. They are lower today. In fact, I would say there is 
probably about 90 employees, I think, today that are positive 
with the COVID-19----
    Miss Rice. Sorry to interrupt you, but I have only 5 
minutes. I just wanted to ask if you could--yes or no, would 
you agree to open up an investigation into those allegations?
    Mr. Hininger. Well, we don't have to wait until 
investigation. I mean, we are looking at these in real time. 
Now, ICE, as you know, has staff actually on-site that is 
working with us.
    So if it is appropriate or we need to make a change or a 
tweak or enhance our processes, we are doing that in real time 
and not waiting for an investigation.
    Miss Rice. So one of the first pieces of guidance that was 
issued by the CDC was if you feel sick, stay home. They say 
that to every single American. If you feel sick, stay home.
    So I just want to ask all 4 witnesses, yes or no--yes or no 
because I have very limited time--will each of you commit here 
today that you will let your staff stay home if they are 
experiencing symptoms, if they are not feeling well? If all of 
you could just answer yes or no.
    Mr. Zoley. Yes.
    Mr. Hininger. Yes, we did that weeks ago.
    Mr. Marquardt. Yes.
    Mr. Cooper. Yes.
    Miss Rice. Thank you. We know that ICE detainees are still 
being transferred between detention facilities around the 
country, which is inevitably contributing to the spread of this 
virus. Have any of your--again, yes or no--have any of your 
companies ever requested that ICE halt transfers to your 
facilities due to safety concerns?
    Mr. Hininger. No.
    Miss Rice. Everyone else?
    Mr. Marquardt. For MTC, we are in constant communication on 
safety concerns of inmates being transported. We have a dialog 
back and forth. If we get somebody with a temperature or 
anything, we immediately stop the transfer and we are regularly 
in dialog about that issue.
    Miss Rice. So if you get someone who actually appears to be 
having symptoms, you immediately put them in isolation once 
they come to you? You don't refuse them--to take them from ICE?
    Mr. Marquardt. Well, if they show up on the bus, they are 
held at intake isolated until we get on the phone with ICE and 
determine the proper course of action, whether they need to go 
to the hospital, they need to go back somewhere else, or what 
the--what is going to happen. That happens on a regular basis, 
not--so, yes, we are constantly in communication about this 
subject.
    Mr. Hininger. Yes. At CoreCivic--I mean, it is consistent 
probably with the other operators--we have medical staff going 
out to the bus and actually doing screening on the bus before 
they walk into a facility and determine if they are, you know, 
showing symptoms or have a higher temperature, I should say, 
then we are isolating as appropriate for additional medical 
direction.
    Mr. Zoley. We do the same.
    Miss Rice. Anyone else?
    Mr. Cooper. Same. LaSalle does the same as what was just 
mentioned.
    Miss Rice. I know other Members, other of my colleagues are 
going to be asking about testing, because we know that that 
is--without testing, we are never going to be able to get this 
issue under control.
    So, I guess, you know, yes or no, are you being left to 
acquire the testing? I know one of the witnesses said something 
about getting 45 Abbott machines soon. But are you responsible 
for getting your own testing, or are you getting that from DHS, 
ICE?
    Mr. Zoley. We are generally--this is George Zoley with the 
GEO Group. We are generally responsible ourselves for getting 
the test equipment.
    Miss Rice. Are you having difficulty doing that?
    Mr. Zoley. In the early stages, absolutely. To a lesser 
extent to date. ICE did provide us 2 Abbott machines at 2 
facilities about a month ago, but more recently this--in the 
last few days we have been able to contact the Abbott 
corporation and get confirmation of receiving 45 machines in 
September, which we are very pleased.
    Mr. Marquardt. We have been responsible for getting our own 
tests. We have been able to keep up with the requirements of 
CDC and ICE from the beginning, although those requirements 
have changed, and in the beginning that we weren't required to 
use as many tests as we are today.
    So today we are getting an adequate supply of tests, but we 
have been notified by suppliers that looking forward that could 
change. The testing supplies are being deplenished right now 
because of the outbreak in so many States across the country.
    So we are actively searching for back-up supplies of tests 
right now, so we are fine today but concerned about supplies 
going forward, particularly if the expectation for higher 
levels of testing become the guidance.
    Miss Rice. OK. Thank you, all. I want to thank you for your 
testimony here today. I now recognize the Ranking Member, the 
gentleman from Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Mr. Zoley, if you could respond to this question, sir. I 
understand you have no role in setting or enforcing immigration 
policy, but according to our research, groups have targeted 
your company specifically because you provide contracted 
services to ICE. It is my understanding that some of your 
facilities have been subject to some sort of vandalism and 
attack. Can you tell us a little bit about that, please?
    Mr. Zoley. Yes. We have had facilities in Colorado, 
Washington, and California that have undergone not only large-
scale protest demonstrations but destruction of property. We 
have had shootings in Tacoma, Washington, and our regional 
office in Texas. It is just unbelievable the level of----
    Mr. Higgins. Have you--and thank you for your response. In 
the interest of time, have you responded with enhanced 
security? Have you felt the need to respond with enhanced 
security at your facilities?
    Mr. Zoley. Yes. We have spent millions of dollars in 
additional fencing, better coordination with local law 
enforcement, and our host communities, and we think we have a 
better situation now than we did----
    Mr. Higgins. So----
    Mr. Zoley [continuing]. Before.
    Mr. Higgins. Excellent. Would you feel that you could say 
that your facilities were targeted because you do contract work 
for ICE? Because that doesn't appear to be happening at other 
facilities that do not have a relationship with ICE.
    Mr. Zoley. It would seem to be so, and it is unfortunate 
because we think our facilities are very new, excellent 
physical plant facilities with air-condition and all the 
amenities described under the Obama administration. We are 
doing the same things we have done for years, and we don't 
understand the need for these protests.
    Mr. Higgins. Well, thank you, sir. These are difficult 
times. It is a passionate consideration in our country and 
folks get emotional, but we must maintain law and order. So I 
encourage you to pursue that in a compassionate manner.
    Mr. Marquardt, you described your systems as being--in my 
opinion, I would summarize it as saying that you have a very 
proactive response to COVID-19. You mentioned some procedures 
that have been put in place that are very impressive, in my 
opinion.
    What would you say your percentage is of COVID-19 tests? 
And I do not have a copy of your written testimony in front of 
me, and I did not hear you mention that. What percentage of 
your population is tested according to your guidance?
    Mr. Marquardt. We are following the guidance of CDC and 
ICE, so anybody who exhibits symptoms would be tested. In New 
Mexico, the State of New Mexico and this Congressional 
delegation, Representative Torres Small, the Governor, and 
others on the delegation have been very interested in this 
topic.
    Cooperatively they have helped us enhance our supply of 
tests, and we are testing every--we have tested every single 
detainee in the facility and continue to test every detainee 
that comes into the facility.
    Mr. Higgins. So you are testing 100 percent of your 
detainees?
    Mr. Marquardt. At that facility.
    Mr. Higgins. At that facility.
    Mr. Marquardt. Yes.
    Mr. Higgins. Do you know of any business or governmental 
entity that is testing 100 percent of their population and 
their staff?
    I don't know of any.
    Mr. Marquardt. I can't give you one, but I imagine there 
are. Well, I mean, in terms of a regular business, no. I am 
sure----
    Mr. Higgins. An incarceration facility.
    Mr. Marquardt. It is widely being discussed as a possible 
solution for the future. There is a lot of discussion about it. 
I don't think it is happening too many times. In terms of the 
availability of tests, it is probably not practical right now. 
One of the problems with testing is----
    Mr. Higgins. Well, that is one of our endeavors, good sir.
    Again in the interest of time, it is for this subcommittee 
to help to make it practical because it is what we seek across 
the aisle. We have a great deal of agreement that increased and 
enhanced testing should become the norm.
    We shouldn't be talking about testing, you know, 5, 10, 20 
percent of our incarcerated children of God. We should be 
pushing to get to 100 percent. I encourage you gentlemen all to 
work with Congress and your contracts to make that happen.
    Mr. Zoley, my final question--and I am not sure how much 
time I have left--you have been providing services to Federal 
and State and local agencies for more than 30 years. During 
that time, as a partner to Federal agencies under Democrat and 
Republican administrations, if your services were not available 
to Federal agencies as you serve, what would be the result 
absent a change in immigration law? What if your services were 
gone? Tell us the impact.
    Mr. Zoley. If the private sector was not playing the role 
it is playing today, the Federal Government would have to hire 
thousands of new employees and spend several billions of 
dollars building new facilities which would take many, many 
years to accomplish if they were to do so.
    Mr. Higgins. I appreciate that summary.
    Madam Chair, it has been mentioned to me that perhaps we 
will have a second round. I do have additional questions, but 
in respect to the time of my colleagues, I yield.
    Miss Rice. Thank you, Mr. Higgins. If we do have time, we 
will be doing a second round.
    I now recognize the Chairman of the full committee, the 
gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairman.
    For our witnesses, I really appreciate your companies 
providing the committee with the documents that we have 
requested.
    Can each of you tell us how many employees who have tested 
positive for COVID-19 to date?
    Mr. Hininger, Mr. Zoley, Mr. Marquardt, and, Mr. Cooper.
    Mr. Hininger. For CoreCivic, we have about 14,000 
employees, of which about 500 employees have tested positive.
    Miss Rice. If I could just interrupt for 1 second. We are 
having an issue with the live feed, so we are going to take a 
very short recess.
    Please, everyone, just stay where you are, if you can, so 
we can get the technical issue addressed. Thank you very much.
    [Recess.]
    Miss Rice. The committee will reconvene.
    The Chair recognizes the gentleman from Mississippi, Mr. 
Thompson, to continue his questioning.
    Mr. Thompson. Thank you very much, Madam Chairlady.
    Mr. Hininger had responded to my question, and I was going 
to Mr. Zoley.
    Mr. Zoley. I honestly forgot the question, Mr. Chairman.
    Mr. Thompson. OK. We were talking about the number of 
employees that you had impacted by COVID-19.
    Mr. Zoley. Sure. We have approximately 3,700 employees at 
ICE facilities. We have tested 991: 167 were positive, but 69 
have recovered. Eight hundred sixty-four were negative. There 
is only 1 GEO staff member in the hospital at this time. There 
have been zero COVID-19 deaths among staff.
    All staff receive wellness training daily upon arrival into 
the facility. Any staff not cleared are denied entry into the 
facility and are sent home and advised to be tested by their 
physician.
    Mr. Thompson. Thank you very much.
    Mr. Marquardt.
    Mr. Marquardt. We have 1,200 employees at the detention 
facilities that we operate, and 73 of them have tested 
positive.
    Mr. Thompson. Mr. Cooper.
    Mr. Cooper. Yes, sir. We have just over 3,000 employees. 
Cumulative number of staff testing positive was 144.
    Mr. Thompson. Thank you very much.
    Did this--we will go back around again for the question. 
Did this testing positive impact your ability to staff the 
facility or do you have a plan in place to manage COVID-19-
related shortages?
    Mr. Zoley. This is George Zoley at The GEO Group.
    That situation has not impacted our ability to have 
adequate staffing primarily because we are at 50 percent 
occupancy or less. So the staffing that is necessary is 
substantially less.
    Mr. Thompson. Thank you.
    Mr. Hininger.
    Mr. Hininger. Yes, sir. It is a very similar answer. Our 
occupancy in our ICE facilities is kind-of in the range of 50 
to 75 percent occupancy. So that has affected staffing in a 
positive way.
    Additionally, we have got a lot of our facilities in close 
proximity with other facilities that house ICE detainees. That 
gives us the flexibility to move staff between facilities also.
    Mr. Thompson. Mr. Marquardt.
    Mr. Marquardt. Similarly, we have not had a problem 
staffing our facilities.
    Mr. Thompson. Mr. Cooper.
    Mr. Cooper. I would say this, as the others, we have 
facilities that are close enough that we can pull staff, if 
needed, from other facilities.
    Mr. Thompson. OK. Well, the fact that you have a population 
that you are managing that is highly potentially contagious, 
how do you determine which employees get tested?
    Mr. Hininger first.
    Mr. Hininger. Yes, sir. So we do testing every day, at 
every shift, I should say, for every employee that comes into 
the institution, both a temperature check and then also a 
symptom check. If an employee is not cleared when they enter 
the facility, then they are asked to be sent home. They are 
told that, you know, no worries about their job or their 
salaries or benefits, you know: Stay home. It does appear that 
potentially you have symptoms for COVID.
    Typically, within a day or two, they get tested. If they 
are positive, then obviously they follow the guidance of the 
CDC, which is 14 days of being self-isolated at home, and, 
again, no adverse impact to their employment or salary and 
benefits. We have made that clear to our employees.
    Mr. Thompson. Mr. Zoley.
    Mr. Zoley. My response is similar, Mr. Chairman, with the 
exception that we have at 9 facilities done saturation testing. 
That is testing all detainees, all staff, and we are asking for 
permission from ICE to do the same at our other facilities.
    Mr. Thompson. Thank you.
    Mr. Marquardt.
    Mr. Marquardt. We do similar screening of all employees 
entering the facility, temperature check, asking if they have 
traveled anywhere or had symptoms, the same questions.
    In terms of a COVID-19 test, tests would be available to 
employees who exhibit symptoms, who have had exposure to 
someone with COVID-19. The availability of tests for employees 
in the community varies greatly by communities. But in many 
communities, it has been fairly easy to anybody that is nervous 
at all, doesn't really have to have a reason, can just go into 
a clinic or setup in parking lots, or wherever they are, and 
get tested.
    So there has been good availability, and we are following 
the guidelines of ICE and CDC in testing.
    Mr. Thompson. OK. Well, yes, I understand that. But I am 
talking about for your employees who come to work, do you have 
a specific protocol for them?
    Mr. Marquardt. Yes.
    Mr. Thompson. Not out in the community but----
    Mr. Marquardt. Yes, yes. We do the same screening. So they 
would be screened at the entrance to the facility. They could 
not enter the facility until they tested--or had a temperature 
check. If they are 100.4 or above, they cannot enter the 
facility. We go through a variety of screening questions every 
time they come into the facility to check that.
    Mr. Thompson. Mr. Cooper.
    Mr. Cooper. Yes, sir.
    Mr. Thompson. I beg your pardon?
    Mr. Cooper. Can you hear me now?
    Mr. Thompson. I have got you now.
    Mr. Cooper. OK. It shows me still being muted. I don't know 
why.
    Yes, sir, we do the same sort of screening with every 
employee that comes in and make sure they are not allowed in if 
they don't pass that screening. We have done employee 
saturation testing at one facility, but that was just last 
week, and we don't have all of those results back.
    Mr. Thompson. Thank you very much.
    I yield back, Madam Chair.
    Miss Rice. Thank you, Mr. Chairman.
    I now recognize the Ranking Member of the whole committee, 
the gentleman from Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Madam Chairman.
    Can you hear me?
    Mr. Zoley, we all recall the tremendous challenges of 
organizations that our country and around the world were facing 
due to shortages of personal protective equipment back in March 
and April. In fact, many organizations are still facing those 
same challenges. But I understand that you were able to deploy 
PPE to all staff and detainees at your ICE facilities very 
early in this pandemic.
    Can you share with us how you as a private-sector company 
were able to work with your suppliers to ensure enough PPE for 
all of your detainees and employees early in the pandemic?
    Mr. Zoley. I think it is primarily because we are 
potentially a large-scale user, so we were able to place very 
large orders of hundreds of thousands of masks and gloves to 
vendors who wanted our business, frankly, and they gave it to 
us, I guess, before they gave it to somebody else.
    Mr. Rogers. Yes, I have heard reports of that around the 
country.
    Mr. Marquardt, we are constantly learning new information 
and abiding by updated guidelines, guidance throughout this 
pandemic. When new guidance is issued or a problem arises at 
one of your facilities, what process or procedures do you have 
in place to address or resolve those new guidances or new 
problems?
    Mr. Marquardt. In terms of COVID procedures?
    Mr. Rogers. Yes.
    Mr. Marquardt. Well, it is a weekly, if not daily, 
occurrence that new information has been coming out, and we 
change procedures accordingly. We have an incident command 
structure similar to what Mr. Hininger explained is going on at 
CoreCivic. But in early March, we implemented the incident 
command system at all of our facilities and as a corporation, 
and so it is on a daily basis we are making sure that supplies 
are available to all of our facilities, that there is a command 
structure in place for any issues that come up, that we have a 
plan, an action plan for what needs to be accomplished that day 
or that week. So that is how we monitor supplies.
    We have a medical director that is monitoring CDC every day 
on what new guidance comes out, and through our incident 
command system, we relay that to all of our facilities and, you 
know, they have done a phenomenal job in reacting. You know, we 
haven't really had any problem with staff or detainees in terms 
of--I mean, this is an inconvenience to everybody. But 
everybody, through education and training, we have explained 
the importance and how critical this is, and people pitch in 
and go the extra mile to do whatever we ask and whatever CDC 
guides us to do.
    Mr. Rogers. Great.
    This would be for each panelist. I have heard the word 
overcrowded used or misused as it relates to ICE facilities 
during the pandemic. But it is my understanding that all ICE-
dedicated facilities have been operating at 70 percent or less.
    Could each of you address the issue of capacity at your 
facilities and share how your facilities are abiding by CDC 
guidance based on that capacity?
    I will start with Mr. Zoley.
    Mr. Zoley. Yes. As I said previously, Representative, our 
facilities are less than 50 percent capacity. So that permits 
us to have improved social distancing in dormitory-style 
housing, as well as cell-room-style housing, as well as rooms 
for occupancy of 4 or 8 individuals. We can split that--all of 
those things into half and separate people into alternating 
bunks, alternating rooms, and alternating housing units. So it 
has worked very well.
    Mr. Rogers. Mr. Hininger.
    Mr. Hininger. Yes, sir. So we have about, in round numbers, 
about 17,000 beds that we have available to ICE on any given 
day, but typically operational occupancy is anywhere from kind-
of 9,000 to 11,000 historically, but today we are under 6,000. 
So, yes, we are pretty close to about 50 percent occupancy. So 
that is obviously pretty consistent with CDC guidelines 
relative to lowering occupancy and density and allow us greater 
flexibility not only for staffing but also for detainees for 
social distancing.
    Mr. Rogers. OK. Mr. Marquardt.
    Mr. Marquardt. Before the pandemic began, there was already 
a very rapid decline in ICE populations under way, and that has 
continued every month of this year. So our populations are 
right now at 34 percent of occupancy or full occupancy. So we 
have quite a bit of room for social distancing, for cohorting, 
for isolating individuals or groups of people that come in on 
different days on different buses. So we really have not had a 
problem with that. ICE has taken pretty much all of the high-
risk detainees out of the population. So today any detainee 
over 55 years of age or that has any chronic condition will not 
come into one of our facilities. So all of these things have 
added to help us in dealing with the pandemic.
    Mr. Rogers. Thank you. My time has expired.
    I yield back, Madam Chairman.
    Miss Rice. Thank you, Mr. Rogers.
    I now recognize the gentleman from New Jersey, Mr. Payne.
    Is Mr. Payne on?
    OK. I now recognize----
    Mr. Payne. Hello. I am here.
    Miss Rice. He is. Thank you.
    Mr. Payne. Thank you.
    Madam Chair, I appreciate the opportunity to speak today on 
what I feel is a very timely topic for the committee to 
explore.
    Let me say, even before the pandemic, detainees had 
reported troubling instances, abuse of force, solitary 
confinement, and punishment in retaliation for speaking out 
about poor conditions of confinement in at least one of your 
detention facilities.
    Since COVID-19 pandemic reports such retaliatory action 
wrong more frequent, including at least 12 instances of use of 
tear gas, pepper spray, rubber bullets, and SWAT-like units, 
are your contract guards carrying pepper spray and tear gas?
    I would like you each to respond, please.
    Mr. Marquardt. I will respond for MTC.
    I am not aware of the incidents that you are talking about. 
Our detention officers do not carry pepper spray. We have it 
on-site; if there were an incident, that we are prepared to 
handle it, but we have not discharged it and have not had that 
problem. I mean, I regularly visit the detention facilities. I 
talk to detainees, hundreds of them, and I always ask, you 
know, how are you doing? You know, I ask about their stories, 
how they have been treated, the food, the medical care. You 
know, generally it is a very positive story and they are 
appreciative. I mean, we treat them with respect and dignity, 
and they are very appreciative of that.
    Mr. Payne. Can I----
    Mr. Marquardt. Go ahead.
    Mr. Payne. Thank you for that answer, but I have a few more 
to get to.
    Next, please.
    Mr. Hininger. Damon Hininger.
    So, no, pepper spray [inaudible] is not carried on the 
individual. But I think it is pertinent to note that we follow 
ICE detention standards. So it governs what our employees are 
able to carry while they are working at institutions. Then 
second is ICE has staff on-site full time that are inspecting 
operations in real time.
    Mr. Payne. Thank you.
    Mr. Zoley. This is Mr. Zoley from The GEO Group.
    My answer is similar to Damon's, and that is our staff 
individually do not carry pepper spray. It is available in that 
sense in a special location, but it is only done so with 
approval of ICE who is on-site.
    Mr. Payne. Thank you.
    Next.
    Mr. Cooper. This is Rodney Cooper with LaSalle.
    My answer would be much like Mr. Hininger's. We do have it 
available if needed, but we do follow all of ICE's standards in 
regard to the use of any chemical agents.
    Mr. Payne. OK. Thank you.
    Are you aware that, according to medical experts, 
irritants, such as the pepper spray, can induce coughing and 
increase a person's chance of catching a respiratory illness 
such as COVID-19?
    Does anybody want to respond?
    Mr. Zoley. Well, not to--this is George Zoley from The GEO 
Group.
    I know we go through special health care protocols when 
pepper spray has been used. Everybody is taken into the health 
care unit for examination, if necessary. So we know that it may 
cause some kind of illness or some side effects, and, 
therefore, we do proactively engage the [inaudible] use of 
pepper spray to medical and get a thorough screening; but I 
wasn't aware it could have an effect on COVID.
    Mr. Payne. OK. Well, let me ask something, another--so no 
one is aware of any time when rubber bullets or pepper spray or 
tear gas have been used by officers at your facilities against 
detainees since the COVID-19 pandemic began?
    Are you all categorically denying it?
    Mr. Marquardt. MTC has not used any of those devices since 
the pandemic began, no.
    Mr. Payne. OK. Thank you.
    Mr. Hininger. Same thing for CoreCivic, absolutely not.
    Mr. Payne. Thank you.
    Mr. Zoley. This is George Zoley from The GEO Group. We had 
an incident at our Adelanto, California, facility where 
chemical agents were used.
    Mr. Payne. OK. All right.
    Is there one more gentleman? Did I get everyone?
    Mr. Cooper. Rodney Cooper with LaSalle.
    I am not aware of any use of chemical agents since COVID-
19.
    Mr. Payne. OK. All right. Well, I am glad one gentleman 
acknowledged that there was an issue. I know I wasn't crazy or 
just making it up, but--OK. Detainees at--oh, it was Torrance 
County facility in New Mexico--were on days' long hunger strike 
to protest the horrible food and their vulnerability to COVID-
19 when guards reportedly corralled the protesting detainees 
and then proceeded to pepper spray them. There are similar 
accounts from facilities across the United States.
    You know, let me just say that there has been a difficult 
issue with the definition of detainees. They are not convicts. 
They are being detained. I think what happens is the lines get 
blurred, you know, to one person being a convicted criminal as 
a detainee. I would hope that all of you can clarify to your 
staffs the difference between the two and act accordingly 
because I don't think people are just making these things up. 
Something is happening. Maybe at times it gets blown out of 
proportion or, by the time it gets through the fifth person, it 
is exaggerated maybe, or maybe not. Maybe these things are 
happening. I would really suggest to you that you keep a strong 
oversight on these issues because, if and when we find out 
otherwise, there are going to be repercussions that I don't 
think any of you would like to see or appreciate.
    With that, Madam Chair, I yield back.
    Miss Rice. Thank you, Mr. Payne.
    I now recognize the gentlelady from Arizona, Mrs. Lesko.
    Mrs. Lesko. Thank you, Madam Chairman.
    And I want to thank all of the CEOs that have come to 
testify today. We are all in this together, and it has been 
difficult. It has been a difficult for not only, I am sure, 
your companies, but for hospitals, for nursing homes, for all 
of us. So I can see the sincerity in your voice when you say 
that you are doing everything that you can to protect your 
employees and the detainees, and so thank you.
    I do want to ask a question or give an opportunity to Mr. 
Hininger, who is with Core, and I went down to the Eloy 
facility--I don't know, this was a while ago, it was pre-
COVID--and I thought it was run well. But in the news recently, 
you have been--that facility in Eloy, Arizona, has been in the 
news recently and has been brought up by the Chairwoman. They 
said these are the allegations--and I am sure you are aware of 
them, but basically it said that there is a shortage--well, 
that masks and gloves are rationed. There is a shortage of 
staff, and detainees are saying they only have like an hour out 
of 24 hours that they are out of their cell or room. As has 
been said before, 127 of 300 employees tested positive. ICE 
reported 242 immigrants held in Eloy tested positive since the 
beginning of the pandemic.
    So, Mr. Hininger, I just want to give you an opportunity to 
respond because I know that media is not always accurate, and 
sometimes they are biased. So if you would like to respond.
    Mr. Hininger. Congresswoman, thank you very much, and thank 
you again for your recent visit to Eloy. We are very proud of 
that operation, along with all of our operations around the 
country.
    So, yes, a little bit to your points there, the Eloy 
facility does have an adequate supply. I know that you 
mentioned the masks. We have, as of last week, 152,000 masks 
Nation-wide within our facilities, and so we have got plenty of 
masks in inventory. But also we have the flexibility, if we 
have a little bit of a higher usage at one facility, then we 
can, through our central purchasing program, we can relocate 
masks to other facilities if there is higher utilization versus 
lower utilization. So adequate supply is there.
    You noted also the staff there at Eloy. So we did have 
almost about half of our staff, over the period of time of the 
pandemic, test positive for COVID-19, but that was just in a 
point in time, not at one point in time where all of those 
staff were positive. So, as of last week, we had about less 
than a hundred that were positive, and we are going through the 
appropriate protocols to self-isolate.
    But also, to your point about staffing, it was mentioned 
earlier about occupancy. So, again, Nation-wide we are about 50 
percent occupancy, and what that does, it gives us flexibility 
on staffing because if you are staffed for more like 90, 95 
percent, then you are overstaffed obviously based on occupancy. 
As you know, Congresswoman, we have got another ICE facility 
there in Eloy just down the street that has an ICE contract. So 
we were able to move staff between facilities if we did have a 
fair amount of staff at Eloy that again were self-isolating 
because they were found positive through a test, so, again, 
very comfortable with the staffing levels and to be able to 
kind-of change our staffing as appropriate between those 
facilities if we did have a higher case.
    I guess the final point I would make relative to the cases, 
as you know, in Arizona, there has been a little bit of an 
uptick in positive cases within the State itself, and I would 
say, reflective of our staff, I think we are pretty consistent 
with what we are seeing in the general community.
    Mrs. Lesko. Thank you.
    I have another question for all very quickly. Who is 
required to wear the masks in your facilities? Is it just 
employees, or is it employees and detainees?
    Mr. Hininger. Yes, ma'am. So this is Damon Hininger again.
    So it would be our company policy--and, obviously, we are 
following CDC guidance, along with ICE detention standards--
that all employees are required to wear masks, and it is 
recommended to detainees.
    Mr. Marquardt. For MCT, all employees are required to wear 
masks, as our detainees.
    Mr. Zoley. Same answer for The GEO Group.
    Mr. Cooper. The same for LaSalle.
    Mrs. Lesko. Thank you.
    Madam Chairman, I yield back.
    Miss Rice. Thank you, Mrs. Lesko.
    I now recognize the gentleman from California, Mr. Correa.
    Mr. Correa. Thank you, Madam Chair. Can you hear me?
    First, I want to thank you, Madam Chair, and our Ranking 
Member for holding this most important hearing, and I also want 
to take a moment to thank our witnesses today for taking time 
and interest in being with us here on these very important 
policy issues.
    A question for all four of you. Mr. Marquardt, you 
mentioned that you had rapid decline in population before 
COVID-19. Is that correct? What was the reason for that?
    Mr. Marquardt. You all probably know much more about that 
than I do, but, you know, there is a seasonal difference 
usually in detention facilities. You know, in the winter, 
Christmastime, the border crossings tend to go down. There has 
been----
    Mr. Correa. So it is seasonal?
    Mr. Marquardt. I don't think that is the entire reason. I 
think there is a number of factors: Asylum hearing changes----
    Mr. Correa. Thank you.
    Same question for the other witnesses.
    I only have 5 minutes, my apologies.
    Mr. Marquardt. All right.
    Mr. Correa. Gentlemen?
    Mr. Zoley. Similar answer by The GEO Group.
    Mr. Correa. OK.
    Mr. Hininger. Yes, sir, a similar answer for CoreCivic, 
too. We did see a change in the winter going into the spring 
months.
    Mr. Correa. Thank you.
    Mr. Cooper. The same for LaSalle.
    Mr. Correa. Thank you very much.
    There has been some reports that some of the detainees have 
been asked to disinfect their own cells and that they have been 
doing so without disinfectants. First of all, can the 4 of you 
answer the question: Is that the case? Do the detainees--are 
they asked to clean their own cells, disinfect their own cells, 
and are they given proper equipment and disinfectants to do so?
    Mr. Marquardt. For MTC, all employees and all of the 
detainees are part of the hygiene and sanitation process. So 
everybody has a role to play in that, cleaning their own areas, 
and it is a group effort. We have been very careful to have 
adequate supplies of disinfectant and cleaning materials and 
have not had any shortages of that.
    Mr. Correa. Same question for the other witnesses, please.
    Mr. Hininger. Yes, sir. It is Damon Hininger.
    So, yes, we do request that detainees clean up their 
general housing area, which would be their bunk and their desk 
and general area of where they reside. There is adequate 
cleaning supplies. Those supplies do not require any protective 
equipment. So they are very well-known cleaners that you 
typically see in a setting like this or health care or other 
social setting.
    Mr. Correa. So you provide them the proper disinfectants to 
do so?
    Mr. Hininger. Yes, sir.
    Mr. Correa. Would disinfect for COVID-19?
    Mr. Hininger. Yes, sir.
    Mr. Correa. Same questions for the other 2 witnesses, 
please.
    Mr. Zoley. This is George Zoley with The GEO Group.
    Yes, we use ICE-approved disinfectants that are 
continuously available to staff and to residents to clean all 
hard surfaces and the housing areas.
    Mr. Cooper. This is Rodney Cooper with LaSalle.
    I would say that we do the same thing. They are required to 
clean their own cell or area, but they are given appropriate 
equipment and training to do so.
    Mr. Correa. Do you have any kind of supervision to make 
sure that they are doing some kind of an adequate job of 
disinfecting their cells? COVID-19 is very infectious, as you 
know, and our goal, whether it be in the United States or in 
other countries, is to make sure that we minimize the spread of 
COVID-19. A lot of detainees may end up being deported, and we 
don't want to spread this COVID-19 any more than has--you know, 
we want to minimize the spread, I should say.
    Do you do any supervision to make sure that those detainees 
are doing an adequate job of disinfecting their own cells, a 
question for all 4 of you, please?
    Mr. Hininger. Yes, sir. This is Damon Hininger again.
    So, yes, we absolutely have staff there in the actual 
housing areas that are regularly walking not only along the 
cells but frequently going inside the cells to check for 
cleanliness, and that is a practice you do even outside of a 
pandemic like this. Then, like was said, with the cleaning 
supplies, typically those are either in the unit or actually 
right outside the unit, but they are in close proximity. So 
they are always available.
    Then, finally, I would just say that we are doing a lot of 
town hall meetings in the units reinforcing the message about 
hygiene but also cleanliness within the unit and their housing 
areas and continue to kind-of reinforce that education.
    Mr. Zoley. This is George Zoley with The GEO Group.
    Yes, we have maintenance supervisors that assist in 
supervising detainees in carrying out their housekeeping 
responsibilities. Additionally, we have monitors in every 
housing unit that continuously display good housekeeping 
practices regarding sanitation, washing of hands, and taking 
health care precautions.
    Mr. Marquardt. Yes, hygiene and sanitation could not be a 
higher priority for us. It is critical, and it is, again, every 
person's job to do that. Every detention officer is trained on 
their expectations of managing housing units to assure that is 
happening. Supervisory staff have roles to come in and do 
audits and inspections, and the facility administrator is on 
top of that as well. So, I mean, everybody is very focused on 
it. It is not an issue that we are fighting people over. They 
understand how critical this is, and it is a group effort. 
Everybody is pitching in.
    Mr. Cooper. This is Rodney Cooper.
    I hate to sound like a broken record, but I would agree. I 
would also say that COVID or no COVID, if an inmate doesn't 
clean their housing area and our staff notice it, then they are 
going to move them out of that area to clean the area and go 
back in behind it and clean that cell up.
    Mr. Correa. Thank you very much, gentlemen.
    Madam Chair, I am out of time, so I yield. Thank you very 
much.
    Miss Rice. Thank you, Mr. Correa.
    I just want to direct a question to Mr. Hininger. Earlier 
Mr. Payne referenced a use-of-force incident at the Torrance 
Detention Center. You claimed that there have been no use of 
pepper spray agents or rubber bullets at any of your facilities 
since the COVID outbreak. In public reporting, however, even 
CoreCivic's spokesperson acknowledged that pepper spray was 
used.
    Would you like to address the statement of that 
spokesperson and amend your earlier statement?
    Mr. Hininger. Yes, Chairwoman. I am very sorry. I 
understood the question was relative to ICE detainees relative 
to the COVID-19 and not compliant with COVID-19. I apologize. 
Yes, we did have a use of pepper spray at the Torrance County 
facility that was referenced earlier.
    Miss Rice. Thank you, sir.
    I now recognize the gentleman from Pennsylvania, Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chairwoman.
    I would like to thank all of the witnesses for appearing 
today and additionally to thank all Members of ICE and CBP for 
their continued work and service to our Nation in this 
unprecedented time that we have faced since COVID-19.
    Mr. Marquardt, briefly, what I have been hearing is that 
there have been a lot of changing protocols, changing 
guidelines as we have learned more about this novel 
coronavirus. Can you please give us a quick overview of how 
your company specifically has been able to implement these new 
protocols and new guidelines?
    Mr. Marquardt. Well, yes. They are not anything 
complicated. I mean, PPE is a good example. At the beginning of 
this pandemic, there was limited supplies, and the guidance 
was, you know, PPE should be reserved for those in medical 
fields. The Surgeon General in late February said people other 
than the medical workers should not be using it. So, I mean, we 
weren't at that point. Then that changed in March pretty 
quickly, and we had to quickly up--I mean, we already had 
supplies on hand. So we were never without it, but we had to 
make a--you know, we didn't have supplies for every staff and 
every detainee to wear it. We quickly mobilized. We increased 
our orders.
    A number of our correctional facilities started projects 
with offenders to make masks. We have made tens of thousands of 
cloth masks, which are primarily what the employees who are not 
dealing with COVID-positive detainees are wearing, and so we 
have made tens of thousands of cloth masks and used them for 
our own use, as well as distribute them in the community 
through community service projects.
    Testing procedures have changed dramatically from start to 
finish. I mean, every component of this, you know, we learn 
along the way and have changed hygiene recommendations, PPE 
recommendations, testing recommendations. More is learned, you 
know, when somebody needs to be transported to a hospital, I 
mean, every component of this. So, as I said earlier, we have a 
medical director on our corporate staff who was monitoring this 
and helping us give directions to each of our facilities about 
what changes they need to make on a regular basis.
    Mr. Joyce. I mean, I congratulate you on your adaptability. 
As more testing has become available, have your protocols 
specifically changed on which detainees are tested?
    Mr. Marquardt. Well, I mean, we are really relying on the 
guidance of CDC and ICE more than coming up with our own 
protocols. I mean, we may make certain adaptations just in 
terms of the layout of the facility and how we have to 
implement a specific recommendation, but we are not coming up 
with different recommendations than what CDC and ICE are 
telling us to do. We work with local and State health 
departments. As I said earlier, the State of New Mexico has 
been very interested in this topic, and we have worked 
cooperatively with them and made a number of changes in how we 
are doing these things, which, you know, have been great 
suggestions and very welcome.
    Mr. Joyce. I think that you following local, State, and CDC 
recommendations are imperative. I think that is definitely what 
is necessary.
    Now, you mentioned about your ingenuity in making face 
masks. What are the requirements for wearing face masks?
    Mr. Marquardt. You mean who has to wear them?
    Mr. Joyce. Exactly.
    Mr. Marquardt. Everybody does. All employees who are 
working in the facility and all detainees have to wear a face 
mask at all times. Detainees do not have to wear a face mask 
when they are eating. They do not have to wear a face mask when 
they are sleeping. But other than that, you know, any movement 
around the facility, they have to have a face mask on, and our 
employees do as well, and we are actively enforcing that.
    Mr. Joyce. Earlier it was stated that changing behaviors is 
essential for safety. So, really quickly, as my time is 
expiring, what are the consequences if employees or detainees 
do not follow your protocols?
    Mr. Marquardt. Well, we have a progressive discipline 
process for employees which we could implement if we needed to. 
But as I said, this really hasn't been a disciplinary 
situation. Everybody is very concerned about that. They welcome 
the information that we are giving them, and they are--it just 
hasn't been a problem getting people to buy into this. So it 
hasn't been a problem. We haven't been disciplining many people 
at all.
    Mr. Joyce. Thank you for your concise answers.
    Madam Chair, I yield the remainder of my time.
    Miss Rice. Thank you, Mr. Joyce.
    I now recognize the gentlelady from the State of New 
Mexico, Ms. Torres Small.
    Ms. Torres Small. Thank you, Madam Chairwoman, and thank 
you also, Ranking Member.
    Mr. Marquardt, according to ICE, as of July 10, in the 
Otero County Processing Center in the district I serve, there 
have been 142 positive cases, which makes the facility within 
the fifth highest number of cases in the country.
    Briefly, because I have several questions I want to ask, 
can you please list the top 3 reasons why Otero has seen nearly 
150 cases of COVID-19?
    Mr. Marquardt. Well, Otero currently has--the Otero 
Processing Center currently has 2 positive cases. So, I mean, 
there has--that number is true in the past, but it is not true 
today. So we have brought down the number significantly. But to 
answer your question why----
    Ms. Torres Small. Just to clarify on that point, it is 
because you have released detainees, correct?
    Mr. Marquardt. Well, more of the reason is, you know, they 
did a mass test in the facility, and the vast majority of the 
people that tested positive were asymptomatic, and so there was 
a large number that came on as a result of the testing. That is 
not the only reason, but it is the biggest reason. So, just 
through the normal course of the infection, it takes, you know, 
2, 3 weeks sometimes until a person is symptom-free and would 
test negative. Here we are at that facility, we have tested 
everybody, as you know.
    Ms. Torres Small. Right.
    Mr. Marquardt. So we are through the testing and lack of 
symptoms, just through the normal course of the progression of 
the disease, the infection, we are down to 2 right now.
    Ms. Torres Small. I understand that, and I think I will 
actually move on from this question, as there are others I want 
to get to. But I do just want to note that 142 cases, 
regardless of whether they are symptomatic or not, caused 
concerns for me both within the detention facility and also in 
the community that I serve surrounding it, since you have got 
staff who are working there and, asymptomatic or not, provides 
a potential for, as we have seen, an increase in the spread of 
COVID-19.
    I just want to move on quickly to your contract with Otero 
County and ICE. I really appreciate the questions from Ranking 
Member Rogers surrounding the capacity and ability to social 
distance to reduce the spread of COVID-19, and I wanted to 
follow up on that conversation.
    Mr. Marquardt, on March 31 of this year, MTC sent a letter 
to Otero County issuing a notice of termination with respect to 
the Otero County Processing Center. MTC cited the reason of 
termination to ``the significant decrease in the detainee 
population.''
    ``MTC also noted it had hoped ICE would keep the facility 
full and remain hopeful that the detainee population will 
increase.''
    So it is my understanding that MTC is currently negotiating 
a contract modification to continue operating the facility. So, 
based on that letter, it seems like MTC's profits depend on a 
high detainee population. Is that correct?
    Mr. Marquardt. The issues at the Otero Processing Center 
were that the facility was designed for almost 1,100 detainees, 
and we staff inventory for at that level. The actual number of 
detainees in the facility dropped to around 300, so we----
    Ms. Torres Small. So don't the profits depend on the high 
detainee population?
    Mr. Marquardt. The terms of the contract, I guess, would, 
but you know----
    Ms. Torres Small. OK.
    Mr. Marquardt [continuing]. Our greatest priority is the 
safety and health of the detainees. It has nothing to do with 
profits, and we would never make a decision on profits and not 
the safety and health. The county----
    Ms. Torres Small. I appreciate that, Mr. Marquardt. Just 
because my time is short, I want to make sure and continue. So 
I appreciate you answering my question, but your contract is 
determined based on the number of detainees that are in the 
facility. I also appreciate your concern and your statement 
that you would never then seek to have a higher population if 
it would put the risk of detainees or staff operating the 
facility at risk or the health of them at risk.
    So, during a pandemic, would you agree that increasing 
detainee populations to pre-pandemic levels would compromise 
the health of detainees and the staff that would work in 
detention facilities?
    Mr. Marquardt. I think we can gear up at a variety of 
different levels to keep everybody safe, but I would not at all 
deny that the current low levels have been coincidentally, or 
purposely, have been helpful in managing the pandemic because 
we have a lot of room for social distancing and keeping people 
safely apart. So I think that what has happened is not a bad 
thing at all.
    Ms. Torres Small. Would you agree that increasing the 
population to pre-pandemic levels could compromise detainee and 
staff health?
    Mr. Marquardt. Well, I mean, I think it is a more 
complicated question than a yes or no. I mean, there are a 
number of factors in that. We could come up with different 
procedures to maintain distancing at higher levels. So I don't 
think just automatically, because they are higher levels, it 
makes the facility unsafe. But we have to think through every 
one of those elements of making the facility safe and, at 
whatever level, make sure that we can ensure that happens.
    Ms. Torres Small. My time has expired.
    Thank you.
    Mr. Marquardt. Thank you.
    Miss Rice. Thank you, Ms. Torres Small.
    I now recognize the gentleman from Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Madam Chairwoman.
    Gentlemen, I appreciate each of you for appearing before 
the committee today. You perform a very important service for 
our country in a very difficult time with the outbreak of 
COVID-19.
    While I am not able to speak about every facility that each 
of you operate, I am able to speak about one. CoreCivic 
operates the ICE detainee facility in my district in the State 
of Mississippi. Mr. Hininger, I want you to know that the 
administration at that facility has been in regular contact 
with myself and my staff throughout the COVID-19 outbreak. I 
can tell you that, from those conversations, I believe that you 
have taken very aggressive steps to protect the safety of 
detainees and the employees that work there at that facility.
    So, Mr. Hininger, I want to ask you, as it relates to 
CoreCivic, when did your organization begin to monitor the 
pandemic?
    Mr. Hininger. Congressman, thank you for your question.
    So it was really in early February as we were monitoring 
the outside environment, not only internationally but 
nationally, and also getting direction from the CDC. It was 
during that period of time that we started taking proactive 
steps to check on things, not only on protective equipment, but 
supply chain and maybe additional things that we needed to 
tweak relative to our operations to make sure we were prepared 
with ultimately what became the pandemic that we live in today.
    Then it was a little later in the kind-of winter-spring 
months that we activated our Emergency Operations Center that I 
mentioned earlier, and this center is consistent with kind-of 
the protocols that you would see at FEMA and also uses similar 
software. We activated that in early March, and it serves as 
kind-of a clearinghouse to digest information from CDC and ICE 
that we can quickly push out our facilities from a policy and 
process perspective, but also allow for real-time adjustments 
because, as everybody here on the committee knows, adjustments 
have been made and guidance has also changed during that period 
of time. So we want to make sure that we can quickly get that 
information out.
    Then, finally, we also started in early March a COVID-19 
task force, had a leader of the task force that has experience 
in these type of events, and also our chief medical officer, 
along with other operational leaders, and, there again, also 
providing real-time kind-of guidance, advice, and medical 
direction to all of our leadership within our facilities.
    Mr. Guest. As you say, guidelines change from CDC, from 
ICE, from some of your local and State health departments. Have 
you had to be flexible and make changes to the things that you 
were doing at your different facilities?
    Mr. Hininger. Yes, sir, absolutely. So CDC and ICE, again, 
have been kind-of the lead on providing us guidance and 
direction and feedback on our policies and processes. But also 
we are watching closely on what Governors and their public 
health authorities and also city and county leaders are doing, 
too. It has been a little bit of a customized approach based on 
certain jurisdictions, not only just from steps and protocols 
and requirements, but also what's going on in the community. If 
we see an event in the community or in the State where you have 
a higher number of positive cases, obviously, we know that has 
an impact on us and that also maybe have little different or 
changing requirements or guidelines from State or local 
officials.
    Mr. Guest. Mr. Hininger, there was some conversation early 
on about when inmates are transferred to a facility, about the 
processing of new detainees or the detainees that are 
transferred to one of your facilities. Can you speak on that 
just a little bit and expand on that, if you will?
    Mr. Hininger. Yes, sir. So we have a process that has been 
endorsed and somewhat directed by ICE that we do a protocol for 
every group of individuals that are leaving our facilities. So 
we go through this checklist. Again, it is a document that has 
been endorsed by ICE. Additionally, we get a medical check 
done. They get a medical check done by them, by our medical 
staff, depending on where they are being transferred to. Also 
many of them, again, depending on the medical authority, may 
get an actual test before they get--before they depart the 
facility, so many different steps. At the end of the day, we 
are following the direction of ICE on the appropriate steps we 
need to take before a transfer takes place.
    Mr. Guest. When individuals are transferred into your 
facility and they are showing symptoms of COVID-19, what would 
happen to that detainee at that point?
    Mr. Hininger. Yes. So we would--again, when, say, a 
transportation vehicle or a bus comes in the sally port, we 
have staff, along with medical staff, going on the bus 
immediately, doing quick symptom and temperature checks. If 
they are coming into the institution and if they are showing 
signs of COVID-19, then they would be isolated. But regardless, 
I should say, anybody coming into an institution from outside 
is going to be isolated and quarantined for 14 days before they 
go into general population.
    Mr. Guest. Thank you.
    Madam Chairman, I yield back.
    Miss Rice. Thank you, Mr. Guest.
    I now recognize the gentlelady from New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Madam Chair.
    Let me thank our Ranking Member, Mr. Higgins. Let me thank 
our panelists for appearing before us today.
    We know that more than 3,000 immigrants in ICE custody have 
tested positive for the coronavirus. Given the lack of testing 
in ICE facilities, we all know that true number is much, much 
higher. We also know that much more could be done to protect 
immigrants in custody from COVID-19, but, unfortunately, this 
administration, and I also believe your companies, have failed 
to put safety first.
    Today is about accountability. Many ICE detention 
facilities are run by private companies such as yours. When you 
are in the business of detaining immigrants and implementing 
the policies of this administration, you don't get to just 
answer to your stakeholders. You must also answer to us. You 
must answer to the families of immigrants in your custody who 
right now are worrying not only about the immigrants in your 
custody. Right now, they are also wondering whether they will 
ever see their loved ones again once ICE deports them, but also 
about whether they will each catch the coronavirus in one of 
the crowded cells that tend to be the case with your business 
models.
    So let me ask, here are a few facts. Not enough is being 
done to stop the spread in your facilities: 286 detainees at 
Bluebonnet Detention Facility tested positive, 250 detainees at 
Eloy Federal Contract Facility, 202 detainees at Montgomery 
Processing Center, 126 detainees at the Winn Correctional 
Center.
    People detained at Eloy, operated by CoreCivic, also report 
numerous instances in which people who may have been exposed to 
COVID-19 are grouped together, a dangerous practice known as 
cohorting, which is directly linked to the spread of COVID-19 
in detention.
    So my question is for all of you, gentlemen, why do you 
think your facilities were unable to control the spread of the 
virus in your facility? Was it the surprise element? Was it a 
lack of resource? What was it that you failed to recognize that 
in congregate areas such as yours the spread would infect 
rather rapidly?
    Do you want to start, Mr. Cooper?
    Mr. Cooper. Yes, ma'am, I would be happy to. Thank you.
    You know, you mentioned our being responsible to you, but I 
feel like we are also still responsible to the good Lord, and 
so that is the one I care about the most of how we treat 
detainees and how we treat anyone. So the safety of everyone is 
our concern. As far as, you know, stopping COVID, I am pretty 
comfortable that if----
    Ms. Clarke. I am pretty sure I said to control it.
    Mr. Cooper. Ma'am?
    Ms. Clarke. I said I am pretty sure that my question was 
what do you to control it, not stop it, but control it?
    Mr. Cooper. Well, you know, to control it, of course, we 
follow the CDC guidelines, the guidelines handed down by ICE, 
and from public health authorities. I think it has been very 
successful when we look at the numbers that we had initially 
and we look at the numbers we have now. Of course, when you do 
mass testing, you are going to get some higher numbers. 
However, you know, I think we have--I think our staff has done 
very well to try to control it as best we can. You know, the 
fact that, as I mentioned in my opening statement, that we have 
not had any detainees succumb to COVID-19, I think that speaks 
for itself.
    Ms. Clarke. Mr. Hininger.
    Mr. Hininger. Yes, ma'am. So we have a 24/7 operation, so 
we are always thinking about the unexpected. So if it is a 
natural disaster, if it is a pandemic like this one, if it is 
communicable diseases, we are always thinking about, you know, 
how do we prepare for the unexpected? So I talked a little bit 
earlier about not only the investments we made in the EOC and 
also the COVID-19 task force, but we really also have really 
leaned on CDC and their guidance on what we should be doing 
both proactively but also during this pandemic along with 
obviously the direction that we are getting from ICE.
    So have we been perfect? Absolutely not. But I feel very 
confident in saying that we have made big investments in not 
only protective equipment but also making sure that we have the 
appropriate staff, that they feel comfortable and safe when 
they come into our institutions. As I mentioned in my prepared 
remarks, we have also rewarded them with a bonus that we called 
a hero bonus and also give them extra time off, and then also 
told them, if they feel sick, don't come into work, self-
quarantine for 14 days.
    So, again, we have not been perfect, but I feel good that 
we have made the appropriate investments along the way.
    Ms. Clarke. Mr. Zoley.
    Mr. Zoley. We have also invested heavily in the protective 
equipment that we have distributed to all of our employees, all 
of our detainees. But we place also an importance on testing. 
We have tested almost 5,000 detainees to date, and we believe 
saturation testing, that means testing everybody, is the best 
thing you can do, and that is why we are excited about getting 
45 of the Abbott machines, which are the most effective test, 
because people talk about tests----
    Ms. Clarke. When do you believe that that will be in full 
effect?
    Mr. Zoley. We are hoping in September when we get the 
machines.
    Ms. Clarke. Very well.
    Mr. Marquardt.
    Mr. Marquardt. I think we have--there is no greater 
priority for us than the health and safety of the detainees and 
staff that work there. So we are going to do everything that we 
possibly can. There isn't a perfect solution. Until there is a 
vaccine and a cure for this unfortunate infection, we are going 
to have the same problems that the community has. The big 
advantage that we have is the ability to isolate and control 
movement that schools and everybody else in the community does 
not have, and that gives us a big advantage in controlling the 
spread. There are really--the biggest thing we can do, I think 
testing is an important management tool, but it is not the 
panacea as I said in my opening statement. The thing that is 
going to make a difference is controlling behavior, and there 
is 3 specific things that we----
    Ms. Clarke. I apologize, I apologize. I am over time, and I 
appreciate your responses, gentlemen. Look forward to following 
up with you.
    Madam Chair, I yield back.
    Miss Rice. Thank you, Ms. Clarke.
    I now recognize the gentlelady from California, Ms. 
Barragan.
    Ms. Barragan. Thank you, Madam Chairwoman.
    Mr. Zoley, this question is for you and Mr. Hininger.
    Miss Rice. I am sorry, Ms. Barragan. I overlooked the 
gentlelady from Texas, Ms. Jackson Lee. I apologize.
    Ms. Jackson Lee. I thank the Chairwoman and Ranking Member 
for yielding and for this hearing, along with the full 
committee Chair and Ranking Member.
    Gentlemen, you are being asked questions over and over 
again. Please understand that it is our crucial responsibility 
to engage in oversight.
    With that in mind, I think it is appropriate, because I am 
in one of the hotspots and your facilities are located in a 
hotspot, among others, and that is the State of Texas. We now 
have 265,000 cases and 3,252 people have died.
    For this meeting and many others that I am dealing with, as 
well as a major testing, is life and death, and I would 
disagree with the gentleman who indicated the testing--he might 
want to correct his statement--is not important. It is one of 
the most important elements of stopping the community spread, 
particularly as it relates to the idea of asymptomatic persons.
    So let me ask each person, realizing the shortness of my 
time, I just need very quick answers. Mr. Hininger, what is 
social distancing to you? How do you space out the detainees, 
very quickly, please?
    Mr. Hininger. Yes, ma'am. Thank you for your question.
    So, quite simply, it is, you know, the guidance, which is 6 
or further apart from each other, but also, as it relates to 
our institutions, making sure that there is appropriate 
distance in certain service areas, like in food service, 
medical, or other areas where there would be common usage 
between detainees.
    Ms. Jackson Lee. Thank you.
    Mr. Zoley, what is it for you?
    Mr. Zoley. Very similar answer. That is, we have benefited 
from having the capacity that is less than 50 percent. You can 
put people at greater distances from each other, whether they 
are in dormitory housing or room-style housing, things----
    Ms. Jackson Lee. How are you dealing with the new 
information--forgive me, my time is short--that COVID-19 is 
airborne? That has been recent information. How are you dealing 
with that? How secure are your--are you using N95 masks?
    Mr. Zoley. We are using the surgical masks for the 
detainees, which are replaced 2 or 3 times a week or as 
necessary or at their request. Staff are in a different kind 
of----
    Ms. Jackson Lee. I think the masks need to be certainly 
more solid than that.
    Mr. Marquardt, are you retesting, and what do you do with 
asymptomatic persons? Do you retest? One test may show you are 
negative and you may be positive within a week or so if you 
have been exposed. That includes employees as well as 
detainees.
    Mr. Marquardt. Let me just clarify that I did not say 
testing is not important. I said it is not a panacea. But 
testing and changed behaviors are the best tools that we have 
to control this pandemic, so----
    Ms. Jackson Lee. Please highlight it as one of the most 
important elements, because that is only way that you can get 
information.
    Mr. Marquardt. I totally agree with you.
    Ms. Jackson Lee. Are you retesting? What are you doing 
about asymptomatic persons?
    Mr. Marquardt. Well, asymptomatics are probably the most 
difficult part of this equation because someone can be 
asymptomatic and we don't catch them through our screening 
procedures. Once a person takes a test--I mean gets the virus, 
it takes 2--an average of 2 days, up to a maximum of 5 days 
before they would test positive in a test. So even if we are 
testing every person that comes in----
    Ms. Jackson Lee. But are you are you retesting? That is my 
question. Are you retesting?
    Mr. Marquardt. It depends on the facility. We have a 
facility in New Mexico that we have tested and retested every 
person in the facility. So at other facilities there is less 
availability of testing, and that is not happening.
    Ms. Jackson Lee. All right. Thank you.
    Mr. Cooper, do you have medical teams on-site of your 
facilities?
    Mr. Cooper. Yes, ma'am, we do have medical teams on-site.
    Ms. Jackson Lee. Does that include a doctor?
    Mr. Cooper. We have doctors that--at some locations doctors 
are there every day. Some locations doctors come by 2 to 3 
times a week.
    Ms. Jackson Lee. All right. Thank you very much.
    Mr. Zoley again, let me ask you to look into your Leidel 
center on Commerce Street in Houston, Texas, where it has been 
reported to me that there is several deaths in that facility, 
and I would like to make sure that you get back to me directly 
on that.
    So let me move on. With respect to the White House task 
force--did you hear me, Mr. Zoley, about the Leidel center?
    Mr. Zoley. Yes, I did. Yes I did.
    Ms. Jackson Lee. All right. So that I will ask for you to 
get back to me directly.
    But as it relates to the White House task force, have they 
been engaging with each of you about particular ways you can 
handle detention centers and your facilities? I will start, Mr. 
Cooper, have you been engaged with the White House task force?
    Mr. Cooper. Ma'am, I have not personally been engaged with 
the White House task force, but I do see the guidance that 
comes out through the CDC.
    Ms. Jackson Lee. Do you follow that? You follow that?
    Mr. Cooper. Yes, we do follow CDC guidelines.
    Ms. Jackson Lee. Mr. Cooper, do you follow that?
    Mr. Cooper. Yes, ma'am. Can you hear me?
    Ms. Jackson Lee. Yes. Do you follow that?
    Mr. Cooper. I said we do follow the CDC guidelines and DHS 
recommendations.
    Ms. Jackson Lee. All right. Thank you.
    Mr. Marquardt, do you follow that?
    Mr. Marquardt. Absolutely. We have been very rigorous in 
following CDC, ICE, and State and local health guidelines.
    Ms. Jackson Lee. Mr. Hininger.
    Mr. Hininger. Yes, ma'am, similar answer. CDC, ICE, and 
city, county, and State.
    Ms. Jackson Lee. Thank you.
    Mr. Zoley. Thank you very much.
    Mr. Zoley. Yes, ma'am. Same answer.
    Ms. Jackson Lee. Thank you very much. That includes Dr. 
Anthony Fauci, who I have great confidence in and hope that he 
will continue his work in spite of being demonized by 
unfortunate conversations. I think it is important that we take 
note of the fact that Dr. Fauci has been an instrumental part 
of the White House task force.
    With that, Madam Chair, I am happy to yield back, and thank 
all the witnesses for their presentation. There will be a 
number of issues that I would like to follow up on, more 
extensive understanding of medical teams there, as well as 
retesting and what they are doing with asymptomatic persons. I 
think that is crucial with the close proximity of these 
detainees in order to save lives.
    Thank you, and I yield back.
    Miss Rice. Thank you, Ms. Jackson Lee.
    I now recognize the gentlelady from California, Ms. 
Barragan.
    Ms. Barragan. Thank you, Madam Chairwoman.
    Dr. Zoley and Mr. Hininger, I serve as the second vice 
chair of the Congressional Hispanic Caucus. On Friday, June 10, 
our Chairman, Congressman Joaquin Castro, sent a letter to the 
both of you.
    The letter deals with concerns that CHC has regarding the 
treatment of individuals in ICE and ICE-contracted facilities 
in regards to the coronavirus pandemic and the ability of 
facilities to contain the spread of the virus.
    The letter requests that you both brief the Hispanic Caucus 
on the questions and concerns that we have. Will you both 
commit to doing that, and if so, when? Dr. Zoley.
    Mr. Zoley. I think I would. I have been honestly quite busy 
preparing for this meeting, so it would be sometime this month.
    Ms. Barragan. Thank you, sir.
    Mr. Hininger.
    Mr. Hininger. Ma'am, I am aware of the letter received, I 
think, late Friday afternoon, and we will follow up with staff 
as appropriate.
    I know that we have several facilities within Member 
districts on that committee or in that caucus, I should say, 
and always available for tours or opportunities to see the 
operations first-hand.
    Ms. Barragan. OK. I noticed you didn't make a complete 
commitment, but I hope you will meet with the Hispanic Caucus. 
We have a huge constituency, and as you said, many of our 
Members you have facilities in.
    Dr. Zoley, Federal judges have found that at least 2 of 
your facilities, Adelanto in California and the Broward 
Transitional Center in Florida, or BTC, were creating 
unreasonable risk to detainees.
    In the case of Adelanto, the judge found that the facility 
had created a massive risk of COVID-19 infection. The DHS 
Office of Civil Rights and Civil Liberties at inspecting 
Adelanto also recently found failures in leadership, 
``contributed to the inadequate detainee medical care that 
resulted in medical injuries.''
    In the case of BTC, among other facilities in Florida, a 
judge recently found the conditions rose to deliberate 
indifference and recently raised concerns about a continued 
failure to provide detainees with bare minimum necessities, 
tantamount to the infliction of cruel and unusual punishment.
    Again, these are the words straight from the court and the 
judge. How can we take your assurances today seriously when 
your facilities repeatedly failed to live up to the basic 
standards?
    Mr. Zoley. We think our facilities are not only meeting the 
standards but are exceeding them. You know, we have on-site 
medical staff as well as on-site ICE presence that helps 
oversee whether we are meeting the contractual requirements.
    Ms. Barragan. Well----
    Mr. Zoley. ICE has a very sophisticated health services 
unit that also oversees all the health services at all ICE 
facilities. I think it is really hard--to any health care 
correctional organization in the world.
    Ms. Barragan. OK. Well, Dr. Zoley, I mean, I just remind 
you that these are words from a court and from a judge. In 
addition, findings from the Office of Civil Rights and Civil 
Liberties, which ICE concurred with, made these findings.
    So if you really don't see how that is a concern and that 
you don't believe it is happening, I think that maybe there 
needs to be a real sit-down and a look into how there is such a 
huge difference between what the office is saying and what the 
judge is saying, which differs from what we are hearing from 
you today.
    For the GEO Group, in April, a group of women held at the 
LaSalle ICE processing center came forward alleging that they 
went several days without access to soap or other cleaning 
supplies that would protect them from the virus.
    Since these concerns were raised, at least 15 migrants held 
at the facility have tested positive for the virus. Has GEO 
independently investigated these reports and determined if 
negligent actions have fueled the spread of the COVID-19 in the 
detention center and local communities?
    Mr. Zoley. I am honestly not familiar with that situation, 
and I would find it surprising because we have had sanitation 
and hygiene products available continuously. I would like to 
get back to you as I investigate that.
    Ms. Barragan. That would be great. I really would 
appreciate that.
    Can you help shed some light on what steps you have taken 
to respond when a detainee has concerns like this, that they 
don't have access to proper hygiene products?
    What is your policy with providing personal protective 
equipment to detainees? I know employees probably get them, but 
what about detainees?
    Mr. Zoley. Well, our policy is to make it continuously 
available. What does that mean? It means that they get it by 
schedule 2 or 3 times a week, and they get it when they--if 
they ask for it--that they have run out of it and they need 
some more, it should be available at all times.
    That is my desire, and I think that is our policy.
    Ms. Barragan. OK. The first part of that question, if you 
can't respond today, getting back on what steps you take when a 
detainee raises concerns about not having access to proper 
hygiene, that would be really helpful.
    Mr. Zoley. OK. Well, I have never received such a request 
personally myself, so----
    Ms. Barragan. Well, does your staff raise it to your level?
    Mr. Zoley. Yes.
    Ms. Barragan. I understand that a detainee wouldn't have 
access to you directly just as----
    Mr. Zoley. Well, they do. They send me a letter.
    Ms. Barragan [continuing]. When one of my constituents 
calls me, it goes up the chain, and I hear about it when there 
are concerns. So do you not hear about these?
    Mr. Zoley. I get letters all the time, and I refer them to 
the appropriate division within our company.
    Ms. Barragan. OK. Madam Chairwoman, I yield back.
    Miss Rice. Thank you, Ms. Barragan.
    I now recognize the gentleman from Colorado, Mr. Neguse.
    Mr. Neguse. Thank you so much, subcommittee Chairwoman 
Rice, for allowing me to participate in today's hearing.
    Prior to COVID-19, the GEO-run detention center in Colorado 
was known for complaints regarding a variety of civil rights 
and medical violations. These complaints are not unique to 
Colorado, as my colleague Representative Barragan just 
referenced, and unfortunately poor conditions that already 
existed have only been exacerbated by the failure of ICE and 
private contractors to adequately respond to COVID-19.
    As governments around the world implemented lockdowns and 
other measures to slow the spread, the Trump administration 
took a different approach of continuously transferring 
detainees between facilities multiple times a week and 
sometimes daily.
    In recent weeks, my office has heard reports of dozens, 
potentially hundreds of detainees being moved in and out of the 
Colorado facility with little to no notice to the individual 
being transferred or their family or their lawyer.
    So, Dr. Zoley, yes or no, will you commit today to 
providing at least 24 hours' notice in advance to the families 
of a detainee and their lawyer upon notice of a transfer out of 
the Colorado facility?
    Mr. Zoley. I don't know if I have that ability.
    Mr. Neguse. Well, I guess what I would say, Dr. Zoley, is 
to the extent you have the ability, if ICE is informing you 
with enough time for you to provide that notice, will you do 
so?
    Mr. Zoley. I would have to look into our ICE procedures and 
whether I am allowed to do something of that nature.
    Mr. Neguse. Well, I guess what I would say, Dr. Zoley, is 
the notion that you would be unable and that your facilities 
would be unable to provide a modicum level of notice to 
individuals who are being transferred in the dead of night to 
at least tell their families before that is done, to me is a 
bare minimum requirement, and it is disappointing that you are 
unable to commit to that today.
    Mr. Zoley. Could I comment----
    Mr. Neguse. Another question I guess that I would pose to 
you, we have also heard reports that some of these transfers 
could be in retaliation for speaking out against inhumane 
treatment or a lack of PPE, soap, safe hygiene products.
    Dr. Zoley, do you have any knowledge of any ICE transfers 
being implemented into and out of your facilities such as the 
Colorado facility for any retaliatory reasons?
    Mr. Zoley. No, I do not.
    Mr. Neguse. Are you aware of a transfer of 100 or more 
detainees recently being transferred out of the Colorado 
facility to places such as the Teller County Jail?
    Mr. Zoley. No, I am not.
    Mr. Neguse. OK. Well, if you would be willing, I certainly 
would appreciate if you could direct your team at the Colorado 
facility to respond to our inquires in that regard as we have 
tried to obtain more information about these transfers.
    I want to ask you about the use of a powerful chemical 
disinfectant referred to as HDQ Neutral and Halt inside some of 
the immigration detention facilities. Our understanding is that 
it is causing bloody noses, rashes, nausea, difficulty 
breathing.
    The manufacturer has very strict warnings about their use, 
only outdoors or in a well-ventilated area, and yet there have 
been reports of their use in crowded and confined spaces at the 
Adelanto Facility, Northwest Detention Facility, and in Aurora, 
which are all GEO-owned, including using those and being 
sprayed while detainees are still in the room.
    Can you commit today that GEO will immediately stop using 
those dangerous chemicals to the extent they are used not in 
line with manufacturer's instructions?
    Mr. Zoley. No, I cannot. We have been using that cleaning 
product, which is registered with the Environmental Protection 
Agency and follows strict safety guidelines set by FDA. The HDQ 
Neutral cleaning product has been used at the Adelanto 
facility, as well as other facilities for 9 years----
    Mr. Neguse. The question, Doctor----
    Mr. Zoley [continuing]. And has never reported any adverse 
effects by anybody. There is no documentation----
    Mr. Neguse. The question, Dr. Zoley--I will reclaim my 
time.
    The question is not as to whether or not you will stop 
using the chemical but making sure that it is being used in 
line with the manufacturer's instructions. That is all.
    Mr. Zoley. Absolutely. Absolutely. I misunderstood your 
question then.
    Mr. Neguse. The last question I have for you is regarding 
performance-based National detention standards. As you know, 
the ICE performance-based standards say that detainees shall be 
available--or excuse me, shall be able to volunteer for work 
but otherwise shall not be required to work.
    Has GEO ever used the threat of solitary confinement or 
segregation or other sanction to force individuals to clean and 
sanitize common areas?
    Mr. Zoley. Detainees are required by ICE to keep their own 
personal areas clean, and that is a requirement by ICE.
    Mr. Neguse. I am not asking about the personal areas, Dr. 
Zoley. I am asking about common areas. But how about this, I 
will rephrase it. Has GEO ever coerced immigration detainees 
into volunteering to perform work by threatening or imposing 
disciplinary segregation, administrative segregation, or 
solitary confinement or any other kind of sanction?
    Mr. Zoley. Absolutely not.
    Mr. Neguse. OK. Well, as I am sure you are aware, there are 
multiple lawsuits pending against GEO where allegations have 
been made precisely on that basis.
    My understanding from a letter that was made public last 
year, your senior vice president for business development 
asserted that to the extent the plaintiffs in those lawsuits 
were alleging that disciplinary segregation was an unlawful 
threat for refusal to work, that that sanction came directly 
from ICE policies.
    Yet, we can find nowhere in an ICE policy where that--such 
conduct would be permitted. So I would ask that you follow up 
with our office in writing with respect to that particular 
reference to ICE policy.
    Mr. Zoley. OK. I will.
    Mr. Neguse. With that, I yield back, Madam Chair.
    Again, thank you for allowing me to participate.
    Miss Rice. Thank you, Mr. Neguse.
    I have a question just to all 4 of our witnesses. Will you 
each commit today to adding a page on your website to report 
daily the number of COVID-positive employees at each of your 
facilities used for immigration detention operations?
    This is something that ICE does, and I am assuming that if 
ICE can do it, all of you should be able to do it. So I would 
like to get an answer from each of you, just yes or no, would 
you commit to adding a page to your website with that 
information?
    Mr. Hininger. Madam Chair, Damon Hininger, we would 
absolutely follow up with ICE. If it is in accordance with them 
and appropriate then we would absolutely do that.
    Miss Rice. Well, if they do it, there shouldn't be any 
objection that they have to you doing it.
    Mr. Hininger. Yes. We are a contractor so we just need to 
make sure we are following the appropriate terms and conditions 
of our contract, but we will absolutely follow up with them.
    Miss Rice. OK. Mr. Zoley.
    Mr. Zoley. Similar response.
    Miss Rice. Mr. Marquardt.
    Mr. Marquardt. We are open to doing that, assuming, again, 
it is OK with ICE and doesn't violate any HIPAA standards of 
the people involved, but, yes, we would be open.
    Miss Rice. It is the numbers, not the names. It is just the 
number of employees, not the names.
    Also, finally, Mr. Cooper.
    Mr. Cooper. As the others have said, we would be happy to 
get with our Government partner and discuss that.
    Miss Rice. OK. Thank you.
    Mr. Higgins, do you have a final question you would like to 
ask?
    Mr. Higgins. I do, Madam Chair.
    Regarding contact tracing, Mr. Marquardt, I took a note 
during your opening statement that you had advised that your 
detainees were questioned in some manner to determine if they 
have been in contact with any other human being that is known 
to have COVID-19.
    How are you possibly accomplishing that? It is difficult 
enough in a cooperative and free environment, and here you are 
dealing with children of God that have been detained for one 
reason or another by the decision of ICE.
    But just knowing who they are communicating with, who their 
families are, who they have been in contact with, and including 
from other nations, how are you conducting contact tracing with 
your detainees successfully? You seem to indicate you are doing 
so successfully.
    Mr. Marquardt. I think my comment earlier was in regard to 
screening detainees coming into the facility and asking them if 
they have been traveling to any high-impact areas, like China 
or other places. That was it in the beginning, and other places 
have been added since then.
    Mr. Higgins. OK. That----
    Mr. Marquardt. In terms of actual contact tracing, we would 
only be doing that within the facility if somebody has tested 
positive in our facility.
    Mr. Higgins. Understood. Yes, I heard your answer 
incorrectly earlier.
    Madam Chairwoman, I thank you very much for convening this 
hearing. Despite the technological challenges, it was wonderful 
to see you all, and I look forward to restored regular order 
where we can commune in person. I yield.
    Miss Rice. Thank you, Mr. Higgins.
    I also just want to see if we are in a position to do 
another hearing like this. It is my understanding that the 
Republican side did not ask to have a witness at today's 
hearing, and I wish I had known that because I would have 
suggested that you get someone from ICE.
    Maybe they would have had a more affirmative answer to you 
than they would have, you know--maybe they wouldn't have quoted 
OMB guidance. But you and I can talk off-line about that.
    Mr. Higgins. Does the gentlelady yield?
    Miss Rice. Yes.
    Mr. Higgins. Let me say that I have had some indirect 
contact with ICE about their participation in a hearing like 
this, and they are following guidelines. They are receptive to 
meeting and to attending a hearing like this in the future.
    But their guidelines call for at least the Chair of the 
Majority to be present with their--they have to appear in 
person. So that is my understanding, and I am prepared to stand 
corrected, and hopefully we can work together as we always have 
and make that happen.
    Miss Rice. Absolutely, Mr. Higgins. I would be more than 
happy to sit with you in the committee room if that will get 
ICE to come.
    Mr. Higgins. Yes, ma'am. You have my word, good lady, that 
I will work with the Minority staff and my friends at ICE and 
my contacts there. We will circle back with your office and 
through the Chairman, of course.
    Miss Rice. Thank you so much, Mr. Higgins.
    To all of the witnesses today, I want to thank you so much 
for your patience, for your presence and your patience. These 
are very extraordinary times, and I apologize for the technical 
glitch that we had. I am very cognizant of your time. We went a 
little over, and I am just very grateful for your patience with 
this process.
    I ask unanimous consent to enter into the record statements 
from the Detention Watch Network about ICE's detention policies 
and operations; and National Immigrant Justice Center about 
another ICE contractor, Immigration Centers of America, whose 
facility in Farmville, Virginia, have further raised serious 
concerns about its management practices in light of the on-
going pandemic; and in addition, statements* from family 
members of those who have died while in custody.
---------------------------------------------------------------------------
    * Documents have been retained in committee files.
---------------------------------------------------------------------------
    [The information follows:]
                  Statement of Detention Watch Network
                         Monday, July 13, 2020
    Under ordinary circumstances, Immigration and Customs Enforcement 
(ICE) custody has proven to be deadly for the people detained at the 
agency's network of over 200 jails and detention centers across the 
country. Eighty-one percent of people detained by ICE are held in 
facilities owned or operated by private prison companies.\1\ These 
companies, including CoreCivic, the GEO Group, Management and Training 
Corporation (MTC), and LaSalle Corrections, along with ICE itself have 
proven time and again that they are incapable of providing the basic 
care for people in their custody. Now facing a global health crisis, 
ICE and its contractors' shameful record of medical negligence, limited 
and rotten food provisions, poor sanitation, and demonstrated inability 
to properly respond to infectious disease outbreaks is being 
exacerbated by the COVID-19 outbreaks at immigration detention centers 
across the country. These facilities are threatening the lives of the 
people deprived of their liberty inside and the surrounding communities 
outside. The only solution is to terminate these contracts and for ICE 
to use its authority to release everyone from custody.
---------------------------------------------------------------------------
    \1\ Eunice Hyunhye Cho, Tara Tidwell Cullen, Clara Long, Justice-
Free Zones: U.S. Immigration Detention Under the Trump Administration, 
2020 https://www.aclu.org/sites/default/files/field_document/
justicefree_zones_immigrant_detention_report_aclu_hrw_nijc_0.pdf.
---------------------------------------------------------------------------
                         i. inhumane conditions
    According to countless reports from advocates as well as the 
Department of Homeland Security's Office of Inspector General (OIG), 
ICE already fails to provide the necessary conditions critical to 
halting the spread of illness.\2\ After pressure from public health 
experts and elected officials, the agency released a set of COVID-19 
Pandemic Response Requirements in April.\3\ In addition to falling 
short of the recommendations for ensuring the prevention of outbreaks, 
the requirements proved entirely unenforceable. Immigrants in 
detention, their attorneys, advocates, reporters, and Federal courts 
now continue to report deeply disturbing conditions that further 
reflect a massive failure by ICE to protect those who are detained, ICE 
and contract employees working in the jails, and surrounding 
communities.
---------------------------------------------------------------------------
    \2\ U.S. Department of Homeland Security Office of the Inspector 
General, ``Concerns about ICE Detainee Treatment and Care at Four 
Detention Facilities,'' Jun. 3, 2019, https://www.oig.dhs.gov/sites/
default/files/assets/2019-06/OIG-19-47-Jun19.pdf.
    \3\ Immigration and Customs Enforcement, Enforcement and Removal 
Operations ``COVID-19 Pandemic Response Requirements,'' Apr. 10, 2020 
https://www.ice.gov/doclib/coronavirus/
eroCOVID19responseReqsCleanFacilities.pdf.
---------------------------------------------------------------------------
    Despite guidance from the Centers for Disease Control and 
Prevention (CDC) and a broad range of medical professionals 
recommending that people practice extra care in washing their hands, 
using hand sanitizer and disinfecting surfaces, there are regular 
reports of ICE failing to take these basic precautions inside detention 
centers. In contrast with ICE's own policies and statements, access to 
hand sanitizer and soap continues to be limited. In June, OIG released 
a report detailing ICE's pandemic response thus far which included 
statements from facility staff that they would be unable to adequately 
respond to an outbreak and that they had insufficient supplies of hand 
sanitizer, among other hygiene products.\4\ From mid-April to mid-May, 
the Freedom for Immigrants hotline received 42 calls related to either 
insufficient quantities of soap or a complete lack of access to any 
soap.\5\ In June Freedom for Immigrants reported empty hand sanitizing 
stations and failure to enforce use of masks at the Adelanto ICE 
Processing Center (operated by GEO). People in detention also report 
being given insufficient cleaning supplies--and in some cases only 
water--to keep their living areas disinfected. Another primary 
recommendation to slow the spread of COVID-19 is the practice of social 
distancing, keeping at least 6 to 10 feet away from others. This is 
impossible to comply with in ICE facilities where immigrants are housed 
together in shared living quarters. For example, at the Joe Corley 
Detention Facility (operated by GEO), a detained person reported that 
people are unable to socially distance in medical isolation. In recent 
weeks, there have been numerous reports of ICE contractors using toxic 
chemical sprays at various facilities, including the Adelanto ICE 
Processing Center (operated by GEO), leading to bloody noses, burning 
eyes, and coughing, which could exacerbate the spread of COVID-19.\6\
---------------------------------------------------------------------------
    \4\ Department of Homeland Security, Office of Inspector General, 
``Early Experiences with COVID-19 at ICE Detention Facilities,'' June 
18, 2020, https://www.oig.dhs.gov/sites/default/files/assets/2020-06/
OIG-20-42-Jun20.pdf.
    \5\ See Conditions Reports April 15, 2020-April 29, 2020, April 30, 
2020-May 14, 2020, and May 29, 2020-June 18, 2020 Freedom For 
Immigrants, https://www.freedomforimmigrants.org/covid19.
    \6\ Rebecca Plevin, Immigrants, advocates, Members of Congress 
decry chemical use at ICE facility in Adelanto, Palm Springs Desert 
Sun, June 26, 2020, https://www.desertsun.com/story/news/politics/
immigration/2020/06/27/immigrants-members-congress-decry-chemical-use-
ice-facility-adelanto/3273095001/.
---------------------------------------------------------------------------
    The persistence of these poor conditions and ICE's failure to 
provide information about the virus has led to mass protests by people 
in detention demanding release for their health and safety.
    Since March, there have been over 30 organized hunger and labor 
strikes in facilities across the country.\7\ Instead of addressing 
their concerns and engaging in releases as ordered by multiple Federal 
district courts, ICE, including staff at privately-operated facilities, 
has responded to protests by retaliating against those in its 
custody.\8\ Guards have placed strikers in solitary confinement for 
extended periods of time, barred them from communicating with legal 
counsel and loved ones, denied access to medical care, and inflicted 
serious physical harm. Reporters have exposed multiple cases of 
facility guards pepper-spraying people protesting their detention since 
the start of the National emergency, including the Stewart Detention 
Center in Georgia (operated by Corrections Corporation of America),\9\ 
the Otay Mesa Detention Center in California (operated by CoreCivic), 
the LaSalle ICE Processing Center and Pine Prairie ICE Processing 
Center in Louisiana (operated by GEO), and the South Texas ICE 
Processing Center in Pearsall (operated by GEO).\10\
---------------------------------------------------------------------------
    \7\ Detention Watch Network, ``Advocates take action across the 
country demanding people be released from ICE detention while calling 
attention to a rise of protests inside detention,'' May 28, 2020, 
https://www.detentionwatchnetwork.org/pressroom/releases/2020/
advocates-take-action-across-country-demanding-people-be-released-ice.
    \8\ See Conditions Reports, Freedom For Immigrants, https://
www.freedomforimmigrants.org/covid19.
    \9\ Jose Olivares, ICE's immigration detainees protested lack of 
coronavirus precautions--and SWAT-like private-prison guards pepper-
sprayed them, The Intercept, May 5, 2020, https://theintercept.com/
2020/05/05/ice-stewart-immigration-detention-coronavirus-protest-
pepper-spray/.
    \10\ Noah Lanard, ICE detainees were pepper-sprayed during a 
briefing on coronavirus, Mother Jones, March 26, 2020, https://
www.motherjones.com/politics/2020/03/ice-detainees-were-pepper-sprayed-
during-a-briefing-on-coronavirus/.
---------------------------------------------------------------------------
    The conditions and culture of cruelty are not unique to this 
moment, but entirely characteristic of an agency and contractors that 
are intent on terrorizing immigrants and should therefore not be 
responsible for their health and safety.
               ii. history of medical neglect and deaths
    ICE and its contractors have repeatedly shown to be incapable of 
adequately responding to outbreaks of contagious diseases and providing 
the proper care for people in custody. Outbreaks of mumps, scabies, and 
other highly contagious diseases have been documented to spread 
aggressively in detention facilities. In October 2018, the Texas 
Department of State Health Services reported 5 confirmed cases of mumps 
among immigrants transferred between 2 ICE detention centers. By August 
2019, there were 898 reports of mumps cases across 57 facilities, 34 of 
which were operated by private contractors.\11\ This rapid spread of 
mumps foreshadowed the vicious COVID-19 infection rate currently under 
way and predicted by experts. As of July 8, ICE reported over 3,077 
cases of COVID-19 among people in detention.\12\
---------------------------------------------------------------------------
    \11\ See Morbidity and Mortality Weekly Report: Notes from the 
Field (Vol. 68, No. 34), Jessica Leung, Diana Elson, Kelsey Sanders, et 
al, Centers for Disease Control and Prevention, ``Mumps in Detention 
Facilities that House Detained Migrants--United States, September 2018-
August 2019,'' Aug. 30, 2019, https://www.cdc.gov/mmwr/volumes/68/wr/
pdfs/mm6834a4-H.pdf.
    \12\ ICE Guidance on COVID-19, June 1, 2020 https://www.ice.gov/
coronavirus.
---------------------------------------------------------------------------
    ICE and its contractors have proven time and again that they are 
unable and unwilling to adequately care for people in need of medical 
attention. Recent investigations into deaths in immigration detention 
have found that inadequate medical care has contributed to nearly half 
of all deaths in ICE custody.\13\ \14\ Since 2003 there have been 209 
deaths in ICE detention, the last 2 in May for reasons related to 
COVID-19 exposure in custody. ICE's refusal to mitigate the spread of 
the virus by engaging in releases and subsequent willful medical 
neglect is a ticking time bomb endangering the lives of people in 
detention.
---------------------------------------------------------------------------
    \13\ American Civil Liberties Union, Detention Watch Network, and 
National Immigrant Justice Center, Fatal Neglect: How ICE Ignores 
Deaths in Detention, Feb. 2016, https://www.detentionwatchnetwork.org/
sites/default/files/reports/Fatal%20Neglect%20ACLU-DWNNIJC.pdf.
    \14\ Human Rights Watch, Code Red: The Fatal Consequences of 
Dangerously Substandard Medical Care in Immigration Detention, Jun. 20, 
2018, https://www.hrw.org/report/2018/06/20/code-red/fatal-
consequences-dangerously-substandard-medical-care-immigration.
---------------------------------------------------------------------------
                        iii. public health risk
    ICE's callous behavior not only endangers the health and safety of 
those it detains, but puts our collective health at risk. Facility 
staff and people newly detained or recently transferred can spark 
outbreaks by bringing the virus into facilities, while staff can also 
take it back into their communities when they go home. In March, over 
4,000 medical professionals warned that it would be just a matter of 
time before the virus would spread throughout jails, detention centers, 
and surrounding communities.\15\ These predictions have sadly proven 
true. In Adams County, Mississippi, the rate of COVID-19 cases among 
the general population is more than 40 percent higher than the National 
rate, almost certainly because of an outbreak within the Adams County 
Correctional Facility (operated by CoreCivic) caused by ICE's practices 
being at odds with CDC recommendations.\16\
---------------------------------------------------------------------------
    \15\ Open Letter to ICE From Medical Professionals Regarding COVID-
19, https://docs.google.com/document/d/
1eNyNmy_622OjVILFSwgypITPK0eAt5yLgSkS_7_0vv8/edit?usp=sharing.
    \16\ Gaby del Valle, Jack Herrera, ``Like Petri Dishes for the 
Virus'': ICE Detention Centers Threaten the Rural South, Politico, May 
5, 2020, https://www.politico.com/news/magazine/2020/05/05/coronavirus-
ice-detention-rural-communities-186688.
---------------------------------------------------------------------------
    Detention officers working at the Otay Mesa Detention Center have 
been driven to file lawsuits against ICE's contractor CoreCivic for 
failing to protect their health during the virus outbreak.\17\ Two 
guards at ICE's Richwood Correctional Center (operated by LaSalle) in 
Louisiana have died after reportedly being told not to wear masks so as 
to avoid spreading panic among those detained.\18\ Their relatives are 
now falling ill, illustrating the danger that ICE's practices pose to 
communities far beyond the walls of its jails and prisons.
---------------------------------------------------------------------------
    \17\ Morgan Cook, Kate Morrissey, Guards sue CoreCivic over 
allegedly dangerous workplace amid COVID-19, San Diego Union Tribune, 
April 30, 2020, https://www.sandiegouniontri- bune.com/news/watchdog/
story/2020-04-30/guards-sue-corecivic-over-allegedly-dangerous-
workplace-amid-covid-19.
    \18\ Belisa Morillo and Damia Bonmati, ``I'm afraid to take COVID 
home,'' a guard at an ICE detention facility says, NBC News, May 20, 
2020, https://www.nbcnews.com/news/latino/i-m-afraid-take-covid-
homeguard-ice-detention-facility-n1198186.
---------------------------------------------------------------------------
                    iv. transfers and profit motive
    Despite the pandemic, ICE continues to transfer people between 
facilities, knowing the very clear risks of spreading the virus among 
detained people, staff, and surrounding communities in the process. As 
noted above, the agency has ignored a multitude of court orders 
favoring release to mitigate the spread of the virus and protect 
particularly vulnerable individuals, instead choosing to transfer 
people between facilities to feign population reductions. In April ICE 
transferred 71 people from facilities in New York and Pennsylvania 
where there were COVID-19 outbreaks to Prairieland Detention Center 
(operated by LaSalle) in Alvarado, Texas where there were few confirmed 
cases. Within 2 weeks, the number of confirmed cases at Prairieland was 
at 41, with more than half of those being people who had been 
transferred from New York and Pennsylvania.\19\ Despite these earlier 
occurrences, ICE continues to regularly transfer people from facilities 
with high incidents of confirmed COVID-19 cases to facilities with no 
confirmed cases. In fact, transfers have led to outbreaks in facilities 
in Texas, Ohio, Florida, Mississippi, and Louisiana.\20\ In one of many 
examples, on May 18 ICE transferred 9 people from the Stewart Detention 
Center (operated by CoreCivic) in Lumpkin, Georgia where there were 16 
confirmed cases of COVID-19 to River Correctional Center (operated by 
LaSalle) in Ferriday, Louisiana where there were no confirmed 
cases.\21\
---------------------------------------------------------------------------
    \19\ Hamed Aleaziz, ICE Moved Dozens Of Detainees Across The 
Country During The Coronavirus Pandemic. Now Many Have COVID-19, 
Buzzfeed News, April 29, 2020, https://www.buzzfeednews.com/article/
hamedaleaziz/ice-immigrant-transfer-jail-coronavirus.
    \20\ Lisa Riordan Seville, Hannah Rappleye, ICE keeps transferring 
detainees around the country, leading to COVID-19 outbreaks, NBC News, 
May 31, 2020, https://www.nbcnews.com/politics/immigration/ice-keeps-
transferring-detainees-around-country-leading-covid-19-outbreaks-
n1212856.
    \21\ See COVID-19 in ICE Custody, Bi-weekly Analysis and Update, 
May 28, 2020 Freedom For Immigrants, https://
www.freedomforimmigrants.org/covid19.
---------------------------------------------------------------------------
    Transfers have also continued from the criminal legal system, 
despite the pandemic.\22\ Instead of releasing people who have 
completed their criminal sentences to safely social distance with their 
families, ICE is continuing to initiate transfers from State and local 
jails and prisons. Since March, over 250 people have been transferred 
from California State prisons to the Otay Mesa Detention Center 
(operated by CoreCivic). At least 3 of those people were confirmed to 
have COVID-19.\23\
---------------------------------------------------------------------------
    \22\ Flatten the Curve: Protecting Public Health Requires that 
Jails Stop Transferring People to ICE, American Civil Liberties Union 
California, Immigrant Legal Resource Center, Immigrant Defense Project, 
https://www.ilrc.org/sites/default/files/resources/transfers-national-
2020-ar.pdf.
    \23\ Max Rivlin-Nadler, Lawmakers Ask Newsom To Stop Transferring 
People From Prison To ICE Detention, July 6, 2020, https://
www.kpbs.org/news/2020/jul/06/lawmakers-ask-newsom-stop-transferring-
people-/.
---------------------------------------------------------------------------
    Another motive behind transfers has been to increase the number of 
detained people at privately-operated facilities. Currently there are 
over 22,000 people detained by ICE. This number represents a 
significant drop since the pandemic first started in March, mainly due 
to the administration's effective closure of the border and continued 
deportations. Despite the very real danger of spreading COVID-19 among 
detained people, staff, and surrounding communities, private prison 
companies have been quietly trying to recoup their profits and increase 
the numbers of people in custody through transfers from other ICE 
facilities and from the criminal legal system in order to protect their 
bottom line, putting their profits before the public health.
    On March 31, 2020 the Management Training Corporation (MTC) sent a 
notice to Otero County, indicating the company's intent to terminate 
its contract for the operation of the Otero County Processing Center 
(OCPC) due to the decreased detention population. In the letter, MTC 
expressed its willingness to rescind the notice if the detained 
population were to increase. In fact they offered their assistance in 
increasing the population, ``MTC would be happy to explore with you the 
possibility of partnering with other State or Federal agencies to co-
locate detainees or inmates at the OCPC in order to increase the 
overall population at the facility and make MTC's continued operation 
of the facility financially viable.''\24\ OCPC has one of the highest 
COVID-19 infection rates among detention centers.\25\ Increasing the 
population would certainly lead to even higher infection rates both 
inside the facility and in the surrounding community.
---------------------------------------------------------------------------
    \24\ Letter from Berine Warner, Sr. Vice President, Corrections, 
Management & Training Corporation to Otero County, NM March 31, 2020, 
https://emma.msrb.org/RE1327701-RE1034428-RE1441821.pdf.
    \25\ ICE Guidance on COVID-19, ICE Detainee Statistics, https://
www.ice.gov/coronavirus.
---------------------------------------------------------------------------
    Similarly, both LaSalle \26\ and CoreCivic \27\ have threatened to 
pull out of contracts in the last few months, attempting to negotiate 
an increase in the fees collected per detained person to make up for 
the decrease in population.
---------------------------------------------------------------------------
    \26\ Tommy Witherspoon, New contract keeps private jail company 
LaSalle Corrections in Limestone County, May 19, 2020, Waco Tribune-
Herald, https://www.wacotrib.com/news/government/new-contract-keeps-
private-jail-company-lasalle-corrections-in-limestone-county/article_- 
e130f035-a4b4-5119-8359-876756e77aca.html.
    \27\ Yihyun Jeong, CoreCivic accuses Nashville of ``playing 
politics,'' will walk away from prison contract with city, Tennessean, 
July 5, 2020, https://www.tennessean.com/story/news/politics/2020/07/
06/corecivic-accuses-nashville-playing-politics-walk-away-contract-
city/5387593002/.
---------------------------------------------------------------------------
                              iv. solution
    Communities across the country have witnessed the devastating 
impacts of immigration detention for decades. We understand that the 
experience of ICE detention is mirrored and in many ways exacerbated on 
a greater scale for those incarcerated by the Bureau of Prisons, also a 
subject of this hearing. ICE detention is a piece of the greater prison 
industrial complex that remains rooted in racialized oppression. Now 
facing a global pandemic, the lives of everyone in custody are in even 
more jeopardy. It's clear that more resources for or dependence on ICE, 
an agency that is not intended to provide medical care or respond to 
health needs, is not the solution. There are no real best practices for 
confinement that will ensure the health and safety of everyone in 
custody, so instead we must listen to the doctors, advocates, and 
Government officials that have been sounding the alarm for months now. 
ICE must cease enforcement operations, end its contracts with private 
prison companies, and immediately use its authority to release all 
people in detention--for their sake and for ours.
                                 ______
                                 
       Statement of the National Immigrant Justice Center (NIJC)
                             July 13, 2020
    The National Immigrant Justice Center (NIJC) submits this statement 
to the subcommittee on the response of ICE contractors to the COVID-19 
pandemic, with specific focus on the company Immigration Centers of 
America (ICA), which operates the ICE detention facility in Farmville, 
Virginia. This facility currently has more than 260 reported active 
cases of COVID-19, and for months people inside and family members have 
been demanding the urgent release of their loved ones.\1\ People 
detained have reported that, in response to hunker strikes and demands 
for proper health care, guards in the facility have responded with 
pepper spray and retaliatory measures.\2\ Further, as the coronavirus 
is spreading in the facility, the company is pursuing new ICE contracts 
in new regions.
---------------------------------------------------------------------------
    \1\ Jenny Gathright, ``More Than 70 Percent Of People Detained At 
The Farmville Detention Center Are COVID-Positive,'' DCist, July 10, 
2020, https://dcist.com/story/20/07/10/more-than-70-of-people-detained-
at-the-farmville-detention-center-are-covid-positive.
    \2\ Tanvi Misra, ``Sixth ICE Detainee Tests Positive for COVID-19 
as Hunger Strikes Begin,'' Roll Call, https://www.rollcall.com/2020/04/
02/sixth-ice-detainee-tests-positive-for-covid-19-as-hunger-strikes-
begin.
---------------------------------------------------------------------------
    While the U.S. immigration private detention industry is dominated 
by notorious companies such as GEO Group and CoreCivic,\3\ another 
company, ICA, has a dark history of neglectful practices, and is 
aggressively pursuing new ICE contracts in new regions.\4\ Since ICA 
began detaining people for ICE in 2010, they have been the target of 
several lawsuits and an investigation by the DHS Office of Civil Rights 
and Civil Liberties (CRCL).\5\ In spite of this, ICA has pursued ICE 
contracts in efforts to expand across the upper Midwest, in 
Wisconsin,\6\ Michigan,\7\ Illinois,\8\ and in Maryland.\9\ ICA even 
advanced its plan for a new facility in Maryland during the height of 
the pandemic, when town commissioners voted to approve an ordinance 
allowing for a new ICE detention facility in Sudlersville, Queen Anne's 
County.\10\
---------------------------------------------------------------------------
    \3\ Alan Zibel, ``Detained for Profit: Spending Surges Under U.S. 
Immigration Crackdown,'' Public Citizen, September 19, 2019, https://
www.citizen.org/article/detained-for-profit-spending-surges-under-u-s-
immigration-crackdown/?eType=EmailBlastContent&eId=99b84c28-441b-483f-
8ed9-7a15ed73524d. See also Center for Responsive Politics, 
OpenSecrets.org, https://www.opensecrets.org/Federal-lobbying/clients/
bills?cycle=2018&id=D000022003 [accessed July 1, 2020].
    \4\ Jesse Franzblau, ``The Dark Money Trail Behind Private 
Detention: Immigration Centers of America-Farmville, National Immigrant 
Justice Center, October 7, 2019, https://immigrantjustice.org/research-
items/policy-brief-dark-money-trail-behind-private-detention-
immigration-centers-america.
    \5\ Office of Civil Rights and Civil Liberties (CRCL) memo, 
``Farmville Detention Center, CRCL Complaint Closure and Final 
Recommendation,'' U.S. Department of Homeland Security, September 6, 
2016, https://www.dhs.gov/publication/close-memo-onsite-investigation-
farmville-detention-center-farmville-virginia.
    \6\ Rich Kremer, ``500-Bed Immigrant Detention Center Proposed In 
St. Croix County,'' Wisconsin Public Radio, April 11, 2019, https://
www.wpr.org/500-bed-immigrant-detention-center-proposed-st-croix-
county.
    \7\ Carolina Llanes ``ICE contractor looking to build new detention 
center in Ionia County, Michigan Public Radio, May 8, 2020 https://
www.michiganradio.org/post/ice-contractor-looking-build-new-detention-
center-ionia-county.
    \8\ Elvia Malagon, ``A tiny Illinois town has become the latest 
battleground in the effort to build an immigration detention center 
near Chicago,'' March 19, 2020, https://www.chicagotribune.com/news/ct-
met-dwight-illinois-immigration-detention-centers-20190314-story.html.
    \9\ Lilian Reed, ``ICE published an ad looking for interest in 
building a Baltimore detention facility. Here's who answered,'' The 
Baltimore Sun, August 1, 2019, https://www.baltimoresun.com/politics/
bs-md-pol-ice-detention-facility-20170724-20190801-wbuvld7sjz- 
gnxoju6z43zfvrea-story.html.
    \10\ Horus Alas, ``Despite furor, Eastern Shore town approves 
zoning for possible immigrant detention facility,'' WTOP News, May 4, 
2020, https://wtop.com/maryland/2020/05/despite-furor-eastern-shore-
town-approves-zoning-for-possible-immigrant-detention-facility.
---------------------------------------------------------------------------
         immigration centers of america's response to covid-19
    A recent spike in COVID-19 cases in ICA-Farmville has raised new 
concerns about safety and about the facility's management. In April 
2020, community groups and family members raised alarm about dangerous 
conditions in the detention facility, as at least 100 people inside 
took up a hunger strike over fears of a COVID-19 outbreak.\11\ The 
hunger strike was cut short, however, when, according to local 
advocates, officials locked 2 organizers of the demonstration in 
solitary confinement.\12\ According to inside accounts, ICA-Farmville 
has placed people with COVID-19 symptoms in quarantine and moved people 
to isolation. While officers use personal protective equipment (PPE), 
no protection has been provided for those detained, despite being 
unable to socially distance or protect themselves from the spread of 
the virus.\13\
---------------------------------------------------------------------------
    \11\ Marissa Lang, `` `It's a time bomb': ICE detainees seek 
release amid growing coronavirus fears,'' The Washington Post, April 
12, 2020, https://www.washingtonpost.com/local/ice-coronavirus-
detention-centers-release/2020/04/08/f4dcaef8-74ee-11ea-87da-
77a8136c1a6d_sto- ry.html.
    \12\ Tanvi Misra, ``Sixth ICE detainee tests positive for COVID-19 
as hunger strikes begin,'' Roll Call, April 2, 2020, https://
www.rollcall.com/2020/04/02/sixth-ice-detainee-tests-positive-for-
covid-19-as-hunger-strikes-begin.
    \13\ ``Release everyone at Farmville detention center,'' 
LaColectiVA, June 2020, https://actionnetwork.org/petitions/release-
everyone-at-farmville-detention-center. See also Alan Macleod, 
``Inmates at Privately Run ICE Camp Go on Hunger Strike Amid COVID-19 
Outbreak, Deteriorating Conditions,'' Mint Press News, April 3, 2020, 
https://www.mintpressnews.com/inmates-ice-camp-go-hunger-strike-amid-
covid-19/266369.
---------------------------------------------------------------------------
    The number of confirmed cases in the Farmville facility jumped in 
June 2020 after ICE transferred 74 people there from facilities in 
Arizona and Florida.\14\ As of July 10, 2020, 267 people had reportedly 
tested positive for COVID at ICA-Farmville.\15\ That number is likely 
even higher, however, because of under-testing and under-reporting by 
ICE. Those experiencing symptoms, including people with high fevers, 
are reportedly being handed Tylenol.\16\ Reports indicate that people 
are forcibly kept in dorms in close proximity with up to 100 other 
people. People inside describe symptoms of fever, headache and 
vomiting, fainting, and some have been taken to medical units.\17\
---------------------------------------------------------------------------
    \14\ Priscilla Alvarez, ``Immigrant detainees describe 
deteriorating conditions as coronavirus spreads in facilities,'' June 
27, 2020, CNN, https://www.cnn.com/2020/06/27/politics/ice-custody-
coronavirus/index.html.
    \15\ Jenny Gathright, ``More Than 70 percent Of People Detained At 
The Farmville Detention Center Are COVID-Positive,'' DCist, July 10, 
2020, https://dcist.com/story/20/07/10/more-than-70-of-people-detained-
at-the-farmville-detention-center-are-covid-positive.
    \16\ Priscilla Alvarez, ``Immigrant detainees describe 
deteriorating conditions as coronavirus spreads in facilities,'' June 
27, 2020, CNN, https://www.cnn.com/2020/06/27/politics/ice-custody-
coronavirus/index.html.
    \17\ Ibid.
---------------------------------------------------------------------------
    ICE and ICA's response to the COVID-19 outbreak in Farmville is 
reflective of the larger problems with the system of privatized mass 
detention that profits at the expense of basic civil and human rights.
privately-run immigration jails routinely place human and civil rights 
                              in jeopardy
    ICA's attempt to expand to new regions is part of a massive 
expansion of the ICE detention system, a sprawling patchwork of jails 
and prisons that currently holds more than 22,000 people but held more 
than 50,000 only months ago.\18\ The rapid expansion of the immigration 
detention system in overcrowded quarters lacking sufficient medical 
care has resulted in the spread of disease, well before the COVID-19 
pandemic broke out.\19\ In June 2019, after ICA-Farmville suspended 
lawyer visits in response to a mumps outbreak, immigrants detained at 
the facility organized a ``meal strike'' in protest of the restricted 
freedoms following the quarantine. Guards cracked down on the 
protesters, using pepper spray and placing some into solitary 
confinement. The protesters are suing ICE Field Office Director Russell 
Hott and ICA-Farmville Warden Jeffrey Crawford over the incident.\20\
---------------------------------------------------------------------------
    \18\ U.S. Immigration and Customs Enforcement (ICE), Detention 
Management, ``ICE Currently Detained Population'' as of July 4, 2020, 
https://www.ice.gov/coronavirus. The figure was as high as 50,000, as 
of March 2019. See Spencer Ackerman, ``ICE is detaining 50,000 people, 
an all time high.'' The Daily Beast, March 8, 2019, https://bit.ly/
2tYjoD6.
    \19\ Mica Rosenberg and Kristina Cooke, ``Mumps, other outbreaks 
force U.S. detention centers to quarantine over 2,000 migrants,'' 
Reuters, March 10, 2019, https://bit.ly/2EOs7gc.
    \20\ Downs v. Hott (1:19-cv-00882), PETITION for Writ of Habeas 
Corpus and Complaint for Injunctive Relief, filed July 3, 2019, https:/
/www.courtlistener.com/docket/15874861/downs-v-hott.
---------------------------------------------------------------------------
    ICE's detention system is overwhelmingly outsourced to for-profit 
prison companies such as ICA and local jails. As of January 2020, 81 
percent of people detained in ICE custody Nation-wide are held in 
facilities owned or managed by private prison corporations--a record 
high.\21\ ICE and its contractors are notorious for abusive and 
inhumane conditions and widely criticized for a lack of transparency 
and accountability. For-profit prisons have little incentive to focus 
on anything other than ensuring profitability for their 
shareholders.\22\ NIJC has obtained documents through information 
requests that shed light on the money transfer scheme between ICE, ICA, 
and the Town of Farmville which illuminate how the company profits from 
detaining immigrants.\23\ It can reasonably be assumed that ICA will 
continue to be motivated by profit-driven incentives as it seeks to 
grow its immigrant detention business.
---------------------------------------------------------------------------
    \21\ ``Justice-Free Zones: U.S. Immigration Detention Under The 
Trump Administration,'' National Immigrant Justice Center, American 
Civil Liberties Union, and Human Rights Watch, April 30, 3030, https://
immigrantjustice.org/research-items/report-justice-free-zones-us-
immigration-detention-under-trump-administration.
    \22\ Susan Ferriss & Madeline Buiano, ``Despite Outrage Over 
Immigrant Detention, Private Prisons' Bottom Line is Still Strong,'' 
The Center for Public Integrity, September 2, 2018, https://
publicintegrity.org/immigration/despite-outrage-over-immigrant-
detention-private-prisons-bottom-line-is-still-strong.
    \23\ Jesse Franzblau, ``The Dark Money Trail Behind Private 
Detention: Immigration Centers of America-Farmville, National Immigrant 
Justice Center, October 7, 2019, https://immigrantjustice.org/research-
items/policy-brief-dark-money-trail-behind-private-detention-
immigration-centers-america.
---------------------------------------------------------------------------
    immigration centers of america's history and attempted expansion
    ICA, like all private prison companies, has a history of hiring 
lobbyists and using powerful connections to promote its agenda to 
expand to new regions. ICA hired consultants with Spotts Fain 
Consulting in 2011 to lobby ICE to assure its Virginia detention center 
reached its maximum inmate capacity.\24\ The company also got help from 
the former Virginia Attorney General, Ken Cuccinelli, current Acting 
Deputy Secretary of DHS, who used his influence to lobby ICE to get the 
Farmville facility off the ground.\25\
---------------------------------------------------------------------------
    \24\ Lobbying Disclosure Report, Signed by Meade Spotts, https://
soprweb.senate.gov/index.cfm?event=getFilingDetails&filingID=43E27698-
2B5D-4E28-9F64-A4DE8B3F4973&filing- TypeID=62.
    \25\ Staff Report, ``Cuccinelli Cut Red Tape When ICE Facility Was 
on the Rocks,'' Farmville Herald, April 16, 2013, https://
www.farmvilleherald.com/2013/04/cuccinelli-cut-red-tape-when-ice-
facility-was-on-the-rocks.
---------------------------------------------------------------------------
    Similarly, ICA hired the Annapolis-based consultancy firm 
Cornerstone Government Affairs to lobby officials in Maryland to take 
on the proposed facility in the Baltimore area. According to documents 
obtained by NIJC, Cornerstone lobbyists then went to the small town of 
Sudlersville in an effort to convince local officials of their 
proposal.\26\ Lobbyists with Cornerstone then worked closely with 
Sudlersville officials in an effort to pass an ordinance to allow for 
the building of the new facility.\27\ That ordinance passed during the 
COVID-19 pandemic, in a highly protested meeting in May 2020.\28\
---------------------------------------------------------------------------
    \26\ Lillian Reed, ``An Eastern Shore town was awash in debt. Then 
a private immigrant detention contractor for ICE called,'' The 
Baltimore Sun, December 19, 2019, https://www.baltimoresun.com/
politics/bs-md-ci-sudlersville-detention-20191213-20191216-cbczujqx- 
sjeczb2v47uy7lzqri-story.html.
    \27\ Town of Sudlersville, records in response to a Freedom of 
Information Act (FOIA) request, filed January 8, 2020, https://
www.documentcloud.org/documents/6795333-Records-Response-
Sudlersville.html.
    \28\ Horus Alas, ``Despite furor, Eastern Shore town approves 
zoning for possible immigrant detention facility,'' WTOP News, May 4, 
2020, https://wtop.com/maryland/2020/05/despite-furor-eastern-shore-
town-approves-zoning-for-possible-immigrant-detention-facility.
---------------------------------------------------------------------------
  expansion undermines rather than protects public safety: community-
  based alternatives to detention are cheaper, effective, and humane.
    Proposals to expand private ICE detention serve no public safety 
function. On the contrary, a reduction of the use of jails and prisons 
for immigrants in favor of release and community-based alternatives to 
detention would promote family unity, ensure fairness, and save 
taxpayers millions. More people behind the bars of immigration jails 
mean more families separated, life-long trauma inflicted on individuals 
\29\ and more communities torn apart. The new detention beds envisioned 
by ICA in Maryland and Michigan will largely correspond to ramped-up 
interior enforcement operations. In its own Congressional Budget 
Justification for fiscal year 2021, ICE states plainly that it wants 
more funds for detention expansion because it intends to increase 
interior enforcement.\30\ These operations will in no way reflect the 
``public safety'' mission ICE touts.
---------------------------------------------------------------------------
    \29\ American Immigration Council, ``U.S. citizen children impacted 
by immigration enforcement,'' March 28, 2017, https://
www.americanimmigrationcouncil.org/research/us-citizen-children-
impacted-immigration-enforcement.
    \30\ U.S. Immigration and Customs Enforcement, ``Budget Overview, 
Fiscal Year 2021, Congressional Justification,'' U.S. Department of 
Homeland Security, at pp. ICE-O & S-22, https://www.dhs.gov/sites/
default/files/publications/u.s._immigration_and_customs_enforcement.- 
pdf.
---------------------------------------------------------------------------
    A spectrum of alternatives to detention (ATDs), including release 
on recognizance, parole, and the use community-based support programs, 
has long existed as a better option to the mass incarceration of 
immigrants.\31\ Evidence-based analyses of alternative to detention 
programming operating in the United States and internationally 
demonstrates that these programs are most effective when they are non-
profit operated and provide holistic case-management-oriented support 
that recognizes the dignity and civil rights of each person 
participating; when operated in accord with these best practices, 
alternative to detention programs are more than 80 percent cheaper than 
detention and support compliance rates of more than 90 percent.\32\ At 
this moment, ICE is detaining nearly 22,000 people every day in its 
jails and private prisons. Moves to expand this already bloated system 
are an insult to our National values and to the taxpayer's wallet.
---------------------------------------------------------------------------
    \31\ ``The Real Alternatives to Detention,'' American Immigration 
Lawyers Association, Women's Refugee Commission, Lutheran Immigration 
and Refugee Service, National Immigrant Justice Center, and Migration 
and Refugee Services, June 18, 2019, https://www.aila.org/infonet/the-
real-alternatives-to-detention.
    \32\ David Secor, Heidi Altman and Tara Tidwell Cullen, ``A Better 
Way: Community-Based Programming as an Alternative to Immigrant 
Incarceration,'' National Immigrant Justice Center, April 22, 2019, 
https://immigrantjustice.org/research-items/report-better-way-
community-based-programming-alternative-immigrant-incarceration.
---------------------------------------------------------------------------
    The National Immigrant Justice Center calls for an end to the use 
of immigration detention. As a step toward that goal, we are 
unequivocally opposed to the expansion of private immigration detention 
centers, including those proposed by ICA. We urge the committee to 
demand answers from ICA about their response to COVID-19 and to closely 
examine the company's aggressive efforts to expand to new regions.
    For more information, please contact Jesse Franzblau, NIJC Senior 
Policy Analyst, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="573d312536392d353b3622173f323625233b363933363b3b3e363934327938253079">[email&#160;protected]</a>

    Miss Rice. The Members of the subcommittee may have 
additional questions for the witnesses, and we ask that you 
respond expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                    Questions For Damon T. Hininger

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Question From Honorable Nanette Barragan for George C. Zoley
    Question. Rep. Barragan mentioned allegations that female detainees 
at the LaSalle ICE Processing Center went several days without being 
provided soap or other hygiene items, and at least 15 of these 
detainees subsequently tested positive for COVID-19. Rep. Barragan 
requested information describing the steps taken when a detainee raises 
concerns about not having proper hygiene products.
    Answer. We are unaware of any soap shortages at LaSalle. We take 
several steps to ensure that each detainee has easy access to soap and 
other hygiene supplies. First, our employees check multiple times per 
day to make sure there is always soap available at each sink. Second, 
each detainee is provided with personal soap supplies. Third, detainees 
have been informed that they can ask any employee for additional 
supplies, which are made readily available 24 hours a day, 7 days a 
week. Detainees are frequently reminded that any concerns can be 
addressed through several channels, including discussing issues with 
dorm staff, at scheduled town hall meetings, via ICE's Detention and 
Reporting Information Line, and using the facility's standard grievance 
process.
        Questions From Honorable Joe Neguse for George C. Zoley
    Question 1. Rep. Neguse asked if GEO would commit to giving 
detainees' families and lawyers 24-hour notice prior to transferring a 
detainee. Rep. Neguse also asked about reports that detainees were 
transferred from the Aurora ICE Processing Center to places such as the 
Teller County jail.
    Answer. Only ICE can release information about detainee transfers. 
Federal regulations explicitly prohibit GEO from doing so:

``No person, including . . . any privately-operated detention facility, 
that houses, maintains, provides services to, or otherwise holds any 
detainee on behalf of the Service (whether by contract or otherwise), . 
. . shall disclose or otherwise permit to be made public the name of, 
or other information relating to, such detainee. Such information shall 
be under the control of the Service and shall be subject to public 
disclosure only pursuant to the provisions of applicable Federal laws, 
regulations and executive orders.'' 8 C.F.R.  236.6.

    Question 2. Rep. Neguse requested information about ICE policies on 
disciplinary sanctions related to detainee cleaning tasks.
    Answer. GEO follows ICE's Performance-Based National Detention 
Standards (PBNDS), including those governing detainee cleaning 
responsibilities and the mandated graduated scales of offenses and 
disciplinary consequences. ``Refusing to clean assigned living area'' 
is one of the Prohibited Acts enumerated in Section 3.1 of the PBNDS.
     Questions From Chairwoman Kathleen M. Rice for George C. Zoley
    Question. Subcommittee Chair Rice requested that each contractor 
represented at the hearing post a tracker on its website giving daily 
updates on COVID-19 cases in its facilities.
    Answer. The ICE Health Services Corps (IHSC) supervises the 
provision of medical care at all ICE facilities, and directly provides 
medical care to detainees at 5 GEO facilities. Information regarding 
detainees' medical information is the property of and is controlled by 
ICE. ICE posts COVID-19 data on its website at https://www.ice.gov/
coronavirus#wcm-survey-target-id.
    Question 1a. ICE has publicly stated that it is expanding 
voluntarily COVID-19 testing across detention facilities and recently 
completed testing all individuals detained at family detention centers, 
resulting in 55 positive cases at the Karnes Family Residential Center.
    Is your company involved in or supporting this testing program?
    Answer. Yes. GEO provides medical care and testing at most of its 
facilities. ICE Health Services Corps (IHSC) provides medical oversight 
at all ICE facilities and is solely responsible for medical care and 
testing at Alexandria Staging Facility, LaSalle ICE Processing Center, 
Montgomery Processing Center, Northwest ICE Processing Center, and the 
South Texas ICE Processing Center. In all facilities, GEO collaborates 
with ICE and State and/or local health departments on testing.
    Question 1b. If yes, which of your detention facilities are 
participating in the voluntary program? How many detainees at each 
facility have been tested? How many detainees at each facility have 
tested positive for COVID-19?
    Answer. As of August 4, 2020, 3,437 ICE detainees have been 
voluntarily tested as part of a saturation testing program (i.e., not 
including testing performed during intake or ordered by medical staff), 
with 216 testing positive for COVID-19. In many cases, the number of 
positive tests for detainees who are voluntarily tested are similar to 
or below the numbers of positive COVID-19 tests in the surrounding 
community. For example, at the LaSalle ICE Processing Center, 0.1 
percent of the ICE detainees tested have been positive for COVID-19. In 
LaSalle Parish, Louisiana, 5.4 percent of individuals tested have been 
positive.\1\ Further, the numbers provided below are for ICE detainees 
voluntarily tested.
---------------------------------------------------------------------------
    \1\ Louisiana Department of Health, Louisiana Coronavirus (COVID-
19) Information (Aug. 11, 2020), https://ldh.la.gov/coronavirus/.
---------------------------------------------------------------------------
  <bullet> Western Region:
    <bullet> Aurora ICE Processing Center: 419 Tested/4 Positive
    <bullet> Northwest ICE Processing Center: 450 Tested/1 Positive.
  <bullet> Eastern Region:
    <bullet> Broward Transitional Center: 320 Tested/1 Positive
    <bullet> Folkston ICE Processing Center: 273 Tested/46 Positive
    <bullet> LaSalle ICE Processing Center: 550 Tested/1 Positive
    <bullet> Pine Prairie ICE Processing Center: 396 Tested/66 Positive
    <bullet> South Louisiana ICE Processing Center: 187 Tested/3 
            Positive.
  <bullet> Central Region:
    <bullet> Karnes County Family Residential Center: 67 Tested/11 
            Positive
    <bullet> Montgomery ICE Processing Center: 285 Tested/68 Positive
    <bullet> South Texas ICE Processing Center: 450 Tested/14 Positive.
    Question 1c. How does your company work with ICE to coordinate and 
prioritize COVID-19 testing?
    Answer. GEO coordinates with ICE's Office of Acquisition Management 
(OAM), along with ICE Field Operations and IHSC, to plan intake and 
saturation COVID-19 testing.
    Question 2a. When GEO identifies a COVID-positive individual 
(either among staff or those held in the facility), what are your 
company's policies to limit the spread of the virus?
    Answer. Detainees who test positive are placed in medical 
isolation. Staff who are confirmed positive are sent home, if they are 
not already quarantining. GEO facilities follow guidance established by 
the Centers for Disease Control and Prevention (CDC), IHSC, and GEO 
clinical leadership. We also collaborate with State and local health 
departments regarding management of COVID-19 positive individuals.
    Question 2b. When were those policies disseminated to your 
facilities?
    Answer. Initial policies and procedures were distributed to the 
field in early February, and updates have been provided as 
recommendations were made by CDC, ICE, or State or local health 
departments. On April 10, 2020, ICE Enforcement and Removal Operations 
(ERO) issued its COVID-19 Pandemic Response Requirements (PRR), which 
establish expectations and assist facilities with sustaining detention 
operations while mitigating health risks. On June 22, 2020, the PRR was 
updated to Version 2.0, with expanded guidance on operations and 
compliance measures, management of suspected or confirmed COVID-19 
cases, and visitation protocols. On July 28, 2020, ICE released PRR 
Version 3.0,\2\ which identifies additional high-risk populations, 
provides updated guidance on personal protective equipment (PPE) and 
hygiene practices, offers additional guidance when transporting 
detainees with confirmed or suspected cases of COVID-19, directly 
references CDC guidance for individuals in medical isolation, and 
includes an updated testing section based on the latest CDC guidance.
---------------------------------------------------------------------------
    \2\ ICE's PRR is available at https://www.ice.gov/coronavirus/prr.
---------------------------------------------------------------------------
    Question 2c. Please describe the contact tracing you engage in.
    Answer. Detainee contract tracing is conducted by the facility 
Health Services Department in collaboration with State and local health 
departments. Staff contact tracing is conducted as a collaborative 
effort between the facility's Health Services Administrator and Fire & 
Safety Officer, GEO's Human Resources Department, and State and/or 
local health departments.
    Question 2d. What is the primary form of isolating individuals who 
may have been exposed to the positive individual used by GEO 
facilities?
    Answer. Facilities individually quarantine close contacts of 
individuals with confirmed or suspected cases of COVID-19. If cohorting 
of close contacts under quarantine is necessary, symptoms are 
monitored, and individuals with symptoms of COVID-19 or who test 
positive are placed in medical isolation.
    Question 2d(i). If cohorting is used, please provide the maximum 
time frame an individual remained cohorted in each of your facilities?
    Answer. Individuals are placed in quarantined status for 14 days to 
monitor for signs and symptoms of COVID-19. If an individual is removed 
from the cohort due to either presenting COVID-19 symptoms or testing 
positive, the 14-day quarantine clock is restarted for the remainder of 
the quarantined cohort.
    Question 2d(ii). If no, what other forms of isolation and 
monitoring do you rely on?
    Answer. N/A.
    Question 2e. Do you believe that cohorting is an effective means of 
protecting more individuals from contracting the disease? Is it more or 
less effective than other tools available to you?
    Answer. Our facilities follow CDC guidelines and believe cohorting 
along with other CDC guidance are the most effective tools to mitigate 
the spread of COVID-19.
    Question 3a. What additional steps has your company taken to reduce 
the risk of COVID-19 at detention facilities beyond those taken or 
recommended by ICE?
    Answer. In February, well before a pandemic event was declared, GEO 
began preemptive measures to prepare our facilities. Utilizing CDC 
direction and guidance, we enhanced sanitation methods, identified 
supply chains for PPE, provided COVID-19 training, and developed 
prevention teams to determine individual facility needs. GEO leadership 
established weekly calls involving corporate and regional leadership to 
discuss current trends and recommended adjustments to facility response 
plans to mitigate the spread of the virus. As the impact of the 
pandemic intensified, weekly calls and team meetings increased in 
frequency to occur daily. Additional facility-wide testing plans were 
developed and implemented in conjunction with ICE and local health 
departments to assist in identification of asymptomatic cases.
    Question 3b. How have procedures been adjusted in light of the 
rapid increase in infections over the past 3 months?
    Answer.
  <bullet> In February, GEO focused on an awareness and education 
        campaign, providing evolving updates from the CDC to all 
        facilities highlighting the importance of social distancing, 
        proper handwashing, and sanitation practices. This information 
        was posted throughout our facilities, including staff work 
        areas and detainee living areas.
  <bullet> Knowing the retention benefits of repeated messaging, GEO 
        continually played educational videos on big screen TVs in 
        detainee living areas at all facilities. Additionally, 
        leadership staff conducted educational town hall meetings with 
        detainees and provided continued staff education daily at shift 
        briefings, as well as in all meetings with staff.
  <bullet> In February, through a new, company-wide policy titled 
        Coronavirus (COVID-19) Management, GEO's chief medical officer 
        provided technical direction outlining the treatment and 
        containment approach for COVID-19 based on the latest 
        information provided by the CDC.
  <bullet> A Pandemic Plan Template was disseminated to all facility 
        administrators who, by March 6, implemented it in their 
        facilities and began table-top emergency preparedness 
        exercises, even before there was a pandemic declaration.
  <bullet> Beginning March 20, daily Corporate Command Center COVID-19 
        meetings were conducted with regional vice presidents.
  <bullet> HVAC air volume cycles were adjusted to increase exchanges 
        above the American Society of Heating, Refrigerating, and Air-
        Conditioning Engineers (ASHRAE) standards for indoor air 
        quality. Air scrubbers were purchased or rented for specific 
        facilities with higher COVID-19-positive rates.
  <bullet> Facilities purchased additional soap, sanitizer, and 
        dispensers to ensure availability.
  <bullet> In March, GEO's corporate food service team negotiated a 5-
        week on-hand supply of food at Single Source and negotiated 
        extending that supply for up to 3 additional months.
  <bullet> In early April, PPE, including face masks, eye protection, 
        and gloves, were issued to all detention staff. In addition, 
        all detainees were issued face masks in quantities sufficient 
        to replace used masks 3 times per week. To ensure proper PPE 
        use and care, training was provided to all staff and detainees.
  <bullet> As CDC updates and ICE's April 10, 2020 PRR Version 1.0 were 
        released, recommended changes to procedures were implemented at 
        all facilities. PRR Version 2.0 was released on June 22, 2020. 
        It was disseminated to the field and a follow-up conference 
        call was held with regional leadership to discuss changes from 
        the earlier version. This was repeated when ERO released PRR 
        Version 3.0 on July 28, 2020. Facility leadership regularly 
        conducts educational town hall meetings with all detainees and 
        provides continued staff education at daily shift briefings.
  <bullet> On July 1, a memo was sent to the field again promoting the 
        importance of social distancing. On July 6, we updated guidance 
        on isolation procedures. On July 14, updated guidance from the 
        CDC was received and recommended changes to procedures were 
        implemented. On July 16, GEO sent out an update regarding the 
        proper use of PPE, and we sent out an updated visitor screening 
        tool on July 17. A new contact tracing log was also provided to 
        the field in July.
    Question 3c. What are the principal limitations or additional 
resources needed to further reduce the potential for COVID-19 
transmission within your facilities?
    Answer. GEO defers to ICE's determination of what, if any, 
additional resources are needed to reduce COVID-19 transmission. GEO 
works with ICE to obtain necessary resources.
    Question 4a. The committee understands that due to COVID-19 many 
scheduled inspections and audits of facilities have been halted. How is 
your company working with ICE inspectors and contracting officers to 
ensure that CDC guidelines related to COVID-19 are being followed at 
your facilities?
    Answer. GEO facility leadership and on-site compliance staff 
continue to conduct regular inspections and audits and work with 
multiple offices within ICE (e.g., IHSC, ERO, and the Office of 
Detention Oversight (ODO)) to monitor conditions and ensure CDC 
guidelines are followed. Further, GEO's Contract Compliance Department 
provides oversight and support to facility-level compliance efforts by 
reviewing facility audit results, identifying all audit tool questions 
that may be audited remotely by compliance managers from GEO's 
headquarters, and creating new audit tools to test compliance with CDC 
guidelines and continual CDC updates.
    GEO's Contract Administration Department has also worked with OAM 
to provide a framework that guides GEO's support of ICE's COVID-19 
response.
    Question 4b. How many complaints have you received on the failure 
to adhere to this guidance from employees, detainees, or third parties? 
Please provide a breakdown on what those complaints consisted of such 
as access to medical care, hygiene supplies, etc.
  <bullet> Eastern Region.--Broward Transitional Center (Broward) 
        reports 0 complaints related to failure to follow CDC guidance; 
        Alexandria Staging Facility (Alexandria) reports 1 employee 
        complaint regarding staff quarantine criteria; Folkston ICE 
        Processing Center (Folkston) reports 2 employee complaints 
        related to staff PPE use (same employee); LaSalle ICE 
        Processing Center (LaSalle) reports 1 detainee complaint 
        related to personal hygiene supply, 1 external complaint 
        related to attorney video call scheduling, 1 employee complaint 
        related to PPE use and chemicals used for sanitation and 1 
        related to hand sanitizer and suspending visitation; Pine 
        Prairie ICE Processing Center (Pine Prairie) reports 1 external 
        complaint related to attorney video call scheduling (single 
        complaint named both LaSalle and Pine Prairie); South Louisiana 
        ICE Processing Center (South Louisiana) reports 1 detainee 
        complaint related to personal hygiene supply, 1 employee 
        complaint related to staff entering dorms that are under 
        quarantine and 1 related to detainee transfers.
  <bullet> Central Region.--Karnes County Residential Center (Karnes 
        Residential), and Montgomery ICE Processing Center (Montgomery) 
        report 0 complaints related to failure to follow CDC guidance; 
        Joe Corley Detention Facility (Joe Corley) reports 1 detainee 
        complaint related to hand soap; Rio Grande Detention Center 
        (Rio Grande) reports 2 complaints from detainees related to 
        proper usage of PPE by staff; South Texas ICE Processing Center 
        (South Texas) reports 1 employee complaint alleging that 
        employees with high-risk medical conditions were being posted 
        in dorms.
  <bullet> Western Region.--Adelanto ICE Processing Center (Adelanto) 
        reports 3 detainee complaints related to social distancing and 
        sanitation procedures, 1 requesting to be tested for COVID-19 
        despite not meeting the medical criteria for testing, and 15 
        related to staff PPE use (11 from one pod on a single day, 3 
        from 1 detainee on a single day), 1 employee complaint related 
        to type of masks used by staff and 1 related to mask wearing 
        requirements; Aurora ICE Processing Center (Aurora) reports 24 
        detainee complaints related to social distancing and the 
        revised COVID-19 recreation schedule, 2 related to hygiene 
        supplies (access to hand sanitizer and soap quality), and 2 
        related to staff PPE use; Mesa Verde ICE Processing Center 
        (Mesa Verde) reports 3 detainee complaints related to bathroom 
        cleaning (all from same dorm on a single day) and 2 related to 
        hygiene supplies (access to liquid soap in bathroom and asking 
        for disinfectant to be kept in bathroom); Tacoma ICE Processing 
        Center (Tacoma) reports 1 detainee complaint demanding to be 
        tested for COVID-19 (facility was saturation tested).
    Question 5a. ICE has committed to providing 520 free minutes per 
month for each migrant in detention during the COVID-19 pandemic. 
However, legal service providers report this policy is not being 
implemented consistently. Some facilities are not providing any free 
minutes, some are providing less than 520 minutes, and some are 
providing a limited number of phone calls per week and preventing 
detainees from rolling over unused minutes. I've also heard from legal 
service providers that some clients are not being given access to free 
phone calls to counsel on non-recorded lines. These calls are critical 
for those in custody.
    What is the free phone minutes policy within your facilities? Is 
this being implemented uniformly across your facilities? Do your 
facilities guarantee access to unsupervised communication with 
attorneys?
    Answer. Detainee phone service at all but 2 facilities (Rio Grande 
and Joe Corley) is provided by ICE's contractor, Talton Communications 
(Talton). An April 17, 2020 Talton email states:

``Starting Wednesday, April 22 we will be issuing 13 10-minute calls to 
all detainees with active PIN numbers . . . These calls will have a 1-
week expiration. After the first initial issuance of 13 10-minute free 
calls, this will continue weekly, on Wednesday, until further notice.''

    As implemented by Talton, the unused portion of a free call is 
forfeited if the call ends before 10 minutes.
    Detainee phone service at Rio Grande and Joe Corley is provided by 
GlobalTel Link (GTL), a GEO subcontractor. GEO and GTL modified the 
terms of their agreement, with ICE approval, to mirror the program 
implemented by Talton. Each week, GTL provides detainees 130 free 
minutes; balances are reset to 130 minutes every week, so unused 
minutes do not roll over. Per GTL, wall-mounted phones have a 20-minute 
time limit, and tablets have a 1-hour time limit. As implemented by 
GTL, the actual length of the call-in minutes is deducted from the 
detainee's balance until the balance is depleted.
    All facilities guarantee access to unmonitored legal calls with 
attorneys.
    Question 5b. Are your facilities requiring detainees to forfeit 
unused minutes at the end of the month?
    Answer. Free minutes are reset every week; they do not roll over.
    Question 5c. How are your facilities informing detainees of the 
availability of free phone minutes?
    Answer. Detainees are advised of the free-minutes program via 
notice provided during intake and posted in detainee rooms and on 
common bulletin boards in the housing units.
    Question 6a. Detainees at the Torrance County Detention Facility in 
New Mexico were on a days-long hunger strike to protest horrible food 
and their vulnerability to COVID-19 when guards reportedly corralled 
the protesting detainees and then proceeded to pepper spray them. There 
are similar accounts from facilities across the United States.
    How many instances of hunger strikes in response to poor conditions 
have your facilities encountered since January 1, 2020?
    Answer. GEO does not manage the Torrance County Detention Facility.
    Per ICE's Performance-Based National Detention Standards (PBNDS), a 
hunger strike occurs when a detainee is ``observed to not have eaten 
for 72 hours.'' There have been no hunger strikes related to conditions 
at our ICE facilities since January 1, 2020.
    GEO is aware of media accounts alleging hunger strikes and monitors 
these issues in accordance with the PBNDS. While a detainee may use the 
term ``hunger strike'' while rejecting provided meals, if the detainee 
is observed eating food purchased from the facility's commissary, the 
detainee is not considered to be on a hunger strike.
    Question 6b. How many times have rubber bullets, pepper spray, or 
tear gas been used by officers at your facilities against detainees 
since January 1, 2020?
    Answer. ICE's PBNDS prohibit use of any chemical agent other than 
oleoresin capsicum (pepper spray or OC). GEO does not use either tear 
gas or ``rubber bullets'' in ICE facilities, nor does it keep them in 
armory inventory.
  <bullet> Eastern Region.--Broward and South Louisiana report 0 OC 
        deployment events. Folkston and Pine Prairie each report 1 OC 
        deployment event, and LaSalle reports 4 OC deployment events.
  <bullet> Central Region.--Karnes Residential and Rio Grande report 0 
        such events. Joe Corley and Montgomery each report 1 OC 
        deployment event, and South Texas reports 3.
  <bullet> Western Region.--Aurora and Mesa Verde each report 2 OC 
        deployment events, Tacoma reports 5, and Adelanto reports 12.
    Question 6c. How many of these incidents have resulted in follow-on 
medical care or hospitalization for people in detention?
    Answer. Detainees involved in OC deployment events go through 
standard decontamination procedures and are evaluated by facility 
medical staff. Four detainees received additional off-site medical 
care. Each returned to their facility the same day with no lasting 
injury.
    Question 7a. I was contacted by Young Anh, whose brother, Choung 
Woong Anh, died by suicide on May 17, 2020 while in medical isolation 
at the Mesa Verde ICE Processing Center in California. According to his 
brother, Mr. Anh was taken to the hospital for chest pains 3 days 
before his death. While he was in the hospital, he was tested for 
COVID-19 and the results were negative. Once he returned, your 
facility's doctor ordered him to 14 days in isolation. Mr. Anh's 
brother reports that he was emotionally distressed by this, and that 
his medical records indicated he was considered high-risk for suicide.
    What was the basis for placing Mr. Anh in isolation? Please provide 
any records documenting this justification.
    Answer. Mr. Ahn was placed in a medical observation room within the 
health services area following his return from an outside medical 
consult. This placement is consistent with CDC guidelines for the 
prevention and spread of COVID-19 and the PBNDS.
    Question 7b. What evidence confirms that regular checks were 
conducted to examine Mr. Anh's well-being during this period of 
isolation? Please provide any records confirming that regular checks 
were conducted.
    Answer. Observational rounds were conducted in accordance with 
ICE's established requirements. IHSC supervises provision of medical 
care at all GEO facilities (and directly provides medical care at 5 of 
them). Private information regarding a detainee's medical treatment 
belongs to and is controlled by ICE.
    Question 7c. Will you commit, on behalf of the GEO Group, to 
immediately end Mesa Verde's practice of placing individuals with 
documented risk of suicide into prolonged solitary confinement--
including for purposes of medical isolation?
    Answer. We will continue to follow CDC guidelines and contractual 
requirements, including adherence to the PBNDS.
     Questions From Chairman Bennie G. Thompson for George C. Zoley
    Question 1a. Congress has entrusted ICE with billions of taxpayer 
dollars for its custody operations. Knowing that there have been 
serious operational challenges at ICE detention centers for years, I 
would like to understand more about how your contracts have changed in 
response to COVID-19.
    Has your company requested any contract modifications from ICE in 
order to respond to COVID-19 in your facilities?
    Answer. GEO works with ICE to expand its scope of services by 
following CDC- and ICE-recommended COVID-19 procedures. ICE has agreed 
to reimburse GEO's costs associated with providing PPE and COVID-19 
testing for detainees. Although ICE also indicated a willingness to 
reimburse GEO for other COVID-19-related expenses (e.g., additional 
cleaning supplies, transportation, and medical consulting expenses), 
GEO has elected not to seek reimbursement for these services. GEO's 
cooperative partnership with ICE has made formal contract modifications 
unnecessary.
    Question 1b. If yes, what modifications were requested? How did you 
determine that your company needed these changes? How much money have 
you requested?
    Answer. N/A.
    Question 1c. What long-term changes, if any, do anticipate you will 
need to make--such as additional staff or more space for detainees--to 
respond to COVID-19 in detention facilities, and to what extent has 
your company determined what these will cost?
    Answer. GEO will continue to work with ICE on any long-term changes 
to our contracts. We anticipate social distancing requirements will 
continue; however, it is currently unknown whether additional detention 
space will be required. While we anticipate additional staffing levels 
will not be needed, we are prepared to address the issue as necessary 
going forward.
    Question 1d. How many of your ICE facilities have contractually 
guaranteed minimums? To what extent are those minimums being met? Has 
COVID-19 affected ICE's ability to meet its contractually-guaranteed 
minimum number of detainees in your facilities?
    Answer. GEO operates 11 ICE facilities with minimum population 
guarantees. Given the necessity of social distancing during the COVID-
19 pandemic, ICE has mandated reduced detainee populations of no more 
than 75 percent of capacity at all facilities and has further reduced 
individual facility population percentages as necessary. GEO is unable 
to comment on ICE's ability to meet contractual minimums.
    Question 2a. One of the recommendations offered to ICE by medical 
officials is to significantly reduce the populations in detention 
facilities as a way to protect public health. On March 23, 2020, BI 
Incorporated, a GEO Group subsidiary, was awarded a 5-year, $2.2 
billion contract to continue operating ICE's alternatives to detention 
program, or ATD.
    Please describe any plans to expand any existing contracts for the 
ATD program due to COVID-19.
    Answer. BI Inc., a wholly-owned GEO subsidiary, was recently 
awarded the ISAP IV contract, which allows for significant expansion of 
the ATD program. ICE designed the contract to allow for sustained 
growth. The contract assumes a population exceeding 400,000 
participants, but currently serves 86,000 participants. Funding is the 
only limitation to expanding ISAP IV.
    Question 2b. To what extent can GEO Group accommodate a significant 
expansion of the ATD program during the COVID-19 pandemic?
    Answer. BI has the infrastructure, support staff, and manufacturing 
capability to expand the ATD program and adapt to the COVID-19 
pandemic. The current infrastructure includes 54 contractor-leased 
offices, 21 government sites (BI staff co-located with ICE staff), and 
104 technology-only sites (where BI provides the technology with ICE 
performing case management). This infrastructure can accommodate over 
100,000 participants. BI can scale the program further by expanding 
existing sites, opening new locations, and implementing additional 
remote case management services, in order to manage over 400,000 
participants.
    In March, ICE and BI responded to the pandemic by shifting all in-
person services to remote case management. Approximately 54,000 
participants were transitioned through BI efforts, including:
  <bullet> Scaling-up its single-platform case management system;
  <bullet> Leveraging the BI SmartLink communications and support 
        application to maintain contact with program participants and 
        allow for video conferencing and secure messaging; and
  <bullet> Distributing the ISAP workload across over 580 staff members 
        to maintain coverage of all duties while relieving those 
        impacted by COVID-19.
    Question 3a. On July 10, GEO Group provided the committee with the 
COVID-19 testing logs for 6 of your facilities, including Adelanto ICE 
Processing Center and Pine Prairie ICE Processing Center. These logs 
are part of the reports your facilities submit to ICE. In those 
documents, there is clear evidence of the comingling of COVID-19-
positive detainees with healthy individuals at 2 of your facilities. 
For example, a detainee who had tested negative for COVID-19 was housed 
in West 4B with at least 2 individuals who had tested positive for 
COVID-19 at the Adelanto ICE Processing Center in mid-June 2020. 
Comingling goes against your guidance; ICE guidance; and CDC guidance.
    Please explain to the committee why this co-mingling occurred.
  <bullet> Pine Prairie.--The Bravo Alpha range housed detainees who 
        had tested positive or were suspected and awaiting results. The 
        range contains 11 2-man rooms as well as 6 larger rooms that 
        can house up to 8 detainees each. Per CDC guidelines at the 
        time, only ``like groups'' were housed together, and the groups 
        were kept separate; Confirmed Positive and Suspect cohorts were 
        not mixed and did not have contact with each other.
    While not certified as such, the 11 2-man cells on Pine Prairie's 
        Bravo Alpha range function as negative pressure rooms, giving 
        an extra layer of protection above and beyond CDC requirements.
  <bullet> Adelanto.--West 4B (W4B) is a general population pod in the 
        facility's West building that has been designated for use as a 
        ``medical isolation'' area for confirmed positive and suspected 
        asymptomatic positive COVID-19 cases when all negative pressure 
        rooms are occupied (a practice specifically authorized by CDC 
        guidance). The pod has 16 4-person rooms and 2 8-person rooms, 
        with a total capacity of 80 beds. When W4B is used for medical 
        isolation, all detainees are single-celled, for a maximum 
        capacity of 18 detainees (i.e., one detainee per room/cell).
    If a detainee arrives at the facility with a positive COVID-19 test 
(verbal or paper copy) from another agency, a confirmatory test is 
conducted during intake and the detainee is considered a positive 
COVID-19 case until the result is received. While test results are 
pending, newly-arrived, symptomatic detainees are housed in a medical 
negative pressure room. Asymptomatic male detainees are housed in W4B 
in 1-man cells/rooms if all negative pressure rooms are occupied or 
until 2 consecutive negative test results are received.
    While in W4B, each detainee receives individual out-of-cell time to 
shower 3 times per week. Between each use of the shower, the assigned 
officer sanitizes the dayroom and shower.
    These procedures are in accordance with CDC guidelines.
    Question 3b. Has GEO Group ordered any changes in protocols to 
control the spread of COVID-19 among detainees and staff since these 
incidents were reported?
    Answer. GEO follows updated guidance from the CDC, client, and 
State and local health departments.
    Questions From Honorable Cedric L. Richmond for George C. Zoley
    Question 1a. Please describe for the committee the reasons ICE 
detainees are placed in solitary confinement inside your facilities.
    Answer. Contractually, ICE mandates adherence and implementation of 
the PBNDS, which impose the use of segregation for ICE detainees within 
special management units (SMUs), which may or may not include single-
detainee cells. Under the PBNDS, a disciplinary framework is utilized 
and, for various categories of disciplinary offenses, disciplinary 
segregation in an SMU is authorized. Non-disciplinary placement in an 
SMU is also permitted for detainees posing an ``immediate, significant 
threat to safety, security or good order'' (administrative) or for 
``protective custody'' purposes.
    Question 1b. How many times has an ICE detainee been placed in 
solitary confinement since January 1, 2020? Please include a breakdown 
of the reasons for each solitary confinement as well as demographic 
characteristics of affected detainee.
    Answer. The number of instances in which detainees were placed in a 
facility's SMU are reported below; detainees were counted multiple 
times if they were assigned to the SMU more than once.
  <bullet> Eastern Region:
    <bullet> Alexandria--0 (does not have an SMU)
    <bullet> Broward--0 (does not have an SMU)
    <bullet> Folkston--54 instances (all male; 38 disciplinary, 16 non-
            disciplinary)
    <bullet> LaSalle--203 instances (167 male, 36 female; 144 
            disciplinary, 59 non-disciplinary)
    <bullet> Pine Prairie--71 instances (all male; 35 disciplinary, 36 
            non-disciplinary)
    <bullet> South Louisiana--0 instances.
  <bullet> Central Region:
    <bullet> Joe Corley--1 instance (male; non-disciplinary)
    <bullet> Karnes Residential--0 (does not have an SMU)
    <bullet> Montgomery--202 instances (180 male, 22 female; 129 
            disciplinary, 73 non-disciplinary)
    <bullet> Rio Grande--13 instances (all male; 12 disciplinary, 1 
            non-disciplinary)
    <bullet> South Texas--444 instances (424 male, 20 female; 173 
            disciplinary, 271 non-disciplinary).
  <bullet> Western Region:
    <bullet> Adelanto--233 instances (173 male, 60 female; 139 
            disciplinary, 94 non-disciplinary)
    <bullet> Aurora--105 instances (101 male, 4 female; 96 
            disciplinary, 9 non-disciplinary)
    <bullet> Mesa Verde--26 instances (25 male, 1 female; 7 
            disciplinary, 19 non-disciplinary)
    <bullet> Tacoma--222 instances (199 male, 23 female; 131 
            disciplinary, 91 non-disciplinary).
    Question 1c. What was the average length of time an ICE detainee 
was kept in solitary confinement?
  <bullet> Eastern Region:
    <bullet> Alexandria--N/A
    <bullet> Broward--N/A
    <bullet> Folkston--7.8 days
    <bullet> LaSalle--14.4 days
    <bullet> Pine Prairie--19.5 days
    <bullet> South Louisiana--N/A.
  <bullet> Central Region:
    <bullet> Joe Corley--3 days
    <bullet> Karnes Residential--N/A
    <bullet> Montgomery--14.5 days
    <bullet> Rio Grande--8.6 days
    <bullet> South Texas--22 days.
  <bullet> Western Region:
    <bullet> Adelanto--21.7 days
    <bullet> Aurora--21.5 days
    <bullet> Mesa Verde--29.7 days
    <bullet> Tacoma--11 days.
    Question 1d. Is there a process in place for challenges or reviews 
of the decisions to place someone in solitary confinement? If yes, 
please describe that process.
    Answer. Yes, the PBNDS requires a SMU multi-disciplinary committee 
(including facility leadership, medical and mental health 
professionals, and security staff) to conduct an assessment upon 
initial placement in the SMU and then weekly status reviews during 
continued placement. Detainees may challenge placement utilizing the 
grievance procedure mandated by the PBNDS.
    Question 2. Last year, the Department of Homeland Security Office 
of Inspector General reported that 3 GEO Group facilities were engaged 
in isolation practices that ``violate ICE detention standards and 
infringe on detainee rights.'' What steps are you taking to help ensure 
that your facilities comply with the standards and respect the rights 
of people being detained in them? On June 3, 2019, the OIG issued a 
report titled, Concerns about ICE Detainee Treatment and Care at Four 
Detention Facilities.\3\ In this report, the OIG raised concerns about 
segregation practices at 2 GEO facilities: Adelanto and Aurora.\4\
---------------------------------------------------------------------------
    \3\ DHS OIG, Concerns about ICE Detainee Treatment and Care at Four 
Detention Facilities (June 3, 2019), https://www.oig.dhs.gov/sites/
default/files/assets/2019-06/OIG-19-47-Jun19.pdf.
    \4\ Please note that the third GEO facility discussed in the 
report, the LaSalle ICE Processing Center, was not noted as having 
problems with its isolation practices. The GEO Group does not have any 
affiliation or control with the Essex County Correctional Facility that 
is located in New Jersey.
---------------------------------------------------------------------------
  <bullet> Adelanto.--In ICE's formal response to the OIG report, ICE 
        states that the PBNDS allow for the use of restraints in the 
        SMU on a case-by-case basis.\5\ GEO staff at Adelanto have been 
        trained to use the minimum amount of force necessary under the 
        PBNDS and to resort to restraints only when justified by an 
        individualized determination of a detainee's security 
        status.\6\ ICE's response also notes that the recreation time 
        issue was also corrected and detainees in both administrative 
        and disciplinary segregation receive an hour of recreation 
        time, 7 days per week. In addition, detainees in administrative 
        segregation also receive additional day room time, 7 days a 
        week.\7\
---------------------------------------------------------------------------
    \5\ See OIG-19-47 at 20.
    \6\ Id.
    \7\ Id.
---------------------------------------------------------------------------
  <bullet> Aurora.--ICE's response to the DHS OIG report notes that 
        security staff at the Aurora facility received refresher 
        training regarding the use of restraints under the PBNDS.\8\ 
        On-going compliance reviews since June 2019 reveal that Aurora 
        staff are following the PBNDS as required.
---------------------------------------------------------------------------
    \8\ Id. at 22.
---------------------------------------------------------------------------
    Question 3. Are ICE detainees with mental health issues placed in 
solitary confinement? If so, are they then seen by a mental health 
professional while they are in solitary? How often are they seen by a 
mental health professional while they are in solitary? What is the 
average length of stay in solitary confinement for an individual with 
mental health issues?
    Answer. Pursuant to PBNDS requirements and GEO policy, a licensed 
mental health professional interviews and evaluates all detainees 
confined to an SMU within 7 days and at least every 30 days thereafter 
unless more frequent evaluations are warranted.\9\ Detainees with 
serious mental illnesses are provided weekly counseling to assess for 
worsening symptoms or decompensation, and each detainee's mental status 
is monitored to determine whether the detainee requires a higher level 
of care or additional treatment (e.g., referral to a psychiatrist or 
placement on suicide watch). A determination is then made regarding 
whether continued SMU placement is appropriate given the severity of 
the detainee's symptoms.
---------------------------------------------------------------------------
    \9\ In accordance with the PBNDS, a detainee's general health is 
evaluated by a medical professional prior to placement in an SMU (or, 
if that is not feasible, as soon as possible and no later than 24 hours 
after placement). This assessment includes review of whether the 
detainee has been previously diagnosed as having a mental illness.
---------------------------------------------------------------------------
         Questions From Honorable Al Green for George C. Zoley
    Question 1a. In documents provided to the committee, the GEO Group 
mentioned procuring its own COVID-19 test kits. Which facilities have 
their own kits to test detainees?
    Answer. Every GEO facility maintains an on-site supply of test kits 
to test symptomatic patients. If a decision is made to conduct 
saturation testing, additional test kits are shipped to the facility to 
allow completion of the testing.
    Question 1b. Who makes the decision on who gets to be tested? How 
is the decision being made?
    Answer. Individual testing of symptomatic patients is determined by 
facility medical staff based on current CDC guidance. GEO's clinical 
leadership works in conjunction with ICE and State and local health 
departments to evaluate identified facilities for saturation testing 
based on facility and/or community transmission.
    Question 1c. Are positive test rates being tracked? If so, how does 
this list compare with data ICE provides on its website?
    Answer. GEO tracks all cases daily, including the number of staff 
and detainees who have tested positive and negative, and who has 
recovered after testing positive. To ensure accuracy and transparency, 
this information is provided to ICE's on-site monitors per ICE 
directive.
    Question 1d. How are these infection rates informing your decision 
making to mitigate the spread of the coronavirus?
    Answer. GEO's corporate leadership team conducts multiple meetings 
each week with our regional leadership to discuss cases at each 
facility and to recommend changes or improvements to the plan of care.
     Questions From Chairwoman Kathleen M. Rice for Scott Marquardt
    Question 1a. ICE has publicly stated that it is expanding 
voluntarily COVID-19 testing across detention facilities and recently 
completed testing all individuals detained at family detention centers, 
resulting in 55 positive cases at the Karnes Family Residential Center.
    Is your company involved in or supporting this testing program?
    Question 1b. If yes, which of your detention facilities are 
participating in the voluntary program? How many detainees at each 
facility have been tested? How many detainees at each facility have 
tested positive for COVID-19?
    Question 1c. How does your company work with ICE to coordinate and 
prioritize COVID-19 testing?
    Answer. MTC does not operate any of ICE's Family Residential 
Centers. However, at Otero County Processing Center we have implemented 
comprehensive testing in partnership with ICE. We are also in 
discussions with ICE to expand testing at all of the facilities we 
operate.
    At Otero County Processing Center, we have tested all individuals 
for COVID-19. In other facilities, we follow ICE and CDC guidelines to 
test those with symptoms or with potential contact to a positive case 
of COVID-19. As of August 13, 2020, we have administered over 2,000 
tests at the ICE facilities we operate, and there are 22 active cases.

------------------------------------------------------------------------
                                           Active   Recovered    No. of
                Facility                   Cases      Cases      Tests
------------------------------------------------------------------------
Bluebonnet Detention Center............          1        301        416
El Valle Detention Facility............         15         14        292
IAH Detention Center...................          2         18         20
Imperial Regional Detention Facility...          4          2        109
Otero County Processing Center.........          0        165      1,237
------------------------------------------------------------------------

    ICE identified LabCorp as an approved vendor for COVID-19 testing. 
We have also ordered testing machines for our facilities. This 
equipment should be available by the end of August. Then we will be 
able to administer testing more expediently at our facilities.
    Question 2a. In documents provided to the committee, CoreCivic and 
the GEO Group mentioned procuring their own COVID-19 test kits. Has MTC 
procured test kits and begun testing detainees? If so, at which 
facilities?
    Question 2b. Who makes the decision on who gets to be tested? How 
is the decision being made?
    Question 2c. Are positive test rates being tracked? If so, how does 
this list compare with data ICE provides on its website?
    Question 2d. How are these infection rates informing your decision 
making to mitigate the spread of the coronavirus?
    Answer. Starting in March, MTC procured testing kits from LabCorp 
at each of the facilities we operate. Since that time, we have 
continued to utilize this company to provide our facilities with 
testing support. Additionally, we reach out to local health departments 
to ensure we coordinate our testing efforts with those departments. We 
have ordered 4 testing machines for that will allow us to increase our 
testing for COVID-19. The ordered testing equipment is slated to arrive 
by the end of August. In the interim, we will continue to work closely 
with vendors and health departments to procure testing kits for all of 
our facilities.
    Our MTC medical team, under the direction of a physician, screens 
new arrivals to our facilities using the process identified by ICE and 
determines if those individuals should receive a COVID-19 test. This 
screening process involves checking for symptoms, including a 
temperature check, and asking about known contact with positive cases. 
Additionally, if an individual in a facility has symptoms or has 
potentially been exposed to COVID-19, our medical team administers a 
COVID-19 test.
    All facilities track COVID-19 testing and provide a daily report to 
ICE on active and recovered cases. ICE compiles the daily updates and 
posts updates on its website. When an individual tests positive at a 
facility, the facility also notifies the local health department.
    MTC is closely tracking active cases, recovered cases, 
hospitalizations, number of individuals with symptoms, and numbers of 
individuals in medical isolation or quarantine. This data helps us 
understand patterns, monitor a facility's response to COVID-19, and 
implement more comprehensive testing practices in facilities with 
active cases.
    Question 3a. When MTC identifies a COVID-positive individual 
(either among staff or those held in the facility), what are your 
company's policies to limit the spread of the virus?
    When were those policies disseminated to your facilities?
    Question 3b. Please describe the contact tracing you engage in.
    Question 3c. What is the primary form of isolating individuals who 
may have been exposed to the positive individual used by MTC 
facilities?
    i. If co-horting is used, please provide the maximum time frame an 
        individual remained co-horted in each of your facilities?
    ii. If no, what other forms of isolation and monitoring do you rely 
        on?
    Question 3d. Do you believe that cohorting is an effective means of 
protecting more individuals from contracting the disease? Is it more or 
less effective than other tools available to you?
    Answer. MTC's policies are based on the directions provided by the 
CDC and ICE. Individual facilities also add additional policies based 
on requests from their local health departments. These policies are 
extensive. When a detainee does test positive for COVID-19, MTC's 
policies include:
  <bullet> Isolating the individual, preferably in a private room
  <bullet> Identifying anyone who had contact with the individual and 
        placing those who were potentially exposed in quarantine as 
        well
  <bullet> Sanitizing the individual's personal space and any common 
        areas frequented by the person who tested positive
  <bullet> Providing on-going medical care to that individual and 
        requiring staff and those interacting with the individual to 
        utilize PPE
  <bullet> Notifying ICE and the local health department of the 
        positive test result.
    This policy to isolate active cases, as well as potential cases, 
was initiated in February, 2020, based on guidance provided by ICE. On 
March 11, 2020, MTC activated an Incident Command System (ICS) and 
notified each facility regarding the implementation of this emergency 
response plan. The ICS team met daily to review MTC's response and 
ensure that corporate policies and practices were updated based on any 
changing information regarding COVID-19. The ICS team continues to meet 
and adapt MTC's policies as needed. Each facility's leadership team 
provided staff briefings and town halls for the detainees to 
communicate any changed guidance.
    Our medical team engages with a facility's local health department 
to conduct contact tracing. When a staff member tests positive, any 
employees who had contact with the positive individual are sent home to 
quarantine. When a detainee tests positive for COVID-19, medical staff 
work with them to identify their close contacts and quarantine those 
contacts.
    When an individual tests positive for COVID-19, he or she is placed 
in medical isolation/quarantine. Individuals who are potentially 
exposed to COVID-19 are also placed in quarantine. MTC makes every 
effort to isolate suspected and confirmed cases individually. In 
instances where that is not possible, MTC uses a cohort approach. This 
approach involves cohorting suspected cases in one housing area. 
Confirmed cases are cohorted in a different housing area. All 
individuals wear masks and employ social distancing in these cohort 
situations. Individuals remain in quarantine--either in an individual 
setting or a cohort setting--until they meet the CDC-defined standards 
for returning to the general population. When we quarantine individuals 
who have potentially been exposed to COVID-19, they remain quarantined 
for up to 14 days. In a few instances, that time frame has been 
extended while waiting for an individual's COVID-19 test results.
    In responding to this challenging situation, MTC relies on the 
expert opinions provided by the CDC. In the CDC's guidance to 
correction and detention facilities, initially provided on March 23, 
2020, and updated periodically, the CDC has identified that isolating 
people in individual rooms is preferred. However, the CDC indicated 
that cohorting can be used when necessary. When cohorting is 
implemented, the CDC stressed that confirmed cases and suspected cases 
should be placed in separate cohorts and that masks and social 
distancing should be utilized. We have followed that guidance.
    Question 4a. What additional steps has your company taken to reduce 
the risk of COVID-19 at detention facilities beyond those taken or 
recommended by ICE?
    How have procedures been adjusted in light of the rapid increase in 
infections over the past 3 months?
    Question 4b. What are the principal limitations or additional 
resources needed to further reduce the potential for COVID-19 
transmission within your facilities?
    Answer. Additional Steps to Reduce COVID-19 Risks.--ICE has 
provided extensive guidance to reduce the risk of COVID-19, and MTC has 
aligned with this guidance. In addition to following these directions, 
MTC has purchased COVID-19 testing machines and has added additional 
disinfecting precautions such as assigning an officer to walk the 
facility disinfecting frequently touched areas and using ultra-low-
volume foggers at Bluebonnet Detention Center and Otero County 
Processing Center. We have increased testing efforts depending on each 
facility's local health department guidance. To encourage social 
distancing, we have implemented multiple changes such as serving meals 
in smaller groups, limiting the number of people eating at a table, and 
marking lines to display 6 feet of distance.
    Adjusted Practices in the Last 3 Months.--Our experience in the 
last 3 months is that we are actually seeing a decline in active cases. 
As of August 13, 2020, we have only 22 active cases across the ICE 
facilities we operate. In the past 3 months, MTC has continued to 
adjust practices based on ICE or CDC guidance. We have also ordered 
testing machines and increased disinfection practices in that time 
frame, including the purchase of foggers at 2 facilities and an officer 
assigned to spray high-touch surfaces. Finally, facility administrators 
have worked closely with medical staff, and the medical team has 
monitored for even the slightest symptoms, isolating individuals as a 
precaution.
    Limitations and Resource Needs.--This pandemic has required an 
increased need to purchase a variety of resources. Despite the 
challenge, MTC has successfully procured PPE, cleaning supplies, and 
hygiene supplies. However, on July 7, 2020, LabCorp emailed our medical 
staff to indicate that there was an increase in requests for COVID 
testing, which would negatively impact their testing capacity and 
turnaround time for patients. They asked all clients to reduce their 
COVID testing volume by one-third. MTC responded by ordering testing 
equipment, which is scheduled to arrive at the end of August.
    Question 5a. The committee understands that due to COVID-19 many 
scheduled inspections and audits of facilities have been halted. How is 
your company working with ICE inspectors and contracting officers to 
ensure that CDC guidelines related to COVID-19 are being followed at 
your facilities?
    Question 5b. How many complaints have you received on the failure 
to adhere to this guidance from employees, detainees, or third parties? 
Please provide a breakdown on what those complaints consisted of such 
as access to medical care, hygiene supplies, etc.
    Answer. An on-site ICE employee continues to monitor facilities to 
ensure CDC compliance. In addition, MTC provides daily updates to ICE 
regional offices. Representatives from ICE, local health departments, 
and other Government officials have visited our facilities throughout 
the pandemic to monitor the extensive precautions we have implemented. 
Additionally, the ICE Office of Detention Oversight has conducted 
audits of MTC facilities virtually and it is our understanding that 
additional audits by the Nakamoto group are forthcoming.
    MTC takes all complaints seriously and conducts a thorough 
investigation of any staff or detainee complaints. The following COVID-
19 related complaints have been made in the MTC-operated detention 
centers since January 1, 2020:

                      BLUE BONNET DETENTION CENTER
------------------------------------------------------------------------
                                                           Finding &
              Date                     Grievance          Resolution
------------------------------------------------------------------------
4/16/2020.......................  The detainee was    Upon review,
                                   concerned           officers were not
                                   officers were       working
                                   working in          quarantine dorms
                                   quarantined dorms   and then entering
                                   and then entering   other dorms. This
                                   a clean dorm.       finding was
                                                       shared with the
                                                       detainee.
4/29/2020.......................  The detainee was    Staff were
                                   concerned about a   reminded to wear
                                   staff member who    masks and
                                   was not wearing a   educated on the
                                   mask.               importance of
                                                       masks. The
                                                       detainee was
                                                       informed of these
                                                       actions.
4/30/2020.......................  Detainee            Upon review,
                                   complained that     quarantined
                                   he was going to a   individuals used
                                   recreation yard     a separate area
                                   where infected      for recreation.
                                   individuals         This finding was
                                   recreated.          shared with the
                                                       detainee.
5/04/2020.......................  Detainee felt       Upon review, this
                                   officers were       was not
                                   entering            occurring. This
                                   restricted dorms    finding was
                                   and then entering   shared with the
                                   a clean dorm.       detainee.
7/08/2020.......................  Detainee            Upon review, this
                                   complained about    allegation was
                                   a staff member      unsubstantiated.
                                   not wearing a
                                   mask.
------------------------------------------------------------------------


                  IMPERIAL REGIONAL DETENTION FACILITY
------------------------------------------------------------------------
                                                           Finding &
              Date                     Grievance          Resolution
------------------------------------------------------------------------
3/24/2020.......................  Detainee requested  Medical team
                                   medical team        provided detainee
                                   provide soap in     education letting
                                   addition to the     him know that the
                                   shampoo bottles     detention
                                   he was provided     facility does
                                   weekly.             provide free
                                                       soap.
4/17/2020.......................  Detainee expressed  Detainee received
                                   concern about       education about
                                   eating meals in     COVID-19 social
                                   her living space.   distancing
                                                       guidelines that
                                                       included eating
                                                       meals in housing
                                                       unit bunk areas
                                                       to facilitate
                                                       only seating 2
                                                       people to 1
                                                       table.
4/25/2020.......................  Detainee indicated  Medical staff had
                                   he was              already met with
                                   experiencing        the individual on
                                   medical issues      rounds that day
                                   such as a chest     with no reports
                                   pain, shortness     of distress. He
                                   of breath,          was scheduled for
                                   stomach pains       an appointment
                                   when eating. He     the following
                                   wanted to           day, but he
                                   determine if he     refused to visit
                                   had COVID-19.       the clinic.
                                                       During rounds on
                                                       4/26/20, a nurse
                                                       identified he was
                                                       in no apparent
                                                       distress:
                                                       Speaking full
                                                       sentences, even &
                                                       unlabored
                                                       respirations at
                                                       16 per minute,
                                                       pink skin, non-
                                                       diaphoretic. He
                                                       was advised that
                                                       if he felt sick
                                                       at any time to
                                                       let staff know,
                                                       and he would be
                                                       brought to the
                                                       clinic.
5/1/2020........................  Detainee requested  Detainee received
                                   to exchange         a new mask as
                                   issued mask.        requested.
5/26/2020.......................  Detainee expressed  Medical concerns
                                   medical concerns.   were shared with
                                                       the medical
                                                       department for
                                                       review. The
                                                       detainee was also
                                                       made aware of the
                                                       mask exchange
                                                       process.
5/27/2020.......................  Two detainees       Detainees were
                                   expressed concern   informed that all
                                   about the           cleaning
                                   potential           products,
                                   toxicity of         including the
                                   cleaning products.  germicidal, are
                                                       water-based and
                                                       odorless, and are
                                                       non-toxic.
5/31/2020.......................  Detainee in         Medical staff
                                   medical isolation   discussed the
                                   requested change    reason for
                                   in housing          medical isolation
                                   claiming he was     and the
                                   unable to sleep     importance of 14-
                                   due to a cold       day quarantine
                                   dormitory at        for those with
                                   night. He           potential COVID-
                                   requested to be     19 exposure. The
                                   moved to the        staff provided
                                   general             him extra
                                   population.         blankets to keep
                                                       him comfortable.
7/2/2020........................  Detainee expressed  Detainee was
                                   concern regarding   advised that due
                                   lack of in-person   to COVID-19
                                   visitation with     restrictions in-
                                   his wife.           person visiting
                                                       with his wife
                                                       could not be
                                                       accommodated. He
                                                       was also assured
                                                       that once the
                                                       restriction was
                                                       lifted, these in-
                                                       person visits
                                                       would resume but
                                                       calls are still
                                                       provided at no
                                                       cost.
7/29/2020.......................  Detainee expressed  Detainee was
                                   concern about       informed that
                                   disinfecting        COVID-19
                                   process.            protocols
                                                       regarding
                                                       disinfecting all
                                                       areas of the
                                                       housing unit are
                                                       being followed
                                                       and enforced. The
                                                       chemicals being
                                                       used are safe to
                                                       use and are non-
                                                       toxic.
------------------------------------------------------------------------

    IAH Detention Center, Otero County Processing Center, and El Valle 
Detention Facility have not received any complaints from detainees in 
regards to COVID-19 practices. Some employees at El Valle Detention 
Facility have expressed a desire for more N-95 masks. We shared CDC 
guidance for when to utilize N-95 masks and ensured that they were all 
provided cloth face masks. Medical staff and those working in 
quarantine/medial isolation areas utilize the N-95 masks, as well as 
other PPE.
    Otero County Processing Center did receive a complaint from OSHA 
indicating that masks are not clean, masks are re-used, and individuals 
are not provided new masks. The origins of this complaint are unknown, 
and OSHA dismissed it after assessing our response and the evidence. 
Individuals are provided clean, washable masks. Individuals can receive 
new masks whenever needed.
    Question 6a. ICE has committed to providing 520 free minutes per 
month for each migrant in detention during the COVID-19 pandemic. 
However, legal service providers report this policy is not being 
implemented consistently. Some facilities are not providing any free 
minutes, some are providing less than 520 minutes, and some are 
providing a limited number of phone calls per week and preventing 
detainees from rolling over unused minutes. I've also heard from legal 
service providers that some clients are not being given access to free 
phone calls to counsel on non-recorded lines. These calls are critical 
for those in custody.
    What is the free phone minutes policy within your facilities? Is 
this being implemented uniformly across your facilities? Do your 
facilities guarantee access to unsupervised communication with 
attorneys?
    Question 6b. Are your facilities requiring detainees to forfeit 
unused minutes at the end of the month?
    Question 6c. How are your facilities informing detainees of the 
availability of free phone minutes?
    Answer. Imperial Regional Detention Facility, Bluebonnet Detention 
Center, Otero County Processing Center, and El Valle Detention Facility 
all use Talton Communications to provide phone calls to detainees, and 
all detainees receive 520 free minutes per month. These minutes are 
allocated on a weekly basis: Thirteen free calls are issued per week in 
10-minute increments. The 130 minutes expire each week.
    Detainees are notified each Wednesday via a voicemail that they 
have 13 free 10-minute calls available due to the pandemic. A 
memorandum was also posted in the dorms explaining to the detainees how 
the minutes are allotted. This information is posted in English, 
Spanish, Chinese, Portuguese, Turkish, Hindi, Zulu, and Vietnamese.
    IAH Detention Center received phone services under a county 
contract. In that contract, all detainees receive 500 free minutes per 
month, starting midnight on the first day of the month. Individuals 
cannot roll over unused minutes. Individuals are informed about this 
phone access verbally during the intake process. This information is 
also posted in each dorm.
    All of these facilities guarantee unsupervised access to attorneys 
through visitation, as well as unmonitored calls to a court or legal 
representative.
     Questions From Chairman Bennie G. Thompson for Scott Marquardt
    Question 1a. Congress has entrusted ICE with billions of taxpayer 
dollars for its custody operations. Knowing that there have been 
serious operational challenges at ICE detention centers for years, I 
would like to understand more about how your contracts have changed in 
response to COVID-19.
    Has your company requested any contract modifications from ICE in 
order to respond to COVID-19 in your facilities?
    Question 1b. If yes, what modifications were requested? How did you 
determine that your company needed these changes? How much money have 
you requested?
    Question 1c. What long-term contract changes, if any, do anticipate 
you will need to make--such as additional staff or more space for 
detainees--to respond to COVID-19 in detention facilities, and to what 
extent has your company determined what these will cost?
    Question 1d. How many of your ICE facilities have contractually 
guaranteed minimums? To what extent are those minimums being met? Has 
COVID-19 affected ICE's ability to meet its contractually guaranteed 
minimum number of detainees in your facilities?
    Answer. This pandemic has impacted the operational costs of 
facilities. MTC has used the Request for Equitable Adjustment process 
for those costs. We are specifically tracking costs associated with 
COVID-19 in the following areas:
  <bullet> Personal protective equipment
  <bullet> Facility sanitation/cleaning
  <bullet> Test kits/testing
  <bullet> Additional phone service minutes
  <bullet> On-site medical care and medical equipment increases
  <bullet> Ground transportation to/from quarantine locations and to/
        from treatment facility when necessary due to COVID-19.
    Since April, MTC-operated facilities logged on average $130,000 
additional expenditures each month due to COVID-19.
    Long-term, it is still unclear how COVID-19 will impact ICE 
contracts. MTC will continue following CDC and ICE guidance, and this 
guidance impacts virtually every component of operating the facilities. 
Since the start of the pandemic, the guidance has evolved multiple 
times. Implementing the changes requires significant staff resources to 
ensure that changes are implemented effectively.
    Currently, 4 of our 5 facilities--all except Otero County 
Processing Center--have guaranteed minimums included in the contracts. 
The 4 facilities with a guaranteed minimum are currently well under 
that capacity.
    Questions From Honorable Cedric L. Richmond for Scott Marquardt
    Question 1a. Please describe for the committee the reasons ICE 
detainees are placed in solitary confinement inside your facilities.
    How many times has an ICE detainee been placed in solitary 
confinement since January 1, 2020? Please include a breakdown of the 
reasons for each solitary confinement as well as demographic 
characteristics of affected detainee.
    Question 1b. What was the average length of time an ICE detainee 
was kept in solitary confinement?
    Question 1c. Is there a process in place for challenges or reviews 
of the decisions to place someone in solitary confinement? If yes, 
please describe that process.
    Answer. MTC believes that individuals should be placed in the least 
restrictive environment necessary to protect the safety of each 
individual. Solitary confinement or restrictive housing is reserved for 
high-level prohibited acts that pose a danger to those at the facility.
    From January 1, 2020, to August 7, 2020, across all MTC-operated 
ICE facilities, 213 individuals have been placed in disciplinary 
segregation for an average of 15 days. The majority of these 
individuals identify as Hispanic males, which is reflective of the 
population that resides in our facilities. In these cases, disciplinary 
segregation was administered due to assault, fighting, weapons 
violations, or a combination of multiple major violations.
    If there is an incident at a facility, the facility must document 
the event, and ICE reviews the incident. In addition, an institution 
disciplinary panel (IDP) conducts a formal hearing. This panel can 
impose higher-level sanctions for dangerous prohibited acts. During the 
hearing process, detainees can request representation. Representation 
is automatically provided if the detainee is illiterate, has limited 
English language skills, or otherwise needs special assistance. The 
facility administrator also reviews any actions recommended by the IDP 
and can concur with the sanctions or modify them.
    Question 2. Are people with mental health issues placed in solitary 
confinement? If so, are they then seen by a mental health professional 
while they are in solitary? How often are they seen by a mental health 
professional while they are in solitary? What is the average length of 
stay in solitary confinement for an individual with mental health 
issues?
    Answer. MTC does not place someone in a restrictive housing unit 
based on mental illness. When someone is placed in a restrictive 
housing unit for disciplinary reasons, he or she is assessed by a 
registered nurse. This assessment includes a mental health evaluation. 
If a detainee is identified as having a mental health need, he or she 
continues with scheduled appointments with a licensed therapist. The 
therapist can recommend alternate sanctions for a detainee with a 
history of mental health. To further protect individuals, a follow-up 
appointment with a mental health provider is made 30 days out for all 
individuals in restrictive housing regardless of the initial mental 
health evaluation.
      Questions From Chairwoman Kathleen M. Rice for Rodney Cooper
    Question 1a. ICE has publicly stated that it is expanding 
voluntarily COVID-19 testing across detention facilities and recently 
completed testing all individuals detained at family detention centers, 
resulting in 55 positive cases at the Karnes Family Residential Center.
    Is your company involved in or supporting this testing program?
    Answer. Yes.
    Question 1b. If yes, which of your detention facilities are 
participating in the voluntary program?
    Answer. LaSalle Corrections is currently implementing Updated U.S. 
Immigration and Customs Enforcement, Enforcement and Removal Operations 
(ICE) COVID-19 Pandemic Response Requirements (PRR) at all facilities 
with ICE detainees.
    Question 1c. How many detainees at each facility have been tested? 
How many detainees at each facility have tested positive for COVID-19?
    Answer. LaSalle has tested 3,086 inmates/detainees at our 
facilities as of Aug 23, 2020. One thousand three detainees/inmates 
have tested positive as of the same date. LaSalle Corrections is 
currently implementing PRR at all facilities. PRR includes expanded 
testing and saturation testing.
    Question 1c. How does your company work with ICE to coordinate and 
prioritize COVID-19 testing?
    Answer. LaSalle Corrections maintains a COVID-19 mitigation plan 
and continues working closely with the Centers for Disease Control 
(CDC), ICE, and other Federal, State, and local agencies to facilitate 
and refine our pandemic planning and response in confronting COVID-19. 
The ICE PRR sets forth the highest expectations and significantly 
assists detention facilities in sustaining detention operations while 
mitigating risk to safety and well-being of detainees, staff, 
contractors, visitors, and stakeholders due to COVID-19. The ICE PRR 
includes testing of all newly-detained persons before they are placed 
in general population.
    Question 2a. In documents provided to the committee, CoreCivic and 
the GEO Group mentioned procuring their own COVID-19 test kits.
    Has LaSalle Corrections procured test kits and begun testing 
detainees? If so, at which facilities?
    Answer. Yes, Lasalle Corrections has access to test kits and has 
implemented the protocols for testing at facilities. The ICE PRR 
includes testing of all newly-detained persons before they are placed 
in general population. ICE testing for COVID-19 complies with CDC 
guidance.
    Question 2b. Who makes the decision on who gets to be tested? How 
is the decision being made?
    Answer. Volunteer testing of asymptomatic individuals upon intake 
is expanding to all facilities consistent with PRR. Individuals with 
signs and symptoms of COVID-19 are tested in accordance with the 
medical providers clinical judgment utilizing CDC guidelines. Testing 
for COVID-19 complies with CDC guidance.
    Question 2c. Are positive test rates being tracked? If so, how does 
this list compare with data ICE provides on its website?
    Answer. Positive tests are being tracked at each facility. LaSalle 
Corrections reports all confirmed and suspected COVID-19 cases to the 
local ERO Field Office, ICE Field Medical Coordinator, and local health 
department immediately.
    Question 2d. How are these infection rates informing your decision 
making to mitigate the spread of the coronavirus?
    Answer. By utilizing the infection rate the following measures are 
undertaken: Re-education of staff and detainees regarding basic 
infection control tenets, enhanced disinfection practices, social 
distancing, proper use and donning and doffing of PPE, ensure adequate 
medical supplies on hand, co-ordination of medical guidance with 
operations staff as regards to housing assignments, ensue proper 
contact investigation.
    Question 3a. When LaSalle Corrections identifies a COVID-positive 
individual (either among staff or those held in the facility), what are 
your company's policies to limit the spread of the virus?
    Answer. LaSalle Corrections strictly adheres to isolation protocols 
and CDC guidelines for detention facilities and for transporting 
individuals with confirmed or suspected COVID-19. Comprehensive 
protocols are in place for the protection of staff and patients, 
including the appropriate use of personal protective equipment (PPE), 
in accordance with CDC guidance.
    Question 3b. When were those policies disseminated to your 
facilities?
    Answer. LaSalle Corrections implemented our Pandemic contingency 
plan in response to COVID-19, that includes screening, testing, 
appropriate treatment, prevention, education, and infection control 
measures. In mid-late February 2020, LaSalle Corrections instituted 
intake screening and tracking tools. Our strategic planning ensured for 
continuity of operations and a sustainable health care delivery system 
within facility settings. We continue to work closely with the Centers 
for Disease Control (CDC), Department of Homeland Security (DHS) and 
other Federal, State, and local agencies to facilitate and refine our 
pandemic planning and response in confronting COVID-19. Updated PRR was 
disseminated to facilities in August.
    Question 3c. Please describe the contact tracing you engage in.
    Answer. Close contacts (defined by the CDC) of suspected or 
confirmed COVID-19 cases are identified by interviews with the 
suspected/confirmed cases, review of housing assignments, movements and 
interactions with staff and detainees, as well as review of 
transportation logs.
    Question 3d. What is the primary form of isolating individuals who 
may have been exposed to the positive individual used by LaSalle 
Corrections facilities?
    Answer. Individuals deemed to be in close contact with a COVID-19 
case are separated and housed via individual rooms and/or cohorted 
housing areas.
  <bullet> If cohorting is used, please provide the maximum time frame 
        an individual remained cohorted in each of your facilities?
    Answer. If an asymptomatic individual is cohorted in a group 
        housing area due to exposure to a case of COVID-19, the 
        individual is cohorted for 14 days from the date of last 
        exposure. In the event another detainee in the cohort group 
        tests positive, the cohort time frame of 14 days is restarted. 
        Thus, the time frame for a quarantined group is a rolling 
        number which is dependent on the last date of exposure. Of 
        note, the 14-day period allows for the incubation period of 2-
        14 days for the SARS-CoV-2 virus.
  <bullet> If no, what other forms of isolation and monitoring do you 
        rely on?
    Answer. N/A.
    Question 3e. Do you believe that co-horting is an effective means 
of protecting more individuals from contracting the disease? Is it 
effective than other tools available to you?
    Answer. Cohorting appears to be an effective means of protecting 
individuals from contracting COVID-19. It is one of many tools we have 
at our disposal in the prevention aspect of COVID-19. The summation of 
re-enforcing infection control practices, intensifying disinfection 
practices and the implementation of social distancing all work in 
tandem with the auspices of cohorting to prevent the spread of COVID-
19.
    Question 4a. What additional steps has your company taken to reduce 
the risk of COVID-19 at detention facilities beyond those taken or 
recommended by ICE?
    Answer. In addition to ICE PRR, LaSalle Corrections continues to 
incorporate CDC's COVID-19 guidance, which is built upon the 
established infectious disease monitoring and management protocols, 
coupled with the rapidly-changing adaptations of State and local health 
departments. Also, LaSalle Corrections continues our focus on 
operational and communications planning, reinforcing hygiene practices, 
intensifying cleaning and disinfection of facilities, and monitoring 
for potential cases. Facilities also continue increased social 
distancing through physical separation, having staggered meals, meal 
locations and recreation times in order to limit large gatherings. 
Comprehensive protocols are in place for the protection of staff and 
patients, including the appropriate use of personal protective 
equipment (PPE), in accordance with CDC guidance.
    Question 4b. How have procedures been adjusted in light of the 
rapid increase in infections over the past 3 months?
    Answer. LaSalle Corrections continues to refine processes and 
procedures and updates criteria for discontinuation of transmission-
based precautions utilizing symptom-based, test-based, and time-based 
strategies. LaSalle Corrections adheres to ICE and CDC guidelines and 
quickly implements updates to preventive measures as they are issued, 
including on key issues of testing, PPE, social distancing and 
screening.
    Question 4c. What are the principal limitations or additional 
resources needed to further reduce the potential for COVID-19 
transmission within your facilities?
    Answer. ICE maintains regular communication and provides guidance 
and resources if necessary, to ensure compliance to best practices 
established in PRR and according to latest CDC guidelines.
    Question 5a. The committee understands that due to COVID-19 many 
scheduled inspections and audits of facilities have been halted. How is 
your company working with ICE inspectors and contracting officers to 
ensure that CDC guidelines related to COVID-19 are being followed at 
your facilities?
    Answer. We are still subject to multiple levels of oversight, 
including regular review and audit processes and on-site monitoring, 
and there are ICE officials assigned to our facilities. Also, 
facilities operate under Quality Assurance Surveillance Plans and 
subject to ICE Contract Discrepancy Reports (CDR).
    Question 5b. How many complaints have you received on the failure 
to adhere to this guidance from employees, detainees, or third parties? 
Please provide a breakdown on what those complaints consisted of such 
as access to medical care, hygiene supplies, etc.
    At the time of this inquiry, the grievances reported were as 
follows: 20--Lack of medical, 17--Social Distancing, 11--Hygiene.
    Question 6a. ICE has committed to providing 520 free minutes per 
month for each migrant in detention during the COVID-19 pandemic. 
However, legal service providers report this policy is not being 
implemented consistently. Some facilities are not providing any free 
minutes, some are providing less than 520 minutes, and some are 
providing a limited number of phone calls per week and preventing 
detainees from rolling over unused minutes. I've also heard from legal 
service providers that some clients are not being given access to free 
phone calls to counsel on non-recorded lines. These calls are critical 
for those in custody.
    What is the free phone minutes policy within your facilities?
    Answer. Due to the circumstances caused by the COVID-19 pandemic, 
we have a requirement to allow each ICE detainee a total of 500 free 
telephone minutes per month.
    Question 6b. Is this being implemented uniformly across your 
facilities?
    Answer. Yes.
    Question 6c. Do your facilities guarantee access to unsupervised 
communication with attorneys?
    Answer. Yes, as long as detainees and attorneys follow the proper 
protocol.
    Question 6d. Are your facilities requiring detainees to forfeit 
unused minutes at the end of the month?
    Answer. ICE detainees are provided 500 free telephone minutes per 
month. Minutes do not roll over.
    Question 6e. How are your facilities informing detainees of the 
availability of free phone minutes?
    Answer. During intake briefings and postings in all dormitories, 
common areas, and phone banks. Also, detainee handbooks include 
information.
    Question 7a. In your testimony before the subcommittee you claimed 
that there have been no instances of pepper spray use. Yet ICE and 
other independent witnesses have confirmed the recent use of pepper 
spray at your facilities. For example, the Catahoula Parish Sheriff has 
acknowledged that pepper spray was used against detainees at the 
Catahoula Correctional Center in May. ICE also confirmed the use of 
pepper spray against detainees at your Richwood facility in June.
    Given that the public record clearly demonstrates that your 
testimony was not accurate, can you explain why you were not able to 
provide accurate testimony to the committee?
    Answer. I apologize and was not trying to provide inaccurate 
information. I thought the question was pertaining to use of chemical 
agents ``pertaining to COVID matters'', but realize the question was 
phrased ``since COVID''. There were (3) uses of chemical agents 
reported ``since COVID'' up until mid-July 2020. One was at Richwood, 
one at Catahoula, and one at Winn. Two of these involved detainees who 
were out on the recreation yard and refused to return to their dorm 
when scheduled. The one at Winn involved detainees who were destructing 
property and setting fires inside the dorm. These (3) calculated uses 
of force were documented at the facility and reported to ICE. In 
addition, all use of force incidents are reported to the Office of 
Professional Responsibility for review.
    Question 7b. Please provide a description of each use of pepper 
spray against ICE detainees since January 1, 2020, including the 
location, the justification for the use of force, and whether any of 
those affected subsequently tested positive for COVID-19.
    Answer. April 17, 2020 Winn Correctional Facility.--Chemical agents 
were dispersed into building when detainees refused several orders to 
stop destruction of property and setting fires inside dorm. Four 
detainees were identified as having later tested positive for COVID-19.
    May 3, 2020 Catahoula Correctional Center.--Chemical agents were 
dispersed out on the recreation yard after detainees refused several 
orders to return to dorm. Medical staff present and no injuries. 
Detainees ran back into dorm as soon as chemical agents were dispersed. 
Twenty-one detainees were identified as having later tested positive 
for COVID-19.
    June 22, 2020 Richwood.--Chemical agents were dispersed out on the 
recreation yard after detainees refused several orders to return to 
dorm. Four detainees from that dorm have been identified to have been 
tested after this event and all 4 were negative.
    Before authorizing the calculated use of force, a supervisory 
detention official, a designated health professional, and others, as 
appropriate, assess the situation. In all incidents referenced a 
calculated use of force was necessary after detainees created a safety 
and security hazard and refused to comply despite repeated attempts by 
facility staff. Subsequent to use of force, medical staff evaluated 
everyone who came into contact with the pepper spray and no injuries 
were reported. All of these use of force incidents were consistent with 
ICE's Performance-Based National Detention Standards.
      Questions From Chairman Bennie G. Thompson for Rodney Cooper
    Question 1a. Congress has entrusted ICE with billions of taxpayer 
dollars for its custody operations. Knowing that there have been 
serious operational challenges at ICE detention centers for years, I 
would like to understand more about how your contracts have changed in 
response to COVID-19.
    Has your company requested any contract modifications from ICE in 
order to respond to COVID-19 in your facilities?
    Answer. No.
    Question 1b. If yes, what modifications were requested? How did you 
determine that your company needed these changes? How much money have 
you requested?
    Answer. N/A.
    Question 1c. What long-term contract changes, if any, do anticipate 
you will need to make--such as additional staff or more space for 
detainees--to respond to COVID-19 in detention facilities, and to what 
extent has your company determined what these will cost?
    Answer. It is difficult to predict what the long-term effects of 
COVID-19 will be as even the CDC continues to learn more each day. 
LaSalle has obviously had to obtain large quantities of PPE and 
increase the sanitation protocols as well as secure testing kits and 
other necessary supplies. We will continue to evaluate the increased 
cost and monitor CDC guidelines to determine if contract adjustments 
need to be requested.
    Question 1d. How many of your ICE facilities have contractually-
guaranteed minimums?
    Answer. Six facilities operated by LaSalle Corrections maintains 
contractually-guaranteed minimums.
    Question 1e. To what extent are those minimums being met?
    Answer. Most facilities have experienced reduced intake.
    Question 1f. Has COVID-19 affected ICE's ability to meet its 
contractually-guaranteed minimum number of detainees in your 
facilities?
    Answer. ICE decided to reduce the population of all detention 
facilities to 70 percent or less to increase social distancing.
    Question 2. On the Truth of Testimony form submitted to the 
committee, there is a box that requests that witnesses list any Federal 
grants or contracts related to the hearing's subject matter that your 
company has received in the current calendar year and previous 2 
calendar years. The form also asks for the source and amount of each 
grant or contract. You stated that this provision was not applicable to 
your company, yet our 3 other witnesses provided the amounts and 
contract award year of their Federal contracts with ICE and the U.S. 
Marshals Service as required. Please provide the committee with this 
information as soon as possible. This should also include any amounts 
paid to LaSalle Corrections by ICE or any other entity regarding the 
operation of LaSalle Corrections immigration detention centers.
    Answer. Intergovernmental Service Agreement (IGSA) Facilities 
(IGSAs) are agreements between the Federal Government and a State or 
local government to provide detention services. While Government-owned 
or leased, these facilities may be operated by either local or State 
agencies or by a private company in the business of providing detention 
services. LaSalle Corrections is an established developer and operator 
of correctional centers throughout the United States. LaSalle 
Corrections provides corrections industry solutions to law enforcement 
agencies, Federal, State agencies, and government municipalities. 
LaSalle Corrections specializes in the management of prisons, jails, 
and detention facilities, as well as inmate and detainee transportation 
service and ensures for strict compliance to National Detention 
Standards. LaSalle Corrections receives no Federal grants or direct 
Federal contracts related to the hearing's subject matter. LaSalle 
Corrections maintains operating responsibility for the following 
facilities.
    BOWIE COUNTY CORRECTIONAL CENTER.--Contract Start March 1, 2003-
Present IGSA No. 78-02-0086
    CATAHOULA CORRECTIONAL CENTER.--Contract Start March 1, 2003-
Present IGSA No. IGSA No. 70CDCR19DIG000014
    FANNIN COUNTY JAIL.--Contract Start September 1, 2018-Present IGSA 
No. 78-09-0054
    IRWIN COUNTY DETENTION CENTER.--Contract Start December 11, 2013-
Present IGSA No. 20-07-58
    JACKSON PARISH CORRECTIONAL CENTER.--Contract Started November 
2005-Present IGSA No. 70CDCR19DIG000005
    JEFFERSON COUNTY DOWNTOWN JAIL.--Contract Start June 27, 2011-
Present IGSA No. 78-01-0077
    JOHNSON COUNTY JAIL.--Contract Started November 2005-Present IGSA 
No. 70CDCR19DIG000005
    LASALLE CORRECTIONAL CENTER.--Contract Started April 1, 1999-
Present IGSA No. 70CDCR19DIG000015
    LIMESTONE COUNTY DETENTION CENTER.--Contract Start February 2017-
Present IGSA No. 80-99-0115
    PARKER COUNTY JAIL.--Contract Start October 1, 2015-Present IGSA 
No. 77-08-0061
    PRAIRIELAND DETENTION CENTER.--Contract Start April 1, 2017-Present 
IGSA No.-15-0001
    RICHWOOD CORRECTIONAL CENTER.--Contract Started October 1, 2000-
Present IGSA No. 70CDCR19DIG000006
    RIVER CORRECTIONAL CENTER.--Contract Started January 2001-Present 
IGSA No. 70CDCR19DIG000004
    ROLLING PLAINS DETENTION CENTER.--Contract Start October 1, 2017-
Present IGSA No. 77-18-0023
    SAN LUIS REGIONAL DETENTION CENTER AND SUPPORT CENTER.--IGSA No. 
70CDCR19DIG000008
    WEST TEXAS DETENTION FACILITY.--Contract Start April 1, 2017-
Present IGSA No. 80-05-0005
    JACK HARWELL DETENTION CENTER.--Contract Start Nov 2005-Oct 2019
    WINN CORRECTIONAL CENTER.--Contracted Started October 1, 2015-
Present IGSA No. 70CDCR19DIG000010
    Question 3. News reports from April 2020 say at least 2 guards at 
Richwood Correctional Center in Monroe, Louisiana have died after 
contracting the coronavirus.\1\ Reports from early May say 107 
immigration detainees in detention facilities across Louisiana had 
tested positive for the coronavirus.\2\ Whistleblowers have informed 
the committee that LaSalle has never provided this information to 
staff. Has LaSalle ever informed its staff of this information? If so, 
when, where, and how? If not, why not?
---------------------------------------------------------------------------
    \1\ Associated Press, Two Louisiana detention center guards die 
after contracting COVID-19 (April 29, 2020), available at https://
www.tennessean.com/story/news/american-south/2020/04/29/2-guards-ice-
jail-die-after-contracting-coronavirus/3052969001/.
    \2\ NOLA.com, Coronavirus cases explode in Louisiana's immigration 
lock-ups; What is ICE doing about it? (May 2, 2020), available at 
https://www.nola.com/news/coronavirus/article_ae470c36-8c9f-11ea-8450-
af1b6c53da5c.html.
---------------------------------------------------------------------------
    Answer. The ADA requires employers that obtain medical information 
through inquiry or examination to maintain it in a confidential medical 
file and keep it separate from the employee's personnel file. Employers 
have been encouraged by the CDC and EEOC to question their employees 
regarding travel, exposure, or symptoms related to COVID-19. Any 
medical information disclosed as part of this dialog should be treated 
as confidential. If a positive case is identified in the workplace, the 
employer is encouraged to investigate the exposure of others in the 
workplace without disclosing the name of the individual or any 
personally identifiable information about the person. The 
confidentiality requirements under the ADA do not prohibit disclosure 
to State, local, or Federal health departments. LaSalle Corrections 
provides education to detainees and staff with allowable information 
and preventive measures.
    Question 4a. Based upon information provided by whistleblowers, the 
committee understands that the actual numbers of staff and detainees 
infected with COVID-19 at LaSalle Corrections facilities are far higher 
than reported to ICE or the public.
    As of the date of response, how many staff and detainees have 
tested positive?
    Answer. As of Aug 23, 2020, our consolidated report of ALL 
detainees and inmates held in facilities we operate indicates the 
following: Inmate/Detainees cumulative with positive test: 1,003; Staff 
cumulative 251.
    Question 4b. How many staff are not working due to COVID-19?
    Answer. Survey of units indicates approximately 72 staff out as of 
mid-August.
    Question 4c. How many employee deaths does LaSalle Correction 
believe to be due to COVID-19?
    Answer. We have no way of really knowing the answer to this 
question and do not want to speculate as to what a death certificate 
may show as cause of death. We are aware of 4 employee deaths 
throughout the company that family or friends have indicated the 
presence of COVID-19 at the time of their death.
    Question 5. On March 11, 2020, the Governor of Louisiana declared a 
public health emergency due to COVID-19.\3\ Whistleblowers have 
informed the committee that Richwood management prohibited staff from 
wearing face masks until the week of April 8; at that point several 
detainees and staff were already sick with COVID-19. Why was there a 
delay in allowing detainees and staff to wear masks?
---------------------------------------------------------------------------
    \3\ Available at https://gov.louisiana.gov/assets/ExecutiveOrders/
25-JBE-2020-COVID-19.pdf.
---------------------------------------------------------------------------
    Answer. I am not aware of any prohibition, although CDC recommended 
voluntary wearing of cloth face masks for the public on April 3, 2020 
and IHSC guidelines on April 6, 2020 recommended cloth face masks for 
clinical staff and non-clinical staff who do not provide direct patient 
care. LaSalle Corrections responded to these recommendations with 
prompt requests to vendors and handed them out as soon as they were 
available to staff and detainees. LaSalle Corrections strictly adheres 
to ICE and CDC guidelines, and quickly updates to those preventive 
measures as they are issued, including key issues of testing, PPE, and 
screening.
    Question 6. Whistleblowers have informed the committee that ill and 
healthy detainees have been held together in a variety of communal 
settings, including when being transported and when waiting for 
immigration court proceedings to begin.
    What protocols exist to prevent this from happening?
    Answer. COVID-positive detainees are not transported in the same 
vehicle with any other detainee. All COVID-positive detainees are 
housed in the same dorm or in single cells. All potential exposures or 
fevers are cohorted and not co-mingled. Detainees going to court are 
given PPE and hand sanitizer. Social distancing recommendations are 
followed. COVID-positive detainees court is held in a completely 
sanitized office with no other detainee in the area.
    Question 6b. Are you aware of any instances of non-compliance 
between January 1, 2020 and today? If yes, what has LaSalle Corrections 
done to correct this co-mingling of ill and healthy detainees?
    Answer. I am not aware of any co-mingling.
    Question 7a. The committee has been informed that there have been 
multiple instances in which detainees who exhibited COVID-19 symptoms 
were tested, tested negative, and then were put back in general 
population. Soon afterwards they wound up in intensive care in the 
hospital with COVID-19.
    How many times has this occurred since January 1, 2020 to date of 
response?
    Answer. This did not happen as described above.
    Question 7b. What has LaSalle Corrections done to ensure this does 
not happen again?
    Answer. It is the practice of the LaSalle Medical to isolate any 
patient having COVID symptoms until being seen by the provider and test 
results returned. A patient that tests negative and is afebrile may no 
longer need isolation. Exposure to COVID may happen at any time and is 
not predictable. I am aware of one instance where a COVID-positive 
patient was housed in our COVID-positive dorm. This case was sent to 
the hospital ER for shortness of breath on 2 occasions and after 
medical evaluation, he was returned to the COVID-positive dorm. As the 
patient was without improvement, he was referred to the ER for further 
evaluation and admitted to the hospital for pneumonia.
    Question 8a. CDC guidelines state that, after being infected with 
COVID-19, individuals should test negative in 2 consecutive respiratory 
specimens collected at least 24 hours apart. If individuals are not re-
tested, they must be free from fever for 72 hours without fever-
reducing medication and have improved symptoms before they can return 
from medical isolation.
    Answer. Lasalle Corrections has followed the Center for Disease 
Control and Prevention guidelines for issuance and discontinuance of 
transmission-based precautions. There have been guidelines for test-
based, symptom-based, and time-based strategies. These guidelines allow 
for medical professionals to determine which strategy is applicable to 
a case, dependent on the patient's medical history and history of the 
present illness (COVID-19). Over time, the guidelines have been 
modified according to the latest scientific information obtained by the 
Center for Disease Control and Prevention. There has been no issue of 
non-compliance to my knowledge.
    Question 8b. Are you aware of any instances of non-compliance 
between January 1, 2020 to date of response? If yes, what has LaSalle 
Corrections done to correct this mingling of detainees?
    Answer. Not aware of issues of non-compliance.
    Question 9. Between January 1, 2020 to date of response, how many 
COVID-19 tests have been conducted at facilities owned or operated by 
LaSalle Corrections? Please provide a breakdown between staff and 
detainees and by demographic.
    Answer. As of Aug 23, 2020, there have been 3,088 test administered 
to inmates/detainees. There have been 251 staff positive as of same 
time frame. I do not have demographics by facility but know that the 
breakdown between our regions are as follows: West Region 876 tested 
427 positive; East Region 2,210 tested 576 positive.
     Questions From Honorable Cedric L. Richmond for Rodney Cooper
    Question 1a. Reports have shown significant staff shortages, 
particularly during COVID-19 outbreaks at detention facilities. At 
Richwood, operated by LaSalle, guards have been required to work 12-
hour shifts, 7 days a week due to these shortages.
    Richwood houses an average daily population of 600 detainees and 
has at least 65 positive COVID cases among detainees. How does having 
an overworked staff impact providing a safe environment for your 
employees and those held in your custody?
    Answer. Lasalle is very proud of the way our staff step up to any 
challenge and work extra hard to complete necessary task to the best of 
everyone's ability. Our staff take pride in providing a safe 
environment for all those entrusted to their care regardless of the 
situation.
    Question 1b. What steps have you taken to resolve these staffing 
shortages?
    Answer. LaSalle is constantly recruiting additional staff and 
detailing additional staff into facilities where necessary.
    Question 1c. How many additional staff are needed to handle a 
COVID-19 outbreak at your facilities, if any?
    Answer. It would depend on the size and severity of an outbreak. 
ICE has been very good about reducing the populations to allow for 
adequate staff coverage where needed.
    Question 2a. The committee has been informed that LaSalle 
Corrections staff who have raised concerns about employee, detainee, 
and public health at Richwood Correctional Center have suffered 
retaliation.
    Are you aware of staff who have raised concerns about the health 
risks from COVID-19 at Richwood?
    Answer. I am not aware of any particular concerns raised by any 
staff but know that staff everywhere would hold the same concerns as 
anyone in the general public about health risk associated with a 
pandemic that no one has ever experienced before.
  <bullet> If yes, have any of those staff been fired or been compelled 
        to quit?
    Answer. No staff that I am aware of have been compelled to quit nor 
been fired due to expressing any health concerns. I have heard of staff 
who chose to quit due to general health concerns related to this 
pandemic. Especially some who either had other significant health 
issues personally or within their family.
  <bullet> If no, will you pledge to investigate and provide a written 
        report to the committee within 14 days?
    Answer. If I had specific information related to someone who claims 
to have been terminated simply for expressing concerns about the 
pandemic, I would be happy to investigate the allegations.
    Question 2b. How many staff have been terminated or quit at 
Richwood for any reason between January 1, 2020 to date of response? 
Please include a breakdown of the reasons for termination or separation 
as well as demographic characteristics of affected staff.
    Answer. Richwood terminations or separations as of Aug 15, 2020 are 
as follows:
  <bullet> Resigned 15 total B/F5 B/M4 W/F2 W/M2 H/F2
  <bullet> Rule Violations 5 total B/M2 W/F1 W/M2
  <bullet> Background Check 40 total B/F10 B/M18 W/F1 W/M5 H/F5 H/M1.
    Question 3a. Please describe for the committee the reasons ICE 
detainees are placed in solitary confinement inside your facilities.
    Answer. Solitary confinement is a term that is usually used in a 
correctional setting to imply some form of punishment. I am not sure 
this is what you are referring to in your question. Detainees could be 
placed in Solitary Confinement for violation of certain rules if the 
facility administrator felt it necessary to maintain the safety and 
security of the facility.
    However, detainees could be placed in an observation room away from 
other detainees if it was in their best interest as well as the best 
interest of other detainees such as being COVID-positive. This 
placement would not be in anyway punitive as they would simply be 
separated from other detainees. Any seperation due to COVID would be 
considered Medical Isolation.
    Question 3b. How many times has an ICE detainee been placed in 
solitary confinement since January 1, 2020? Please include a breakdown 
of the reasons for each solitary confinement as well as demographic 
characteristics of affected detainee.
    Answer. I would have to be given a lot more time to come up with 
this answer as every facility would have to go back through mounds of 
paperwork to provide this answer. In talking with several 
administrators, they felt the number placed in restricted housing due 
to disciplinary would probably average 3-4 per month.
    Question 3c. What was the average length of time an ICE detainee 
was kept in solitary confinement?
    Answer. LaSalle Corrections has established Restricted Housing 
Units that will isolate certain detainees from the general population. 
The Restricted Housing Unit will have 2 sections, one for detainees 
being restricted for disciplinary reasons; the other for detainees 
being restricted for administrative reasons. To provide detainees in 
the general population a safe and orderly living environment, facility 
authorities will discipline anyone whose behavior does not comply with 
facility rules and regulations. This may involve temporary confinement 
apart from the general population, in the RHU. A detainee may be placed 
in disciplinary restriction only by order of the Institutional 
Disciplinary Panel (IDP), or its equivalent, after a hearing in which 
the detainee has been found to have committed a prohibited act and only 
when alternative dispositions would inadequately regulate the 
detainee's behavior. There is a sanctioning schedule for rule 
violations. The maximum sanction for rule violations is no more than 30 
days for all violations arising out of one incident. Again, in visiting 
with several administrators they felt the average would be less than 1 
week.
    Question 3d. Is there a process in place for challenges or reviews 
of the decisions to place someone in solitary confinement? If yes, 
please describe that process.
    Answer. In accordance with ICE National Detention Standards, 
detainees have the right to appeal any decision of the Institution 
Disciplinary Panel by following the Grievance Procedure within 15 days 
of the notice of the panel's decision and disposition.
    Question 4a. There have also been reports that people are placed in 
solitary confinement due to speaking to the press about conditions at 
facilities. For example, The Intercept reports that at least 5 female 
detainees at the Irwin County Detention Center in Ocilla, Georgia were 
placed into solitary confinement days after speaking with a 
reporter.\4\ Is that true?
---------------------------------------------------------------------------
    \4\ Debbie Nathan, Women in ICE Detention Face Reprisals For 
Speaking Out About Fears of COVID-19, THE INTERCEPT, Apr. 11, 2020. 
https://theintercept.com/2020/04/28/ice-detention-coronavirus-videos/.
---------------------------------------------------------------------------
    Answer. No detainees have been placed into solitary confinement due 
to speaking to a reporter.
    Question 4b. How many times has this occurred since January 1, 
2020?
    Answer. None.
    Question 4c. Please provide the committee with all documentation 
related to each incident of an individual being placed in solitary 
confinement due to speaking to the press about conditions inside a 
facility.
    Answer. Response was not received at the time of publication.
    Question 5. Are people with mental health issues placed in solitary 
confinement? If so, are they then seen by a mental health professional 
while they are in solitary? How often are they seen by a mental health 
professional while they are in solitary? What is the average length of 
stay in solitary confinement for an individual with mental health 
issues?
    Answer. Detainees must be evaluated by a medical professional prior 
to placement in a Restrictive Housing Unit (or when that is in-
feasible, as soon as possible and no later than within 24 hours of 
placement). The assessment should include a review of whether the 
detainee has been previously diagnosed as having a mental illness.
    Nurse, doctor, or other appropriate health care professional will 
visit every detainee placed in disciplinary restriction face-to-face at 
least once every work day. The medical visit will be recorded on the 
RHU Housing Record. The medical professional will question each 
detainee to identify medical problems or requests. Where reason for 
concern exists, assessments shall be followed up with a complete 
evaluation by a qualified medical or mental health professional and 
treatment as indicated. The mental health professional determines when 
a detainee can be placed back in general population.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
